APPENDIX

TABLE OF APPENDICES
Appendix A
Order, Supreme Court of Pennsylvania,
A.Y.
v.
Janssen
Pharms.
Inc.
No. 95 EAL 2020 (Sept. 1, 2020) ................. App-1
Appendix B
Opinion, Superior Court of Pennsylvania,
A.Y. v. Janssen Pharms. Inc., No. 3058
EDA 2016 (Nov. 26, 2019) ........................... App-2
Appendix C
Opinion, Pennsylvania Court of Common
Pleas, A.Y. v. Janssen Pharms. Inc.,
No. 2094 (June 20, 2018) ........................... App-60
Appendix D
Trial Work Sheet, Pennsylvania Court of
Common Pleas, A.Y. v. Janssen Pharms.
Inc., No. 2094 (July 5, 2016) ................... App-205
Appendix E
Relevant Federal Regulations................. App-208
21 C.F.R. § 201.57 (2003) .................. App-208
21 C.F.R. § 314.70 (2003) .................. App-239

App-1
Appendix A
SUPREME COURT OF PENNSYLVANIA
EASTERN DISTRICT
________________
No. 95 EAL 2020
________________
A.Y. AND BILLIE ANN YOUNT,
v.

Respondent,

JANSSEN PHARMACEUTICALS INC., JOHNSON &
JOHNSON, JANSSEN RESEARCH & DEVELOPMENT, LLC;
EXCERPTA MEDICA, INC., and ELSEVIER INC.,
Petitioner.
________________
Filed: Sept. 1, 2020
________________
ORDER
________________
PER CURIAM
AND NOW, this 1st day of September, 2020, the
Petition for Allowance of Appeal is DENIED.

App-2
Appendix B
SUPERIOR COURT OF PENNSYLVANIA
________________
No. 3058 EDA 2016
________________
A.Y. AND BILLIE ANN YOUNT,
v.

Appellants,

JANSSEN PHARMACEUTICALS INC., JOHNSON &
JOHNSON, JANSSEN RESEARCH & DEVELOPMENT, LLC;
EXCERPTA MEDICA, INC., and ELSEVIER INC.,
Appellees.
________________
No. 3059 EDA 2016
________________
A.Y. AND BILLIE ANN YOUNT,
v.

Appellants,

JANSSEN PHARMACEUTICALS INC., JOHNSON &
JOHNSON, JANSSEN RESEARCH & DEVELOPMENT, LLC;
EXCERPTA MEDICA, INC., and ELSEVIER INC.,
Appellees.
________________
Filed: Nov. 26, 2019
________________

App-3
________________
Before: PANELLA, P.J., KUNSELMAN, J., and
STEVENS *, P.J.E.
________________
OPINION
________________
Janssen Pharmaceuticals, Inc., Janssen Research
& Development, LLC, and Johnson & Johnson
Company (collectively, “Defendants/Appellants” or
“Janssen”) appeal from the judgment of $70 million
entered on September 8, 2016, after a jury found in
favor of A.Y. and his mother, B.A.Y. (collectively,
“Plaintiffs/Appellees”) and against Janssen in this
pharmaceutical failure to warn case. In addition,
Plaintiffs/Appellees have filed a cross-appeal from the
June 10, 2016 order granting partial summary
judgment in favor of Defendants/Appellants on
Plaintiffs/Appellees’ punitive damages claim.
On Defendants/Appellants’ appeal, we affirm. On
Plaintiffs/Appellees’ cross-appeal, we reverse and
remand for the trial court to consider conflict-of-law
principles with respect to New Jersey and Appellees’
home state of Tennessee in a manner consistent with
this decision.
The trial court opinion aptly sets forth the recordbased procedural history and relevant facts, as
follows:

*

Former Justice specially assigned to the Superior Court.

App-4
PROCEDURAL HISTORY
On April 15, 2013, Plaintiffs A.Y. and [B.A.Y.,
“Mother,”] filed a Complaint against
Defendants Janssen Pharmaceuticals Inc.,
Johnson & Johnson, Janssen Research &
Development, LLC, Elsevier, Inc., and
Excerpta Medica Inc. Appellees’ Complaint
alleged the following thirteen causes of
action: (1) negligence, (2) negligent-design
defect, (3) fraud, (4) strict product liability—
failure to warn, (5) strict product liability—
design defect, (6) breach of express warranty,
(7) breach of implied warranty, (8) violation
of Pennsylvania Unfair Trade Practices and
Consumer Protection Law, 73 P.S. § 201-1 et
seq., (9) unfair and deceptive trade practices,
(10) conspiracy,
(11) punitive
damages,
(12) medical expenses incurred by parent,
and (13) loss of consortium.
By Order dated May 2, 2014, the Honorable
Arnold L. New ruled that New Jersey Law
applied to the issue of punitive damages and
that New Jersey law barred the award of
punitive damages. On June 2, 2014, Plaintiffs
filed a Motion for Reconsideration of the
Honorable Arnold New’s May 2, 2014 Order
barring the award of punitive damages. On
June 9, 2014, Defendants filed an Answer to
Plaintiff’s Motion for Reconsideration. On
July 18, 2014, Plaintiff’s Motion for
Reconsideration was denied.
On November 4, 2015, the Honorable Arnold
New approved a stipulation dismissing the

App-5
action as to Defendants Excerpta Medica,
Inc., and Elsevier Inc. On April 14, 2016,
remaining
Defendants,
Janssen
Pharmaceuticals, Inc., Johnson & Johnson,
and Janssen Research & Development, LLC,
filed a motion for summary judgment.
On May 5, 2016, Plaintiffs filed an Answer to
Defendant’s Motion for Summary Judgment.
On May 11, 2016, Defendants filed a Reply.
On June 10, 2016, the Honorable Arnold New
ruled that Tennessee Law applies to
Plaintiffs’ substantive claims [because
Plaintiffs live in Tennessee and allege causes
of action arising in Tennessee]. Plaintiffs’
claims for: negligence, negligent design
defect, strict liability—failure to warn, strict
liability—design defect, breach of express
warranty, breach of implied warranty [were
deemed] subsumed into two claims:
(a) Product Liability action because Risperdal
was defective and (b) Product Liability action
because
Risperdal
was
unreasonably
[]
dangerous.
The Honorable Arnold New further ruled that
Defendants’ Summary Judgment [motion]
was granted as to the following causes of
action: (A) product liability action because
Risperdal
was
defective,
(B) fraud,
(C) Pennsylvania’s Unfair Trade Practices
and Consumer Protection Law, (D) unfair
and deceptive trade practices (under the
Tennessee Consumer Protection Act),
(E) conspiracy, and (F) loss of consortium.

App-6
Defendant’s Motion for Summary Judgment
was denied as to all other causes of action.
On June 16, 2016, a jury trial commenced in
this matter; the Honorable Paula A. Patrick
presided. On July 1, 2016, the jury returned
a verdict in favor of the Plaintiffs. The jury
found that Defendants negligently failed to
adequately warn Plaintiffs of the risk of
gynecomastia associated with Risperdal™
use and Defendants’ negligence was a cause
in bringing about A.Y.’s gynecomastia. The
jury awarded Plaintiffs compensatory
damages in the amount of $70,000,000.00
(seventy million dollars). On July 5, 2016, the
jury’s verdict was entered.
On July 8, 2016, Plaintiffs filed a Post-Trial
Motion for Delay Damages. On August 10,
2016, Plaintiffs’ Motion for Delay Damages
was granted. Plaintiffs were awarded
$6,661,027.40 in Delay Damages. The jury
verdict of $70,000,000.00 was molded to add
Delay Damages of $6,661.027.40 for a total
verdict of $76,661,027.40. On September 7,
2016, judgment was entered in this matter.
On September 9, 2016, Defendants filed an
Appeal to the Superior Court from decisions
dated July 1, 2016, July 5, 2016, July 25,
2016, and August 10, 2016. On September 13,
2016, Plaintiffs filed a cross-appeal to the
Superior Court from decisions dated May 2,
2014, July 18, 2014, and July 25, 2016. On
September 22, 2016, Plaintiffs filed a
Statement of Errors Complained of on Appeal

App-7
pursuant to Pa.R.A.P. 1925(b). On October
12, 2016, Defendants filed a Statement of
Errors Complained of on Appeal pursuant to
Pa.R.A.P. 1925(b).
FACTUAL BACKGROUND
Risperdal (risperdone) is an antipsychotic
medication belonging to a class of drugs
which [has] become known as “atypical” or
“second generation” (“SGA”) antipsychotics.
Risperdal was originally developed and
approved for use in the treatment of
symptoms associated with schizophrenia. The
adverse effects associated with Risperdal are:
rapid weight gain, hyperprolactinemia,
gynecomastia (abnormal development of
breasts in males), galactorrhea (lactation),
pituitary tumors, microadenomas of the
pituitary gland, breast cancer, osteoporosis,
decreased bone mineral density, metabolic
syndrome,
dyslipidemia,
hypertension,
diabetes mellitus, diabetic ketoacidosis
(DKA), hyperosmolar coma, hyperglycemia,
glucose dysregulation, insulin insufficiency,
insulin resistance, pancreatitis, tardive
dyskinesia,
extrapyramidal
symptoms,
involuntary movement disorders, dyskinesia,
dystonia, akatisia, parkinsonism, neuroleptic
malignant syndrome (NMS) and/or other
related conditions. Risperdal is designed,
developed,
tested,
labeled,
packaged,
distributed, marketed, and sold throughout
the United States by the Janssen Defendants.

App-8
On December 29, 1993, Janssen obtained
approval from the Food and Drug
Administration (“FDA”) to market Risperdal
oral
tablets
for
the
treatment
of
“manifestations of psychotic disorders”
(schizophrenia) in adults. In September 2000,
the FDA requested that the label be changed
to more clearly indicate that Risperdal was
only approved for use in treating
schizophrenia in adults. In October 2006,
Risperdal was approved for the treatment of
irritability associated with autistic disorder
in children and adolescents (between the ages
of 5 and 16), including symptoms of
aggression towards others, deliberate selfinjuriousness, temper tantrums and quickly
changing moods. Risperdal has not been
approved for children younger than 5 or those
older than 16 years old for irritability
associated with autistic disorder.
The prescribing of drugs “off-label” occurs
when a drug is prescribed by a medical
professional for use beyond those contained in
the drug’s FDA-approved uses. This includes
prescribing a drug for a condition not
indicated on the label, treating the indicated
condition at a different dose or frequency
than specified in the label, or treating a
different patient population. An example of
off-label use is the treatment of a child with
the drug when the drug is approved to treat
adults.[]

App-9
Plaintiff A.Y. was born in 1999. [A.Y.] was
diagnosed
with
Attention
Deficit
Hyperactivity
Disorder
(ADHD)
and
Oppositional Defiant Disorder (ODD). In
August of 2003, when A.Y. was four and a half
years old, he was prescribed Risperdal by Dr.
Deniz Eker, a pediatric psychiatrist. Eker
Dep. 2/8/16, at 31-32. At the time Dr. Eker
prescribed Risperdal to A.Y., she did not warn
A.Y.’s mother about the risk of gynecomastia.
Dr. Eker stated that she would have warned
A.Y.’s mother, but Dr. Eker did not know at
the time that there was such a significant risk
of gynecomastia from elevated prolactin. Id.
at 56, 61.
In January 2004, four months after [A.Y.]
began taking Risperdal, A.Y.’s mother went
to Doctor Eker and expressed concern that
A.Y’s breasts were enlarging. Id. at 65. Dr.
Eker then began tapering the Risperdal
because
she
was
concerned
about
gynecomastia. Id. at 66.
In February 2005, after the initial tapering,
Dr. Eker noted that A.Y.’s breasts were
getting big and that she was discontinuing
Risperdal because A.Y. had gynecomastia. Id.
Dr. Eker testified that when she first noticed
gynecomastia, she began tapering off from
the Risperdal but would have stopped it
immediately if she had been properly
informed about the risk of gynecomastia from
Risperdal.
Id.
Dr.
Eker
believed
gynecomastia was much less frequent and

App-10
that A.Y.’s development of female breasts (at
five years old) was a rare occurrence. When
Dr. Eker believed the gynecomastia had gone
down, she put A.Y. back on Risperdal. Id. at
76-77.
Dr. Eker transferred A.Y.’s psychiatric care to
Dr. Michael Hughes in the first half of 2005.
Id. at 78. Dr. Hughes testified that the idea to
put A.Y. on Risperdal originated with Dr.
Eker, and he was simply continuing the
treatment. Id. at 279-80.
Dr. Hughes could not say that he would have
put A.Y. on Risperdal at all if Dr. Eker had
not prescribed it first. Id. Dr. Hughes testified
that if he had known that there was a
statistically significant association between
prolactin elevation from Risperdal use and
gynecomastia this information would have
had a significant impact in his thinking with
regard to prescribing Risperdal. Id. at 266267. Dr. Hughes stated that he would have
pushed against Risperdal use if he had known
of the additional significant concerns. Id. at
83-84. Dr. Hughes treated A.Y. from May
2005 through May 2011. Id. at 228-29. Dr.
Hughes discontinued Risperdal at the request
of A.Y.’s mother because A.Y. was gaining so
much weight. Id. at 161-62.
Dr. Brian Bonfardin, a psychiatrist, began
treating A.Y. in June 2011. Id. at 16. In June
of 2012, A.Y. was struggling, and A.Y.’s
mother suggested trying Risperdal again to
Dr. Bonfardin. At that time, Dr. Bonfardin’s

App-11
prescription of Risperdal had already
plummeted because he had learned prior to
2012 that Risperdal increased prolactin levels
more than other antipsychotics. Id. at 48-49.
Dr. Bonfardin testified that he did not know
of [Janssen’s own clinical] studies showing a
5.5% and 12.5% frequency of gynecomastia
among children who used Risperdal. If he had
such information, he would have warned
A.Y.’s mother about this significant risk.
Bonfardin Dep., 2/11/16, at 16.
A.Y.’s care was transferred to Dr. Gordon
Greeson in October of 2012. Dr. Greeson took
A.Y. off Risperdal once he took over care
because A.Y. gained quite a bit of weight and
had hypertension in the short period he had
been put back on Risperdal. A.Y.’s mother
requested he be put back on Risperdal [the]
next month.
In 2013, A.Y.’s mother saw an advertisement
discussing gynecomastia from Risperdal use.
A.Y. Mother Dep., 12/14/15, at 6-8. She got in
contact with an attorney and then went to
talk to A.Y.’s treating physicians about the
problem. Id. Dr. Greeson learned of the
gynecomastia from A.Y.’s mother in March
2013. Dr. Greeson immediately decided he
needed to stop Risperdal because he feared
making the problem worse.
Trial Court Opinion, 6/20/18, at 1-7.
Appellants raise the following questions for our
consideration:

App-12
1.

Were Defendants/Appellants entitled to
JNOV because federal law preempts
Plaintiffs’/Appellees state-law failure-towarn claim?

2.

Were Defendants/Appellants entitled to
JNOV because Plaintiffs/Appellees failed to
establish any inadequate warning was the
proximate cause of A.Y.’s Risperdal use and
gynecomastia?

3.

Is a new trial required because the trial court
erroneously excluded: (1) testimony of a
treating doctor who continued to prescribe
Risperdal for A.Y. at his mother’s request and
after she filed this lawsuit, which called into
question whether a different warning would
have changed the prescribing decision; and
(2) testimony and evidence establishing
A.Y.’s serious mental illness and the
significant benefit of Risperdal therapy for
him, which was relevant to the benefit/risk
analysis made by A.Y.’s prescribers?

4.

Is a new trial required because the trial court
did not instruct the jury that under
Tennessee’s “learned intermediary” rule, the
jury had to assess whether the warnings were
adequate to warn A.Y.’s doctors, to whom
Janssen owed a duty to warn?

5.

Is a new trial or remittitur required because
the trial court failed to apply Tennessee’s
$750,000.00 cap for non-economic damages?

6.

Is a new trial or remittitur required because
the jury’s $70,000,000.00 compensatorydamages award was excessive?

App-13
Appellants’ brief, at 6-7.
In their first two issues, Appellants contend they
were entitled to judgment non obstante veredicto
(“JNOV”)
because
federal
law
preempts
Plaintiffs/Appellees’ state failure-to-warn claim that
Tennessee law required Janssen to change labeling to
reflect juvenile Risperdal users’ heightened risk of
gynecomastia. We set forth our standard of review
from the denial of a motion for judgment n.o.v.:
A motion for judgment n.o.v. is a post-trial
motion which requests the court to enter
judgment in favor of the moving party. There
are two bases on which the court can grant
judgment n.o.v.:
[O]ne, the movant is entitled to
judgment as a matter of law and/or
two, the evidence is such that no two
reasonable minds could disagree that
the outcome should have been
rendered in favor of the movant. With
the first, the court reviews the record
and concludes that even with all
factual inferences decided adverse to
the movant the law nonetheless
requires a verdict in his favor,
whereas with the second, the court
reviews the evidentiary record and
concludes that the evidence was such
that a verdict for the movant was
beyond peradventure.
Polett v. Public Communications, Inc., 83
A.3d 205, 212 (Pa.Super. 2013), reversed on
other grounds, 633 Pa. 445, 126 A.3d 895 (Pa.

App-14
2015). In an appeal from the trial court’s
decision to deny judgment n.o.v.,
we must consider the evidence,
together with all favorable inferences
drawn therefrom, in a light most
favorable to the verdict winner. Our
standard of review when considering
motions for a directed verdict and
judgment
notwithstanding
the
verdict are identical. We will reverse
a trial court’s grant or denial of a
judgment
notwithstanding
the
verdict only when we find an abuse of
discretion or an error of law that
controlled the outcome of the case.
Further, the standard of review for an
appellate court is the same as that for
a trial court.
Id. at 211.
Drake Mfg. Co., Inc. v. Polyflow, Inc., 109
A.3d 250, 258-259 (Pa.Super. 2015).
“Concerning any questions of law, our
scope
of
review
is
plenary.
Concerning questions of credibility
and weight accorded the evidence at
trial, we will not substitute our
judgment for that of the finder of
fact. . . . A JNOV should be entered
only in a clear case.” [Advanced
Telephone Systems, Inc. v. Com-Net
Professional Mobile Radio, LLC, 846
A.2d 1264, 1279 (Pa.Super. 2004),
appeal denied, 580 Pa. 687, 859 A.2d

App-15
767 (2004) (citation omitted)]. “[T]he
entry of a judgment notwithstanding
the verdict … is a drastic remedy. A
court cannot lightly ignore the
findings of a duly selected jury.”
Education Resources Institute, Inc. v.
Cole, 827 A.2d 493, 497 (Pa.Super.
2003), appeal denied, 577 Pa. 721, 847
A.2d 1286 (2004) (citation omitted).
Growall v. Maietta, 931 A.2d 667, 670
(Pa.Super. 2007), appeal denied, 597
Pa. 717, 951 A.2d 1164 (2008). Rule
702 of the Pennsylvania Rules of
Evidence.
Stange v. Janssen Pharmaceuticals, Inc., 179 A.3d 45,
52-53 (Pa. Super. 2018).
“Federal ‘preemption is an affirmative defense on
which [the] defendant bears the burden of proof.’”
Aaron v. Wyeth, 2010 WL 653984, at *3 (W.D. Pa. Feb.
19, 2010) (quoting Cambridge Literary Props., Ltd. v.
W. Goebel Porzellanfabrik G.m.b.H. & Co. KG., 510
F.3d 77, 102 (1st Cir. 2007), cert. denied, 555 U.S. 815,
129 S.Ct. 58, 172 L.Ed.2d 25 (2008); citing Wyeth v.
Levine, 555 U.S. 555, ----, 129 S.Ct. 1187, 1193, 173
L.Ed.2d 51 (2009) (characterizing a manufacturer’s
argument that federal drug law preempted the
plaintiff’s claims as a defense)) (hereinafter “Wyeth”).
Our courts acknowledge a presumption against such a
defense:
We recognize a presumption against federal
pre-emption of state law. Dooner v. DiDonato,
601 Pa. 209, 971 A.2d 1187 (2009) (citing
Altria Group, Inc. v. Good, 555 U.S. 70, 129

App-16
S.Ct. 538, 172 L.Ed.2d 398 (2008)). In Kiak v.
Crown Equipment Corp., 989 A.2d 385, 390
(Pa.Super. 2010), this Court attributed that
presumption to the “dual jurisdiction” which
“results from reasons of comity and mutual
respect between the two judicial systems that
form the framework of our democracy.”
Fetterman v. Green, 455 Pa.Super. 639, 689
A.2d 289, 292 (1997); see also Cipollone v.
Liggett Group, Inc., 505 U.S. 504, 516, 112
S.Ct. 2608, 120 L.Ed.2d 407 (1992). As the
United States Supreme Court noted in Altria
Group, Inc., supra: When addressing
questions of express or implied preemption,
we begin our analysis “with the assumption
that the historic police powers of the States
[are] not to be superseded by the Federal Act
unless that was the clear and manifest
purpose of Congress.” Rice v. Santa Fe
Elevator Corp., 331 U.S. 218, 230, 67 S.Ct.
1146, 91 L.Ed. 1447 (1947). That assumption
applies with particular force when Congress
has legislated in a field traditionally occupied
by the States. [Medtronic Inc. v.] Lohr, 518
U.S. at 485, 116 S.Ct. 2240, 135 L.Ed.2d 700;
see also [Lorillard Tobacco Co. v.] Reilly, 533
U.S. at 541-542, 121 S.Ct. 2404, 150 L.Ed.2d
532 [(2001)] (“Because ‘federal law is said to
bar state action in a field of traditional state
regulation,’ namely, advertising, we ‘work on
the assumption that the historic police
powers of the States are not to be superseded
by the Federal Act unless that is the clear and
manifest purpose of Congress’” (citation

App-17
omitted)). Thus, when the text of a preemption clause is susceptible of more than
one plausible reading, courts ordinarily
“accept the reading that disfavors preemption.” Bates v. Dow Agrosciences LLC, 544
U.S. 431, 449, 125 S.Ct. 1788, 161 L.Ed.2d
687 (2005). Altria Group, Inc., 555 U.S. at 77,
129 S.Ct. 538.
Hassett v. Dafoe, 74 A.3d 202, 210 (Pa.Super. 2013).
Accord, Lake v. Memphis Landsmen, LLC, 405 S.W.3d
47, 56 (Tenn. 2013)
In their preemption argument, Appellants insist
Janssen’s labeling at all relevant times was adequate
as a matter of Tennessee law. Nevertheless, they posit
that even if Tennessee law required Janssen to change
labeling as Appellees propose, the federal law doctrine
of
“impossibility
preemption”
applies
to
Plaintiffs/Appellees’ state-law negligent failure-towarn claim, because it was “impossible for Janssen
simultaneously to comply with its federal and statelaw obligations” regarding Risperdal labeling of
pediatric gynecomastia risks. See Appellants’ brief, at
27 (quoting Strayhorn v. Wyeth Pharm., Inc., 887
F.Supp. 2d 799, 809-10 (W.D. Tenn. 2012)
(“Impossibility preemption is a type of implied conflict
preemption which occurs when ‘state and federal law
conflict [and] it is impossible for a private party to
comply with both state and federal requirements.’”),
aff’d, 737 F.3d 378 (6th Cir. 2013) (quoting PLIVA, Inc.
v. Messing, 564 U.S. 604, 618 (2011)).
We have previously discussed controlling
decisional law characterizing impossibility preemption as “a demanding defense.” Hasset, 74 A.3d at

App-18
210 (quoting Wyeth, 129 S.Ct. at 1199). Similarly,
Tennessee has observed:
The United States Supreme Court has
identified two fundamental principles that
must guide any preemption analysis. First,
no matter what type of preemption is at issue,
“the purpose of Congress is the ultimate
touchstone.” Wyeth, 555 U.S. 555, 565, 129
S.Ct. 1187, 173 L.Ed.2d 51 (2009) (quoting
Medtronic, Inc. v. Lohr, 518 U.S. 470, 485,
116 S.Ct. 2240, 135 L.Ed.2d 700 (1996)).
Second, in conducting any preemption
inquiry, courts must “start with the
assumption that the historic police powers of
the States were not to be superseded by
[federal law] unless that was the clear and
manifest purpose of Congress”—particularly
when the federal law in question pertains to
“a field which the States have traditionally
occupied.” Id. (quoting Medtronic, 518 U.S. at
485, 116 S.Ct. 2240) (internal quotation
marks omitted); see also Leggett, 308 S.W.3d
at 854; Morgan v. Ford Motor Co., 224 W.Va.
62, 680 S.E.2d 77, 83 (2009) (“Preemption of
topics traditionally regulated by states—like
health and safety—is greatly disfavored in
the absence of convincing evidence that
Congress intended for a federal law to
displace a state law.”).
Lake, 405 S.W.3d at 56.
In Wyeth, the United States Supreme Court held
that impossibility preemption did not apply to state
claims based on a failure to warn of the risk of

App-19
gangrene from Phenergan delivered by an IV-push
method, where it was within the power of the
defendant manufacturer, Wyeth, to comply with both
state and federal law by unilaterally strengthening
the label’s warning. In so holding, the Court explained
that the Federal Food, Drug and Cosmetic Act [“Act”]
is premised upon the expectation that manufacturers
are primarily responsible for drug safety through
proper labeling. The presumption follows, the Court
continued, that compliance with both state and federal
labeling requirements is possible unless there exists
clear evidence that the FDA would block a proposed
change to the label.
With regard to Wyeth, it has been observed:
In holding that the FDA’s approval of Wyeth’s
label did not provide a complete defense to the
plaintiff’s failure to warn claim under a
federal preemption theory, the Wyeth Court
emphasized that it was Congress’ intent that
state law act as a “complimentary form of
drug regulation” because “manufacturers
have superior access to information about
their drugs, especially in the postmarketing
phase as new risks emerge.” Wyeth at 1202.
The Court further emphasized:
State tort suits uncover unknown
drug hazards and provide incentives
for drug manufacturers to disclose
safety risks promptly. They also serve
a distinct compensatory function that
may motivate injured persons to come
forward with information. Failure-towarn actions, in particular, lend force

App-20
to the [Federal Food, Drug and
Cosmetic
Act’s]
premise
that
manufacturers, not the FDA, bear
primary responsibility for their drug
labeling at all times. Thus, the FDA
long maintained that state law offers
an additional, and important, layer of
consumer
protection
that
complements FDA regulation.
Id.
Moreover, the Court found no Congressional
intent to vest the FDA with the sole authority
to ensure drug safety and effectiveness, as
would result from the preemption of state tort
actions. Id. at 1200. Wyeth, however, does not
render state law failure-to-warn claims
immune to preemption in every case. The
Supreme Court recognized that “some statelaw claims might well frustrate the
achievement of congressional objectives” in
the federal regulation of drug labeling. Wyeth,
129 S.Ct. at 1204. To prevail here, Wyeth
“faces an exacting burden to establish
preemption of state law claims because
compliance with both state and federal
requirements for drug labeling is not
impossible ‘absent clear evidence that the
FDA would not have approved a change’ in
the drug’s labeling.” Forst v. Smithkline
Beecham Corp., 639 F.Supp.2d 948, 953-954
(E.D.Wis.2009) (quoting Wyeth, 129 S.Ct. at
1198).
Aaron, 2010 WL 653984, at *5.

App-21
According to Appellants, however, federal law set
forth in the Act at 21 C.F.R. §§ 201.57(e) and 312.32
provides that only the Food and Drug Administration
(“FDA”) may require a warning concerning a risk of an
off-label or non-approved use, and even then only in
the case of a “serious” risk, namely, one that threatens
life or normal life functions, or requires
hospitalization.
Appellants
acknowledge
the
regulations provide an exception to this general
restriction, the “changes being effected,” or “CBE”
exception
articulated
at
21
C.F.R.
§§ 314.70(c)(6)(iii)(A), but they maintain the facts do
not bring the present case within the bounds of the
exception.
Specifically, the CBE exception permits a
manufacturer to change labeling without prior FDA
approval only if (1) the manufacturer had newly
acquired information about the drug (2) that showed a
causal association (3) between the drug and an effect
that warranted a new or stronger warning. 21 C.F.R.
§§ 314.70(c)(6)(iii)(A). “[N]ewly acquired information
is data, analyses, or other information not previously
submitted to the [FDA that] reveal risks of a different
type or greater severity or frequency than previously
included in submissions to FDA.” 21 C.F.R. § 314.3;
see also Wyeth, 129 S.Ct. 1197 (quoting 73 Fed.Reg.
49607).
Appellees argue that Janssen’s extensive clinical
studies culminating with data compiled in its “Table
21,” 1 discussed at length in the testimony of expert
1 Expert witness Dr. David Kessler, FDA commissioner from
1991-1997, testified that by the year 2000 or 2001, Janssen had
collected data at Table 21 showing a statistically significant

App-22
witness David Kessler, M.D., see infra, brought them
within the contours of the CBE regulations, as the
studies supplied the manufacturer with newly
acquired information showing a causal association
between Risperdal and more frequent and severe
gynecomastia in juvenile boys than had been observed
in the adult male population.
Appellants, however, dispute that Janssen had
the authority to change labeling to inform that:
Risperdal is associated with higher prolactin levels
than other antipsychotic medications; elevated
prolactin “causes” gynecomastia in the pediatric
population; and clinical studies show sufficiently
higher rates of gynecomastia in the pediatric
population to qualify the condition as “frequent” in
that population, as differentiated from the “rare”
occurrence reported in adults. This is so, they claim,
because Risperdal was not approved for pediatric
use—it was an “off-label” use—and only the FDA had
the authority to warn about off-label uses.
Plaintiffs/Appellees assail Appellants’ “off-label
use” defense as also being inconsistent with governing
statutory law as it existed at the time A.Y. began
taking Risperdal. Specifically, Appellees accurately
point out that 21 C.F.R. § 201.57(f)(9)(i), which
pertained to “pediatric care,” was in effect in 2003 and
provided that any “specific hazard” associated with an
increase in both prolactin levels in children taking Risperdal for
at least 8 to 12 weeks and in prolactin-related gynecomastia in
children. Janssen, however, never shared this information. In his
expert opinion, by the year 2000 or 2001, Janssen was marketing
Risperdal for children and adolescents, and was, thus, obligated
to share their studies at this time. N.T. 5/19/2015, at 88-127.

App-23
unapproved pediatric use “shall be described in this
subsection of the labeling . . . .” Id.
Appellants’ position is out of step with controlling
jurisprudence on drug manufacturers’ responsibilities
to act on their unique access to product information by
adequately warning consumers of newly discovered
heightened risks of injury associated with the drug.
Indeed, as the United States Supreme Court has
recently reiterated, the CBE regulation contemplates
that drug manufacturers bear ultimate responsibility
to provide adequate descriptions of a drug’s newly
discovered risks to ensure consumer safety. 2 This was
particularly so prior to 2007—the relevant period in
the case sub judice—when the FDA lacked authority
to order manufacturers to revise their labels:
We also observed that “through many
amendments to the FDCA and to FDA
regulations, it has remained a central
premise of federal drug regulation that the
manufacturer bears responsibility for the
content of its label at all times.” Wyeth, at
570-571,
129
S.Ct.
1187.
A
drug
manufacturer “is charged both with crafting
an adequate label and with ensuring that its
While the Wyeth Court acknowledged FDA regulations
generally provide that a manufacturer may change a drug label
only after FDA approval of a change application, as we note
supra, it interpreted the misbranding provision of the regulations
as proscribing not labels that enhance warnings but, instead,
those that fail to include adequate warnings. Indeed, on this
point, the High Court stated frankly, “And the very idea that the
FDA would bring an enforcement action against a manufacturer
for strengthening a warning … is difficult to accept.” Wyeth, 129
S.Ct. at 1197.
2

App-24
warnings remain adequate as long as the
drug is on the market.” Id., at 571, 129 S.Ct.
1187. Thus, when the risks of a particular
drug become apparent, the manufacturer has
“a duty to provide a warning that adequately
describe[s] that risk.” Ibid. “Indeed,” we
noted, “prior to 2007, the FDA lacked the
authority to order manufacturers to revise
their labels.” Ibid. And even when “Congress
granted the FDA this authority,” in the 2007
Amendments to the FDCA, Congress
simultaneously
“reaffirmed
the
manufacturer’s obligations and referred
specifically to the CBE regulation, which both
reflects
the
manufacturer’s
ultimate
responsibility for its label and provides a
mechanism for adding safety information to
the label prior to FDA approval.” Ibid.
Merck Sharp & Dohme Corp. v. Albrecht, 139 S. Ct. 1668,
1677, 203 L. Ed. 2d 822 (2019).
Moreover, the High Court emphasized that
impossibility preemption under the relevant
regulatory scheme requires the manufacturer to have
fully disclosed the need for the additional warning,
only to be met with FDA refusal:
The underlying question for this type of
impossibility pre-emption defense is whether
federal law (including appropriate FDA
actions) prohibited the drug manufacturer
from adding any and all warnings to the drug
label that would satisfy state law. And, of
course, in order to succeed with that defense
the manufacturer must show that the answer

App-25
to this question is yes. But in Wyeth, we
confronted that question in the context of a
particular set of circumstances. Accordingly,
for purposes of this case, we assume—but do
not decide—that, as was true of the warning
at issue in Wyeth, there is sufficient evidence
to find that Merck violated state law by
failing to add a warning about atypical
femoral fractures to the Fosamax label. In a
case like Wyeth, showing that federal law
prohibited the drug manufacturer from
adding a warning that would satisfy state law
requires the drug manufacturer to show that
it fully informed the FDA of the justifications
for the warning required by state law and
that the FDA, in turn, informed the drug
manufacturer that the FDA would not
approve changing the drug’s label to include
that warning.
Merck Sharp & Dohme Corp., 139 S. Ct. at 1678. In
the present matter, Janssen did not make such a
showing of full disclosure to the FDA during the
relevant time.
The FDA surely possesses the authority under the
statutory scheme to reject a revised label submitted by
Janssen or any other manufacturer. This fact, alone,
however, does not insulate a manufacturer from state
failure to warn claims where the CBE scheme is
available to enable compliance with state law:
Of course, the FDA reviews CBE submissions
and can reject label changes even after the
manufacturer
has
made
them.
See
§§ 314.70(c)(6), (7). And manufacturers

App-26
cannot propose a change that is not based on
reasonable evidence. § 314.70(c)(6)(iii)(A).
But in the interim, the CBE regulation
permits changes, so a drug manufacturer will
not ordinarily be able to show that there is an
actual conflict between state and federal law
such that it was impossible to comply with
both.
Id., 139 S. Ct. at 1679.
As such, viewing Appellants’ defense in light of
the above authority, we disagree that the regulatory
scheme would have “clearly” prevented it from
warning about the statistically significant increase in
frequency and severity of gynecomastia in boys taking
Risperdal. In fact, we view Appellants’ “misbranding
avoidance” argument offered to justify Janssen’s
withholding of additional warnings to be of the type
effectively rejected in Wyeth and its progeny. Because
Appellants, therefore, have not carried their burden of
proof applicable to their preemption defense, we find
that federal drug labeling laws did not preempt
Appellees’ Tennessee tort law claim.
In Appellants’ next issue, they contend JNOV was
required because Plaintiffs/Appellees failed to
establish that the lack of a gynecomastia warning
specific to juvenile risk was the proximate cause of
A.Y.’s harm. 3 According to Appellants, even if the
3 Proximate causation was but one of two forms of causation—
cause-in-fact being the other—Plaintiffs/Appellees bore the
burden of establishing at trial. See infra. The Tennessee Supreme
Court has explained the distinction between the two causations,
as follows:

App-27
Risperdal warnings were inadequate—a supposition
they deny—the evidence showed that the label
Plaintiffs/Appellees’ advocated at trial would not have
prevented A.Y. from taking Risperdal and developing
gynecomastia.
A.Y.’s physicians were aware of a potential risk of
gynecomastia when they decided to prescribe
Risperdal for A.Y., Appellants maintain, and his
parents either continued with or returned to Risperdal
despite having learned of its causative role in A.Y.’s
gynecomastia diagnosis. Moreover, Appellant posits
that a plaintiff cannot prove the causation element
when he or she elects to continue a medication after
The distinction between cause in fact and proximate, or legal,
cause is not merely an exercise in semantics. The terms are
not interchangeable. Although both cause in fact and
proximate, or legal, cause are elements of negligence that the
plaintiff must prove, they are very different concepts. Cause
in fact refers to the cause and effect relationship between the
defendant’s tortious conduct and the plaintiff’s injury or loss.
Thus, cause in fact deals with the “but for” consequences of
an act. The defendant’s conduct is a cause of the event if the
event would not have occurred but for that conduct. In
contrast, proximate cause, or legal cause, concerns a
determination of whether legal liability should be imposed
where cause in fact has been established. Proximate or legal
cause is a policy decision made by the legislature or the
courts to deny liability for otherwise actionable conduct
based on considerations of logic, common sense, policy,
precedent and “our more or less inadequately expressed ideas
of what justice demands or of what is administratively
possible and convenient.”
White v. Lawrence, 975 S.W.2d 525, 529 (Tenn. 1998) (quoting
Snyder v. Ltg. Lufttechnische GmbH, 955 S.W.2d 252, 256 n. 6
(Tenn.1997) (citations omitted)). Appellants, however, challenge
only Appellees’ proximate causation proffer at trial.

App-28
raising a failure-to-warn claim. It is undisputed that
A.Y. continued to take Risperdal after filing the
present action.
To establish proximate causation in a
pharmaceutical
failure-to-warn
case,
under
Tennessee law, a plaintiff must show that “had
additional warnings been given, the plaintiff[] would
not have sustained [his] injuries.’ King v. Danek Med.,
Inc., 37 S.W.3d 429, 453 (Tenn.Ct.App. 2000). Because
the flow of information in this context, however, runs
through the treating physician, the law applies a
“learned intermediary” doctrine, whereby the plaintiff
must show that the absent warning, if given, would
have altered the prescribing physician’s actions and,
thereby, averted the patient’s injury. The purpose of
the learned intermediary doctrine is to ensure that
makers of “unavoidably unsafe products” with a duty
to give warnings may “reasonably rely on
intermediaries [often physicians] to transmit their
warnings and instructions.” Pittman v. Upjohn Co.,
890 S.W. 2d 425, 429 (Tenn. 1994).
With respect to a plaintiff’s burden to prove
causation under the learned intermediary doctrine,
the Tennessee Court of Appeals has held:
In order to recover for failure to warn under
the learned intermediary doctrine, a plaintiff
must show: (1) that the defendant failed to
warn the physician of a risk associated with
the use of the product not otherwise known to
the physician; and (2) that the failure to warn
the physician was both a cause in fact and
proximate cause of the plaintiff’s injury.

App-29
Harden v. Danek Med., Inc., 985 S.W.2d 449, 451
(Tenn. Ct. App. 1998).
Appellants’ learned intermediary argument
asserts that Appellees presented insufficient evidence
that A.Y.’s treating physicians would have refrained
from using Risperdal had Janssen issued a different
warning. To support this position, Appellants provide
numerous citations to the record, albeit it without any
accompanying explanation of the testimony involved.
Our review of this record, however, brings us in
accord with the trial court and its determination that
Appellant’s physicians amply testified they would
have chosen a different course of treatment had
Janssen disclosed on the Risperdal label the
significantly heightened risk of prolactin-related
gynecomastia that existed for juvenile boys. To that
end, we adopt the trial court opinion’s salient
discussion of how Dr. Eker’s and Dr. Hughes’
respective reliance on inadequate Risperdal
information supplied by Janssen, coupled with their
lack of independent knowledge about juvenile,
prolactin-related gynecomastia, defeated Janssen’s
learned intermediary defense. Additionally, the
extensive videotaped deposition testimony of Dr.
Kessler regarding Janssen’s breach of duty to inform
physicians under the learned intermediary rubric also
supports the trial court’s conclusion on proximate
causation. See N.T., 5/19/15, at 15-317; N.T., 5/20/15,
at 333-656.
Nevertheless, we discuss briefly the testimony
pertinent to the issue of proximate causation. To carry
its evidentiary burden with respect to causation,
Plaintiffs/Appellees presented the testimony of, inter

App-30
alia, A.Y.’s treating physician, pediatric psychiatrist
Dr. Deniz Eker, treating phyisican, pediatric
psychiatrist Dr. Michael Hughes, M.D., and expert
David Kessler, M.D., who, as mentioned supra, served
as Commissioner of the FDA between 1990 and 1997.
Specifically, Dr. Eker testified that she first
prescribed Risperdal to A.Y. in August of 2003 to treat
A.Y.’s ADHD and oppositional defiant disorder. She
maintained she did not warn A.Y.’s mother about the
risk of gynecomastia at the time because she was
unaware there was such a significant risk from
elevated prolactin. Eker Dep. 2/8/16, at 56, 61. Though
Dr. Eker could not remember whether she had
consulted the Risperdal label thirteen years ago, she
testified that she would have checked the Physician’s
Desk Reference (PDR), which relies in part on drug
labeling, for potential side effects associated with
Risperdal. Id. at 100.
Had Dr. Eker known of the risk, she testified, she
would have warned A.Y.’s mother. Id. at 61. A.Y.’s
parents confirmed Dr. Eker did not discuss
gynecomastia with them, and they testified they never
would have agreed to the use of Risperdal if they had
known the true risk of gynecomastia. N.T., 6/29/16, at
238-40,317; N.T., 6/24/16, at 23-24, 48. Dr. Hughes,
who assumed care of A.Y. starting in 2005, also
expressed in his deposition testimony the importance
of knowing the actual risk of juvenile gynecomastia
stemming from hyperprolactinemia in his making his
prescription decision. Hughes Dep. 3/10/16, at 66-69.
Furthermore, both doctors denied having meaningful
training or experience with, or independent

App-31
knowledge of, gynecomastia. N.T., 2/8/16, at 126-28;
N.T., 3/10/16, at 91, 122-24.
At the time Dr. Eker first prescribed Risperdal to
A.Y., according to the testimony of Dr. Kessler,
Janssen already knew that Risperdal posed an
increased risk of gynecomastia to juveniles. See fn. 1,
supra. Yet, the Risperdal label failed to warn of this
increased risk.
Specifically, Dr. Kessler testified in his video
deposition that in August of 2003, the Risperdal label
indicated the drug’s effect on prolactin levels was
consistent with other drugs in its class, that
hyperprolactinemia
had
unknown
clinical
significance, and that gynecomastia was a “rare”
occurrence associated with Risperdal use, occurring in
fewer than 1 in 1000 patients, compared to a
“frequent” occurrence, defined as more than 1 in 100
patients. Kessler Tr. Dep., 5/19/2015, at 13-29.
Yet, Dr. Kessler explained, Janssen knew of
Risperdal’s increased risk from eighteen clinical
studies it had conducted through the 1990’s and into
the 2000’s to overcome its prior failed efforts to obtain
FDA approval to introduce pediatric dosing
information on the label. Two of the studies of boys
ranging from 5 to 18 years old, in particular, showed a
frequent occurrence of gynecomastia. The first was a
long-term clinical study in which patients underwent
a 48-week observation while taking Risperdal. An
interim analysis in 2000 showed a gynecomastia
incidence rate of 3.7% (13 cases/266 boys). The 2002
final analysis for the clinical study revealed an
incidence rate of 5.5% (23 cases/419 boys).

App-32
The second study represented a one-year
extension of the first study, by recording the incidence
of new and continuing gynecomastia in boys who had
participated in the first study and continued to take
Risperdal for a second year. The study found an
incident rate of gynecomastia at 12.5%. Dr. Kessler
testified the rate was “frequent.” Id. at 46-72.
By Janssen’s own 2002 internal analysis of its
studies, there was a statistically significant
correlation between Risperdal and prolactin-related
gynecomastia in children. Dr. Kessler testified
Janssen was obligated to warn about the risks at this
time by submitting the results of its studies to the
FDA as an “important finding,” but it did not do so. Id.
at 143-77. Instead, in December 2003, Janssen sought
FDA approval of Risperdal for pediatric use without
submitting the new data on gynecomastia risk. When
the FDA denied Janssen’s application for safety
concerns regarding prolactin elevation, Janssen
responded, “A review of the safety information did not
show a correlation between prolactin levels and
adverse events that are potentially attributable to
prolactin.” Dr. Kessler characterized Janssen’s
response as misleading. Id. at 177-84.
Accordingly, we agree with the trial court that the
record belies Appellant’s “learned intermediary”
defense that A.Y.’s physicians prescribed Risperdal
with knowledge of the heightened pediatric
gynecomastia risks associated with the drug. See
Pittman, supra at 29 (indicating that an adequate
warning to learned intermediaries must convey, inter
alia, a warning with the degree of intensity required
by the nature of the risk). See also Proctor v. Davis,

App-33
291 Ill.App.3d 265, 682 N.E.2d 1203, 1214. (Ill.App.
1997) (holding drug manufacturer Upjohn could not
rely on prescribing physicians as “learned
intermediaries” when their off-label use occurred
without knowledge of dangerous side effects and was
promoted through misleading information at time
Upjohn possessed undisclosed, adverse information
about drug).
Here, evidence showed that the label not only
failed to state with the correct degree of intensity the
nature of the risk, it failed altogether to state the
heightened risk that Janssen, through administration
of its own clinical trials, knew applied to juvenile boys.
Appellants also posit, however, that Appellees
were precluded from establishing proximate cause
because A.Y.’s mother elected to continue with
Risperdal even after knowing about the gynecomastia
risk. Our review of Appellants’ court-ordered
Pa.R.A.P. 1925(b) statement, however, reveals that
Appellants did not raise this issue sufficiently to
preserve this alternate argument against Appellees’
proximate causation proffer at trial.
Specifically, Appellants’ statement does reference
that A.Y.’s mother acknowledged Dr. Eker told her
that breast enlargement was a possible side effect of
Risperdal, and she still requested that A.Y. stay on
Risperdal, even after filing the present lawsuit. See
Appellants’ Concise Statement of Matters Complained
of on Appeal, Paragraph 5. However, this reference is
contained within a larger passage focused exclusively
on the treating physicians’ independent knowledge of
Risperdal’s risks, and as such appears to be offered as

App-34
part and parcel of the argument that Dr. Eker knew of
Risperdal’s risks and conveyed them to A.Y.’s mother.
Indeed, the sentence immediately following the
reference to A.Y.’s mother brings the issue to its
conclusion by stating, “Where, as here, the prescribing
physicians testified that they understood the risks of
a medication at the time they prescribed it to their
patient, they conveyed that risk to the patient (here
the patient’s mother), and there is no evidence that
either prescribing physician even read the product
label, any alleged deficiency in the label could not be
the proximate cause of A.Y.’s injury. Judgment as a
matter of law therefore should have been granted.”
Pa.R.A.P. 1925(b) Statement, at Issue 5.
Despite having conducted an exhaustive review of
Appellants’ Concise Statement, the trial court did not
perceive in Issue 5 the question of whether
Plaintiffs/Appellees were precluded by law from
meeting their their proximate causation burden once
A.Y.’s mother decided to continue with Risperdal even
after she filed suit against Janssen. This was due not
to the trial court’s oversight but, instead, to
Appellants’ vague-at-best drafting of Issue 5, which
appears dedicated solely to the issue of the physicians’
knowledge. It is well-settled that a vague Rule 1925(b)
statement fails to preserve a purported issue
contained therein. See M.G. v. L.D., 155 A.3d 1083,
1099 (Pa.Super. 2017) (citing Reinert v. Reinert, 926
A.2d 539 (Pa.Super. 2007) (issue raised on appeal
waived where Rule 1925(b) statement was too vague
for trial court review)). Therefore, we conclude
Appellants have waived their claim as presented in
this context.

App-35
Nevertheless, Appellants have preserved what
amounts to essentially the same issue in its next
Question Presented, where they ask whether a new
trial is required for what they view as the trial court’s
erroneous evidentiary ruling excluding the testimony
of one of A.Y.’s treating physicians, Gordon Greeson,
M.D., who prescribed Risperdal to A.Y. in 2012.
According to Appellants, Dr. Greeson’s testimony was
“uniquely important to rebut Plaintiffs/Appellees’
theory that [A.Y.’s mother] would have refused
Risperdal treatment for A.Y. if she had known it could
cause gynecomastia.” Appellant’s brief, at 41. In that
respect, Appellants maintain, the testimony would
have shown the failure to warn was not the proximate
cause of A.Y.’s gynecomastia, for Mother would have
continued with Risperdal even had it contained an
accurate statement of risk. We disagree.
With respect to the grant or refusal to grant a new
trial upon allegations of error in the admissibility of
evidence we have stated:
Decisions regarding the admissibility of
evidence are within the discretion of the trial
court and will be reversed on appeal only if
the trial court abused its discretion or
committed an error of law . . . . We will grant
a request for a new trial based upon a trial
court’s evidentiary rulings only if those
rulings not only are erroneous, but also are
harmful
to
the
complaining
party . . . . Evidence is relevant if it logically
tends to establish a material fact in the case,
tends to make the fact at issue more or less
probable, or supports a reasonable inference

App-36
or presumption about the existence of a
material fact.
Phatak v. United Chair Co., 756 A.2d 690, 691
(Pa.Super. 2000) (citation omitted).
Dr. Greeson provided deposition testimony that
A.Y.’s mother asked to restart Risperdal in June
2012—more than nine years after A.Y. first developed
gynecomastia and more than one year after A.Y. had
discontinued the medication in large part because of
the gynecomastia effect. By March 2013, Dr. Greeson
recommended that A.Y. switch from Risperdal to
another antipsychotic, but Mother declined to follow
the doctor’s advice, even though she indicated she was
prompted to file the present lawsuit against the
manufacturer of Risperdal by advertisements
pertaining to Risperdal/juvenile gynecomastia causes
of action. At this point, Dr. Greeson testified in his
deposition that he believed there was “no doubt”
Mother was aware of the risk of gynecomastia from
Risperdal at the time she asked him to restart A.Y. on
the medication.
Appellants argue, “The only rational inference
from Dr. Greeson’s testimony is that a risk of
gynecomastia would not cause Mother to refuse
Risperdal—because A.Y.’s actual gynecomastia did
not cause her to do so.” They posit the doctor’s
testimony would have contradicted Mother’s
testimony that she resumed Risperdal only because
A.Y.’s gynecomastia would not have resolved even if
she discontinued the medication permanently.
Dr. Greeson explained in his deposition that his
advisement to Mother included his concern that
resuming Risperdal could make A.Y.’s gynecomastia

App-37
worse. Mother’s willingness to continue Risperdal in
the face of this warning was thus relevant to the
proximate cause element to the failure to warn case at
bar, Appellants conclude, for it shows Mother would
likely have disregarded any risk-of-gynecomastia
warning to obtain the antipsychotic benefits of
Risperdal.
The trial court responds that Dr. Greeson’s
testimony was irrelevant to Plaintiffs’ failure to warn
claim, as Mother’s willingness to resume Risperdal in
2013, after A.Y. had developed irreversible
gynecomastia over the previous 10 years, did not have
the tendency to make it more or less likely that
Janssen’s failure to warn proximately caused Mother
to agree to Risperdal therapy for her then four-andone-half year-old son. See Pa.R.E., Rule 401 (“Relevant
evidence” means evidence having any tendency to
make the existence of any fact that is of consequence
to the determination of the action more probable or
less probable than it would be without the evidence.”);
Hennessey v. Moyer, No. 905 EDA 2019, 2019 WL
4862183, at *6 (Pa. Super. Ct. Oct. 2, 2019) (“Relevant
evidence is admissible if its probative value outweighs
its prejudicial impact.”). Accord Tenn. R. Evid. 401
(“‘Relevant evidence’ means evidence having any
tendency to make the existence of any fact that is of
consequence to the determination of the action more
probable or less probable than it would be without the
evidence.”); Tenn. R. Evid. 402 (“Evidence which is not
relevant is not admissible.”). The court further notes
that the jury heard other evidence pertaining to
Mother’s request to resume Risperdal despite
obviously knowing that her son had likely developed
gynecomastia because of the medication.

App-38
We agree with the trial court’s assessment. The
proximate cause inference Appellants seek to make is
simply too attenuated given the significant passage of
time and change in circumstances from when A.Y.
began Risperdal treatment in 2003 to when he came
under the care of Dr. Greeson in 2012-2013. Contrary
to Appellants’ contention, the proposed testimony
would not have shed light on Mother’s state of mind at
the outset of A.Y.’s treatment, nor would it have
“contradicted” Mother’s statement that she requested
continuation of the medication because A.Y. already
had severe, irreversible gynecomastia by 2013. Under
our standard of review, we cannot conclude that the
ruling in question was both erroneous and harmful to
the Appellants. Accordingly, we view this claim as
meritless.
Appellants next challenge the court’s evidentiary
ruling excluding specific act evidence of A.Y.’s “biting,
hitting, smashing windows out with his fist, persistent
fighting with other children, refusal to follow
instructions at school or at home, and on one occasion
breaking a chicken’s back.” Appellant’s brief, at 44.
Appellants also contest the court’s ruling limiting the
testimony of expert medical witness, child psychiatrist
Nadine Schwartz, M.D., whom Appellants had offered
to speak on the Risperdal risk/benefit analysis
conducted by psychiatrists, on her opinions regarding
whether A.Y.’s treatment records reflected any
evidence of significant emotional distress from
gynecomastia.
“The admission of expert testimony is a
matter of discretion [for] the trial court and
will not be remanded, overruled or disturbed

App-39
unless there was a clear abuse of discretion.”
Blicha v. Jacks, 864 A.2d 1214, 1218
(Pa.Super.2004). Indeed, admission of the
disputed testimony “must be shown to have
been not only erroneous but also
harmful . . . . Evidentiary rulings which did
not affect the verdict will not provide a basis
for disturbing the jury’s judgment.” Detterline
v. D’Ambrosio’s Dodge, Inc., 763 A.2d 935, 940
(Pa.Super. 2000) (quoting Ratti v. Wheeling
Pittsburgh Steel Corp., 758 A.2d 695, 707
(Pa.Super.2000)).
Helpin v. Trustees of Univ. of Pennsylvania, 969 A.2d
601, 617 (Pa.Super. 2009), aff’d, 10 A.3d 267 (Pa.
2010).
According to the trial court, it committed no error
in its evidentiary rulings excluding specific act
evidence, as it did not preclude Dr. Schwartz from
“testifying about Risperdal generally, the patients for
whom Risperdal is appropriate, and the analysis a
prescriber engages in when determining whether to
prescribe Risperdal, including consideration of the
risks and benefits. As the transcript demonstrates, Dr.
Schwartz testified regarding these matters and more
at trial.” Trial Court Opinion, at 59-61.
The transcript shows the court permitted Dr.
Schwartz to testify not only generally about Risperdal
use in child psychiatry but also specifically about the
risk/benefit assessment relevant in A.Y.’s case given
his medical and behavioral history. For example, Dr.
Schwartz discussed how a psychiatrist would
approach a risk/benefit analysis, and she applied the
approach to examine A.Y.’s particular case. She

App-40
explained he had been diagnosed with ADHD,
oppositional defiant disorder, and mood disorder
(either depressed or bipolar) at various points, and
offered her opinion that A.Y. exhibited “very serious
symptoms.” She confirmed that the severity of the
condition is the most essential piece to the risk/benefit
analysis. Id.
Dr. Schwartz went on to discuss how Risperdal
would have benefitted A.Y. given his diagnoses. She
primarily emphasized the drug’s mood stabilization
properties as a way of helping such a patient with
aggressive, explosive, violent, or impulsive outbursts,
which, she opined, can be very quick and severe. Dr.
Schwartz was permitted to restate these behaviors
and the drug’s corresponding benefits several times
without objection or interruption by either opposing
counsel or the court. N.T. 6/24/16 at 21-26, 54-56.
The trial court concludes:
The above-referenced testimony belies
Defendants’ claim that this court limited Dr.
Schwartz to only discussing the general
benefits of Risperdal. As the transcript
demonstrates, Dr. Schwartz testified about
Risperdal as a treatment for certain mood
disorders, the patients for whom Risperdal is
appropriate, and the factors to be considered
when prescribing such a medication. Dr.
Schwartz also discussed A.Y.’s medical
conditions, the seriousness of his symptoms,
and why the severity of the conditions is
relevant to a psychiatrist’s risk/benefit
analysis.
Trial Court Opinion, at 62.

App-41
We agree with the trial court and discern no error
with its evidentiary rulings precluding specific act
evidence, as Appellants still informed the jury,
through expert testimony, that A.Y. demonstrated
“very serious symptoms” and that Risperdal for
juveniles with his diagnoses has been shown to help
with highly aggressive, impulsive, explosive, and
violent outbursts. This expert proffer, therefore, fairly
characterized A.Y.’s condition and enabled Appellants
to frame its theory of the case that Mother faced a
dilemma between risking a relapse in A.Y.’s very
serious mood disorder from Risperdal cessation and
exacerbating A.Y.’s gynecomastia from Risperdal
continuation. As such, we discern neither error with,
nor prejudice stemming from, the court’s ruling
precluding testimony regarding A.Y.’s specific acts
manifesting his mood disorder.
Similarly, we reach the same conclusion with
respect to the trial court’s ruling precluding Dr.
Schwartz from inferring from the record whether
Appellant exhibited any evidence of significant
emotional distress from his gynecomastia. Dr.
Schwartz never met or treated A.Y. and, therefore,
had no first-hand knowledge of how his gynecomastia
affected him emotionally, psychologically, or socially,
leaving her to speculate from records about such
matters.
Appellants cite to McClain v. Welker, 761 A.2d
155, 156 (Pa.Super. 2000) as supporting its position,
but McClain is inapposite, as it addressed whether the
trial court erred when it refused to qualify Dr.
Theodore Lidsky, a neuroscientist, as an expert on
plaintiff children’s cognitive defects from ingesting

App-42
lead paint because he lacked a medical degree. In
reversing and remanding, the panel ordered,
“Accordingly, on remand, Dr. Lidsky should be
permitted to render an expert opinion within the guise
of Pa.R.E. 702 as to the causation of cognitive
disorders.” Id. at 158.
The expert in McClain, therefore, was permitted
to clarify how ingesting lead can cause the particular
cognitive defects exhibited by the plaintiff children.
Such a scientific subject was clearly within the
neuroscientist’s scope of expertise. Appellants, in
contrast, failed to establish that Dr. Schwartz’s scope
of expertise included the ability to interpret another
doctor’s notes to gauge a patient’s level of emotional
distress and humiliation from a disfiguring diagnosis.
Again, we find the court’s evidentiary ruling
neither erroneous nor harmful. Under the
circumstances, and with other witnesses expressing
direct impressions of A.Y.’s emotional distress, the
court committed no error in deeming Dr. Schwartz’s
inferences on A.Y.’s emotions incompetent for
admission at trial.
Appellants next assert several challenges to the
trial court’s jury instructions. Our review of these
claims is governed by the following standard:
Error in a charge is sufficient ground for a
new trial if the charge as a whole is
inadequate or not clear or has a tendency to
mislead or confuse rather than clarify a
material issue. Error will be found where the
jury was probably misled by what the trial
judge charged or where there was an omission
in the charge. A charge will be found

App-43
adequate unless the issues are not made clear
to the jury or the jury was palpably misled by
what the trial judge said or unless there is an
omission in the charge which amounts to a
fundamental error. In reviewing a trial
court’s charge to the jury, we must look to the
charge in its entirety.
Tincher v. Omega Flex, Inc., 180 A.3d 386, 397-98
(Pa.Super. 2018) (cleaned up). 4
Appellants contend that this Court should
remand for a new trial because the trial court declined
to instruct the jury on a key aspect to Tennessee’s
Learned Intermediary Doctrine. Specifically, Janssen
proposed the following instruction, which it argued
would clarify for the jury that for prescription
medications, unlike other consumer products, the
4

We note the parallel standard of Tennessee:

[T]his Court has held that “[w]hether a jury instruction is
erroneous is a question of law and is[,] therefore[,] subject to
de novo review with no presumption of correctness.” Nye, 347
S.W.3d at 699 (citing Solomon v. First Am. Nat’l Bank of
Nashville, 774 S.W.2d 935, 940 (Tenn.Ct.App.1989)). As
indicated, in determining whether a trial court has imparted
“substantially accurate” jury instructions, we review the
charge in its entirety and consider it as a whole; we will not
invalidate instructions that “‘fairly define[ ] the legal issues
involved in the case and do[ ] not mislead the jury.’” Id.
(quoting Otis, 850 S.W.2d at 446). Moreover, we may consider
the jury instructions in conjunction with the verdict form in
determining whether the issues were presented to the jury
“in a clear and fair manner.” Hickson Corp. v. Norfolk S. Ry.,
260 F.3d 559, 568 (6th Cir.2001).
Payne v. CSX Transportation, Inc., 467 S.W.3d 413, 448 (Tenn.
2015).

App-44
“user” to whom the warnings are directed is the
physician, not the patient:
In this action, because the product involved is
a prescription medication that can only be
taken with the doctor’s prescription, the
expected users of Risperdal, for purposes of
any warnings, are the physicians who
prescribed Risperdal for [A.Y.], not [A.Y.] or
his family. This is because a prescribing
physician is in the best position to
understand the patient’s needs and assess the
risks and benefits of a particular course of
treatment. In order to prevail, Plaintiff’s
must prove that Janssen failed to warn
[A.Y.]’s healthcare providers of the risk of
gynecomastia and that his healthcare
providers were not already aware of the risks.
If the risk of gynecomastia was apparent to
[A.Y.]’s physicians, Janssen was not
negligent even if Janssen gave no warning
about it.
Appellants’ First Amended Proposed Points of Charge,
Proposed Instruction No.21, 6/29/16 (emphasis in
original).
The trial court opted instead to rely on the
Tennessee Pattern Instruction Civil 10.12 for its
instruction. The instruction went as follows:
Supplier’s duty to warn. A supplier who
knows or reasonably should know that a
product is likely to be dangerous for its
intended use or foreseeable misuse has a duty
to use reasonable care to warn of the

App-45
product’s danger or to reveal its unsafe
condition.
Warnings should be given to those persons
whom the supplier should reasonably expect
to use or to handle the product or be
endangered by its use or handling if the
supplier reasonably should believe those
persons would not realize the danger without
the warnings. The failure to fulfill this duty is
negligence.
N.T. 6/30/16, at 171.
Furthermore, the court directs us to the questions
it presented to the jury on the verdict sheet, which the
court also read to the jury before deliberation.
According to the court, this reading instructed the jury
specifically that the manufacturer’s warning was
required to be directed to A.Y.’s healthcare providers:
Now, as you deliberate, you will receive the
verdict sheet. I’ll read it to you. There are four
questions you must answer. The first
question: Was Janssen negligent by failing to
provide an adequate warning to [A.Y.’s]
healthcare providers about the risk of
gynecomastia from taking Risperdal? There’s
a line to check yes, a line to check no. If you
answer yes to Question 1, please proceed to
Question 2. If you answer no to Question 1,
plaintiff cannot recover. Do not answer any
further questions and return to this
Courtroom.
N.T. 6/30/16, at 182.

App-46
The trial court opines that the explanation
provided on the verdict sheet, coupled with the jury
instruction regarding Defendants/Appellants’ duty to
warn, accurately reflected the law applicable to the
present case. Appellants disagree, as they claim the
court’s instruction and reading of the jury sheet
simply gave the jurors “contradictory” charges that
could only have misled or confused them.
We disagree with Appellants’ position. Viewing
the court’s charge as a whole, we view no key omission,
fundamental error, or inherent conflict, as the jury
was sufficiently apprised of a manufacturer’s duty to
direct its warning to healthcare providers, consistent
with the learned intermediary doctrine. Therefore,
Appellant is due no relief on this claim.
Next, Appellants posit that the trial court
committed reversible error when it failed to apply
appropriately the Tennessee Civil Justice Act
Damages Cap of 2011, which imposes a limit on noneconomic damages in the amount of $750,000 per
plaintiff. Tenn. Code Ann. § 29-39-102(a)(2), “Civil
Actions; awards” (2018).
It is undisputed that the cap applies to the present
case, but Plaintiffs/Appellees argued that the facts
brought this case under a statutory exception to the
cap. The exception provides:
(h) The limitation on the amount of
noneconomic
damages
imposed
by
subdivision (a)(2) and subsections (b)-(e) shall
not apply to personal injury and wrongful
death actions:
…

App-47
(2) If the defendant intentionally falsified,
destroyed or concealed records containing
material evidence with the purpose of
wrongfully evading liability in the case at
issue; provided, however, that this subsection
(h) does not apply to the good faith
withholding of records pursuant to privileges
and other laws applicable to discovery, nor
does it apply to the management of records in
the normal course of business or in
compliance with the defendant’s document
retention policy or state or federal
regulations.
Tenn. Code. Ann. § 29-39-102(h)(2).
Appellants maintain, without reference to either
rules of statutory interpretation or pertinent
authority, that the statute targets only spoliation of
evidence during discovery, and there was no spoliation
“in the case at issue.”
They note Plaintiffs/Appellees did not allege that
Janssen engaged in falsifying, destroying, or
concealing records during the course of discovery in
this case. Because, they reiterate, the statute in
question is aimed at discovery conduct within a given
case and not at alleged pre-litigation manipulation or
concealment of documents from non-party actors, even
if the documents may one day become evidence in a
potential future litigation, the exception does not
apply to the present matter.
The
trial
court
found
no
merit
to
Defendants/Appellants’ argument at trial, where
Appellants
invoked
the
statute
when

App-48
Plaintiffs/Appellees
instruction:

requested

the

following

You must determine whether the Defendants
intentionally
falsified,
destroyed,
or
concealed records pertaining to this case[.]
For you to find that Defendants intentionally
falsified, destroyed, or concealed records
pertaining to this case, the Plaintiff must
prove by a preponderance of the evidence the
following elements:
1. That Defendants intentionally falsified,
destroyed or concealed Defendants’ records to
wrongfully evade liability in the case at issue;
and
2. That Defendants’ records contained
material evidence pertaining to this case.
See Plaintiffs’ Amended Proposed Points for Charge,
6/29/16.
Specifically, Plaintiffs/Appellees provided the
following argument in support of its proposed points
of charge:
[Plaintiffs’ Counsel]: Your Honor, let me give
you globally what’s going on. This case is
going to be decided under Tennessee law, and
I don’t profess to be a total expert on
Tennessee law. But the defendants are going
to raise an issue, if there’s a jury verdict and
if it exceeds, I believe, $750,000, they will try
to claim that there’s some sort of damage cap
in Tennessee. [Counsel then explains there is
an exception in cases of concealment of
evidence.] So what you see here is the

App-49
instruction about what that means, and then
later on in the verdict form we propose a
question on it.
So the two issues of concealment, there’s two
things they did. One is they locked up Table
21 from 2002 until 2015. That’s a big part of
our case. And then you also have the Bilker
issue [referring to person Janssen allegedly
hired to provide an alternate interpretation of
the clinical studies discussed, supra]. So
there’s two issues of concealment because,
even though they gave Table 21 to the FDA in
October 2015, our claim goes to 2003. So we
think this comes in, and we think you need
this instruction so that we can get a jury
finding on this issue in case, you know, we’re
fortunate enough.
N.T., 6/30/16, at 9-10.
Appellants countered:
[Defendants’ Counsel]: No, but it has to do—
falsified, destroyed, or concealed to
wrongfully evade liability in the case at issue.
Your Honor, obviously we haven’t had
briefing on this, but I think it’s clear from the
statute and from the instruction itself that
this is about concealing evidence in this
litigation. It’s not about whether you should
or shouldn’t have given facts to other people
outside litigation. This is just extremely
prejudicial, and it’s not appropriate to this
case. And to be suggesting to this jury that we
destroyed evidence and kept it out of

App-50
litigation just is irretrievably prejudicial to
the defendants.
N.T., 6/30/16, at 12-13.
The
trial
court
explains
it
rejected
Defendants/Appellants’ argument and, therefore, read
Plaintiffs/Appellees’ proposed charge to the jury,
because ample evidence demonstrated that Appellants
intentionally falsified and concealed records in this
case:
“To reiterate, Plaintiffs presented evidence
that Defendants concealed Table 21, an
internal
Janssen
document,
that
demonstrated a statistically significant link
between Risperdal and gynecomastia.
Instead of submitting this information to the
FDA during the approval process, Defendants
withheld and concealed the results for more
than a decade. In addition, Plaintiffs
presented evidence that Defendants hired Dr.
Warren Bilker, a biostatistician, to perform a
reanalysis of Table 21. The only specifics
given to Dr. Bilker, who was under the control
and direction of Dr. Findling and Dr.
Daneman, were to refute the results in Table
21. N.T., 6/27/16, at 179. According to
Plaintiffs,
Dr.
Bilker
intentionally
manipulated and retested the data multiple
ways to get the results Defendants wanted.
Once Dr. Bilker was able to refute the results
in Table 21, the reanalysis was submitted as
a letter by Dr. Daneman and Dr. Findling to
The Journal of Clinical Psychiatry and
published. These results, according to

App-51
Plaintiffs, were inaccurate, inadequate, and
misleading.
Trial Court Opinion, at 85.
We agree that such intentional conduct, if proven,
was fairly contemplated within the exception set forth
in subsection (h) of the statute in question. A
reasonable inference arises from the record that
Appellants persisted in its alleged concealment of the
clinical study results recorded in Table 21 not only
with an eye toward future litigation in general but also
to
frustrate
existing
lawsuits
such
as
Plaintiffs/Appellees’. This alleged conduct was
compounded by Appellants’ manipulation of the data
collected in Table 21 and publication of the altered
results during the relevant time.
The court, therefore, properly informed the jury
that it was to decide a question of fact whether
Plaintiffs proved its allegations of such conduct
occurring after the present lawsuit had commenced,
and that if it decided in the affirmative then the
damages cap no longer applied. As Appellants develop
no persuasive argument to upset the court’s
considered interpretation of the statute, we decline to
find error with the instruction at issue.
Relatedly, Appellants claim the court committed
reversible error when it gave an allegedly incomplete
special interrogatory on what Appellants call the
spoliation issue. Specifically, the verdict form read:
Did Janssen intentionally falsify, destroy, or
conceal records containing material evidence
in this case?
Trial Work Sheet/Verdict Sheet, 7/5/16.

App-52
According to Appellants, the omission of the
clause, “with the purpose of wrongfully evading
liability in the case at issue,” deprived the jury of clear
guidance on how to make the proper finding required
under the law, and, therefore, prejudiced Appellants
in the process. Our review of the record, however,
reveals that the court provided the following jury
instruction just minutes earlier:
Trial
Court:
Intentional
falsification,
destruction, or concealment. You must
determine
whether
the
defendants
intentionally
falsified,
destroyed,
or
concealed records pertaining to this case. For
you to find the defendants intentionally
falsified, destroyed, or concealed records
pertaining to this case, the plaintiffs must
prove, by a preponderance of the evidence, the
following elements: Number one, that the
defendants intentionally falsified, destroyed,
or concealed defendant’s records to
wrongfully evade liability in this case at
issue . . . .
N.T., 6/30/16, at 173. (emphasis in original).
Contrary to Appellants’ contention, the court
instructed the jury that it was required to consider
whether Defendants/Appellants had acted in such a
way to wrongfully evade liability in this case. As the
record belies Appellants’ assertion, we find it without
merit. 5
Also germane to this issue is the well-settled legal precept
that failure to object to a flawed jury verdict prior to a jury’s
dismissal precludes a challenge to the verdict in post-trial
5

App-53
In Appellants’ final issue, they contend the trial
court should have granted a new trial or remitted
what they perceive as an excessive damages award.
We disagree.
Under Tennessee law, a trial court “may set aside
a jury’s verdict and order a new trial when justice so
requires.” Palanki v. Vanderbilt Univ., 215 S.W.3d
380, 386 (Tenn.Ct.App. 2006). The role of the trial
judge in this regard is well-settled:
Although the amount of an award is
primarily a consideration for the jury to
determine, the trial court may suggest a
remittitur when the amount of the verdict is
excessive,
beyond
the
range
of
reasonableness, or is excessive as the result
of passion, prejudice, or caprice. Poole v.
Kroger Co., 604 S.W.2d 52, 54 (Tenn. 1980).
However, there is no precise mathematical
formula which the court can use to assure
that judgments in negligence cases are
uniform. S. Ry. Co. v. Sloan, 56 Tenn.App.
380, 407 S.W.2d 205, 211 (1965). Said the
Court:
There is no exact yardstick, or
measurement, which this court may
motions. See Stapas v. Giant Eagle, Inc., 198 A.3d 1033, 1041 (Pa.
2018) (holding that where both parties to litigation approved
verdict sheet and did not object to verdict before jury dismissed,
post-trial objections to verdict were waived); Pa.R.C.P.
227.1(b)(1) (“post-trial relief may not be granted unless the
grounds therefore, (1) if then available, were raised in pre-trial
proceedings or by motion, objection … or other appropriate
method at trial.”).

App-54
use as a guide to determine the size
of verdicts which should be
permitted to stand in cases of this
kind. Each case must depend upon
its own facts and the test to be
applied by us is not what the amount
the members of the court would have
awarded had they been on the jury,
or what they, as an appellate court,
think should have been awarded, but
whether the verdict is patently
excessive. The amount of damages
awarded in similar cases is
persuasive but not conclusive, and,
in evaluating the award in other
cases, we should note the date of the
award, and take into consideration
inflation and the reduced value of
the individual dollar.
S. Ry. Co., 407 S.W.2d at 211.
Palanki, 215 S.W.3d at 386.
Pennsylvania is largely in accord:
The assessment of damages is peculiarly
within the province of the factfinder and an
award will not be upset on appeal unless it is
so excessive as to shock the conscience of the
court or it is clearly based on partiality,
prejudice or passion. De Simone v. City of
Philadelphia, 380 Pa. 137, 110 A.2d 431
(1955). Generally, under Pennsylvania law,
damages need not be proved with
mathematical certainty, but only with
reasonable certainty, and evidence of

App-55
damages may consist of probabilities and
inferences. See, e.g., Morin v. Brassington,
871 A.2d 844, 852 (Pa. Super. 2005), quoting
J.W.S. Delavau Inc. v. Eastern America
Transp. & Warehousing, Inc., 810 A.2d 672,
685 (Pa. Super. 2002); James Corp. v. N.
Allegheny Sch. Dist. 938 A.2d 474, 494 (Pa.
Cmwlth. 2007); E.C. Ernst, Inc. v. Koppers
Co., Inc., 626 F.2d 324, 327 (3d Cir. 1980).
Where the amount of damages can be fairly
estimated from the evidence, the recovery will
be sustained even though such amount
cannot be determined with entire accuracy.
Mass. Bonding & Ins. Co. v. Johnston &
Harder, 343 Pa. 270, 22 A.2d 709, 713-14
(1941). We review a trial court’s decision
whether to grant a new trial based on alleged
excessiveness or inadequacy of the verdict for
an abuse of discretion. Botek v. Mine Safety
Appliance Corp., 531 Pa. 160, 611 A.2d 1174,
1176 (1992). Judicial reduction of a jury
award is appropriate only when the award is
plainly excessive and exorbitant. Haines v.
Raven Arms, 536 Pa. 452, 640 A.2d 367, 369
(1994).
The refusal of a remittitur is peculiarly
within the discretion of the trial court and
will not be reversed absent an abuse of
discretion or error of law. Id., citing Scaife Co.
v. Rockwell-Standard Corp., 446 Pa. 280, 285
A.2d 451, 456-57 (1971).
Bailets v. Pennsylvania Tpk. Comm’n, 181 A.3d 324,
336 (Pa. 2018).

App-56
Appellants contend that such precepts should
guide this Court to find that the verdict in the present
case is so excessive relative to the harm suffered that
a remittitur would effectively “destroy the jury’s
verdict,” thus necessitating a retrial. See Guess v.
Maury, 726 S.W.2d 906, 912 (Tenn.Ct.App. 1986).
Appellants note that, under Tennessee law,
“[w]hen asked to determine whether a verdict should
be set aside based on the amount of the damages
award alone, the courts must consider the nature and
extent of the plaintiff’s injuries, the pain and suffering
the plaintiff experienced, the expenses the plaintiff
incurred as a result of the injuries, the impact the
injuries have had on the plaintiff’s enjoyment of life,
and the plaintiff’s age and life expectancy.” Duran v.
Hyundai Motor America, Inc., 271 S.W.3d 178, 212
(Tenn.Ct.App. 2018).
“Gynecomastia[,]” Appellants submit, “is not a
life-threatening condition, and Plaintiffs presented no
evidence of physical pain and suffering.” Appellants’
brief, at 54. While surgical correction of gynecomastia
is possible, Plaintiffs/Appellees did not choose to
pursue this option. Appellants further stress that
Plaintiffs/Appellees similarly presented no evidence of
economic damages, hospital bills, and did not argue
that gynecomastia would affect A.Y.’s future earnings.
Id.
Thus essentially limited to psychological and
emotional, non-economic damages, Appellants
continue, Plaintiffs/Appellees’ award of $70,000,000
was grossly disproportionate to the evidence.
Appellants maintain the extent of such evidence was
that A.Y. was bullied at school and work, teased, and

App-57
never went outside without a shirt. They conclude
such a proffer simply did not support a compensatory
damages award nearly 30 times larger than the next
largest compensatory verdict in Philadelphia,
$2,500,000 in Pledger v. Janssen Pharmaceuticals,
Inc., 198 A.3d 1126 (Pa.Super. 2018).
The trial court opines that the verdict was not
excessive, as the jury was free to infer from the
evidence
that
A.Y.’s
pain
and
suffering,
embarrassment, loss of enjoyment of life, and the
inability to engage in normal activities in the future
was considerable. In that vein, the court notes that the
jury was charged to consider both economic and noneconomic damages, and Tennessee law holds that a
“jury has wide latitude in assessing non-economic
damages.” Meals ex rel. Meals, 417 S.W.3d at 425.
Indeed, the court notes, the jury charge instructed
the jury that “no definite standard or method of
calculation is prescribed by law by which to fix
reasonable compensation for pain and suffering,
permanent injury, disfigurement, and the loss of
enjoyment of life, nor is the opinion of any witness
required as to the amount of such reasonable
compensation.” Trial Court Opinion, at 92 (quoting
N.T. 6/30/16, at 175-76). Because the courts have
recognized that such damages are not easily
quantified and do not lend themselves to easy
valuation, the amount of these damages is
appropriately left to the sound discretion of the jury.
Id. (quoting Duran, 271 S.W.3d at 210-211).
We discern no reversible error with the jury’s
award of damages, as we do not view it as inconsistent
with the evidence. A.Y. was just 4 ½ years old when

App-58
first prescribed Risperdal, and he has never since
known life without gynecomastia. At sixteen years of
age when the jury considered its award, A.Y. was
living with severe and permanent disfigurement. The
undisputed record confirms he has been routinely
bullied and teased by peers and is too humiliated to
ever remove his shirt in recreational or social
situations where it would be customary for boys to do
so when enjoying ordinary pleasures of youth.
The jurors were free to call upon their personal
experiences and sensibilities to assess such intangible
harms, and their valuation could reflect the length of
time A.Y. would reasonably be expected to live with
this disfiguring, embarrassing condition. Under such
facts, the jury exercised sound discretion. Accordingly,
we will not disturb the damages award.
APPELLEES’ CROSS-APPEAL
In Appellees’ cross-appeal, they contend the trial
court erred by granting Janssen’s motion for partial
summary judgment on Appellees’ claim for punitive
damages. In entering its global order granting
summary judgment as to all plaintiffs in the Risperdal
litigation, the trial court determined that New Jersey
had a greater interest than Pennsylvania in the
application of its law on the issue of punitive damages,
and the New Jersey Products Liability Act does not
permit Plaintiffs to recover punitive damages.
This Court has subsequently considered the trial
court’s two determinations in Murray v. Janssen
Pharmaceuticals, Inc., 180 A.3d 1235 (Pa.Super.
2018), Stange, 179 A.3d at 49-50, and Pledger, 198
A.3d 1126 and held in each that we were required to
remand for the trial court to consider conflict-of-law

App-59
principles with respect to New Jersey and the
respective plaintiff’s home state, which it had not
done. See Stange, 179 A.3d at 66-67 (remanding for
consideration of conflict between Wisconsin and New
Jersey); Murray (180 A.3d at 1248-49 (remanding for
consideration of conflict between Maryland and New
Jersey); Pledger, 198 A.3d at 1148 (remanding for
consideration of conflict between Alabama and New
Jersey).
Here, Appellees present the same arguments
made by the plaintiffs in the aforementioned cases,
and both parties agree the decisions by our Court
remain binding precedent. See Marks v. Nationwide
Ins. Co, 762 A.2d 1098, 1101 (Pa.Super. 2000)
(acknowledging as long as a decision by this Court has
not been overturned by our Supreme Court, it remains
binding precedent). Thus, as we have done previously,
we reverse the order of the trial court granting partial
summary judgment in favor of Janssen and remand
for proceedings consistent with those in Stange,
Murray, and Pledger.
Judgment affirmed in part, reversed in part, and
remanded for proceedings wherein the trial court shall
consider conflict of law principles with respect to
Tennessee and New Jersey and how they bear on
Plaintiffs/Appellees’
punitive
damages
claim.
Jurisdiction relinquished.
Judgment Entered.
[handwritten: signature]
Joseph D. Seletyn, Esq.
Prothonotary

App-60
Appendix C
PENNSYLVANIA COURT OF COMMON PLEAS
________________
No. 2094
________________
A.Y., et al.,
v.

Plaintiffs,

JANSSEN PHARMACEUTICALS INC., et al.,
Defendants.
________________
Filed: June 20, 2018
________________
OPINION
________________
Patrick, J.
Defendants, Janssen Pharmaceuticals Inc.,
Johnson & Johnson, and Janssen Research &
Development, LLC, filed an appeal from judgment
entered in this matter on September 7, 2016 and from
orders entered on July 1, 2016, July 5, 2016, July 25,
2016, and August 10, 2016. Plaintiffs, A.Y. and Billie
Ann Yount, filed a cross-appeal from judgment
entered in this matter on September 7, 2016 and from
orders entered on May 2, 2014, July 18, 2014, and July
25, 2016. This Court now submits the following
Opinion in support of its ruling and in accordance with
the requirements of Pa.R.A.P. 1925(a). For the reasons
set forth below, this Court’s decision should be
affirmed.

App-61
PROCEDURAL HISTORY
On April 15, 2013, Plaintiffs A.Y. and Billie Ann
Yount filed a Complaint against Defendants Janssen
Pharmaceuticals Inc., Johnson & Johnson, Janssen
Research & Development, LLC, Elsevier, Inc., and
Excerpta Medica Inc. Plaintiffs Complaint alleged the
following thirteen causes of action: (1) negligence,
(2) negligent-design defect, (3) fraud, (4) strict product
liability—failure to warn, (5) strict product liability—
design defect, (6) breach of express warranty,
(7) breach of implied warranty, (8) violation of
Pennsylvania Unfair Trade Practices and Consumer
Protection Law, 73 P.S. § 201-1 et seq., (9) unfair and
deceptive
trade
practices,
(10) conspiracy,
(11) punitive damages, (12) medical expenses incurred
by parent, and (13) loss of consortium.
By Order dated May 2, 2014, the Honorable
Arnold L. New ruled that New Jersey Law applied to
the issue of punitive damages and that New Jersey
law barred the award of punitive damages. On June 2,
2014, Plaintiffs filed a Motion for Reconsideration of
the Honorable Arnold New’s May 2, 2014 Order
barring the award of punitive damages. On June 9,
2014, Defendants filed an Answer to Plaintiffs’ Motion
for Reconsideration. On July 18, 2014, Plaintiffs’
Motion for Reconsideration was denied.
On November 4, 2015, the Honorable Arnold New
approved a stipulation dismissing the action as to
Defendants Excerpta Medica, Inc., and Elsevier Inc.
On April 14, 2016, remaining Defendants, Janssen
Pharmaceuticals, Inc., Johnson & Johnson, and
Janssen Research & Development, LLC, filed a motion
for summary judgment. On May 5, 2016, Plaintiffs

App-62
filed an Answer to Defendants’ Motion for Summary
Judgment. On May 11, 2016, Defendants filed a Reply.
On June 10, 2016, the Honorable Arnold New ruled
that Tennessee Law applies to Plaintiffs’ substantive
claims. Plaintiffs’ claims for: negligence, negligent
design defect, strict liability—failure to warn, strict
liability—design defect, breach of express warranty,
breach of implied warranty are subsumed into two
claims: (a) Product Liability action because Risperdal
was defective and (b) Product Liability action because
Risperdal was unreasonably dangerous. 1 The
Honorable Arnold New further ruled that Defendants’
Summary Judgment was granted as to the following
causes of action: (A) product liability action because
Risperdal was defective, (B) fraud, (C) Pennsylvania’s
Unfair Trade Practices and Consumer Protection Law,
(D) unfair and deceptive trade practices (under the
See T.C.A. § 29-28-105(a): “A manufacturer or seller of a
product shall not be liable for any injury to a person or property
caused by the product unless the product is determined to be in
a defective condition or unreasonably dangerous at the time it
left the control of the manufacturer or seller.”
1

See also: Definition of product liability action in T.C.A. §29-28102(6): “Product liability action for purposes of this chapter
includes all actions brought for or on account of personal injury,
death or property damage caused by or resulting from the
manufacture, construction, design, formula, preparation,
assembly, testing, service, warning, instruction, marketing,
packaging or labeling of any product. Product liability action
includes, but is not limited to, all actions based upon the
following theories: strict liability in tort; negligence; breach of
warranty, express or implied; breach of or failure to discharge a
duty to warn or instruct, whether negligent, or innocent;
misrepresentation, concealment, or nondisclosure, whether
negligent, or innocent; or under any other substantive legal
theory in tort or contract whatsoever.”

App-63
Tennessee Consumer Protection Act), (E) conspiracy,
and (F) loss of consortium. Defendants’ Motion for
Summary Judgment was denied as to all other causes
of action.
On June 16, 2016, a jury trial commenced in this
matter; the Honorable Paula A. Patrick presided. On
July 1, 2016, the jury returned a verdict in favor of the
Plaintiffs. The jury found that Defendants negligently
failed to adequately warn Plaintiffs of the risk of
gynecomastia associated with Risperdal use and
Defendants’ negligence was a cause in bringing about
A.Y.’s gynecomastia. The jury awarded Plaintiffs
compensatory
damages
in
the
amount
of
$70,000,000.00 (seventy million dollars). On July 5,
2016, the jury’s verdict was entered.
On July 8, 2016, Plaintiffs filed a Post-Trial
Motion. Defendants filed a Post-Trial Motion on July
11, 2016. This Court denied both Post-Trial Motions
on July 25, 2016.
On July 8, 2016, Plaintiffs filed a Motion for Delay
Damages. On August 10, 2016, Plaintiffs’ Motion for
Delay Damages was granted. Plaintiffs were awarded
$6,661,027.40 in Delay Damages. The jury verdict of
$70,000,000.00 was molded to add Delay Damages of
$6,661,027.40 for a total verdict of $76,661,027.40. On
September 7, 2016, judgment was entered in this
matter.
On September 9, 2016, Defendants filed an
Appeal to the Superior Court from decisions dated
July 1, 2016, July 5, 2016, July 25, 2016 and August
10, 2016. On September 13, 2016, Plaintiffs filed a
cross-appeal to the Superior Court from decisions
dated May 2, 2014, July 18, 2014, and July 25, 2016.

App-64
On September 22, 2016, Plaintiffs filed a Statement of
Errors Complained of on Appeal pursuant to Pa.R.A.P.
1925(b). On October 12, 2016, Defendants filed a
Statement of Errors Complained of on Appeal
pursuant to Pa.R.A.P. 1925(b).
FACTUAL BACKGROUND
Risperdal (risperdone) is an antipsychotic
medication belonging to a class of drugs which have
become known as “atypical” or “second generation”
(“SGA”) antipsychotics. Risperdal was originally
developed and approved for use in the treatment of
symptoms associated with schizophrenia. The adverse
effects associated with Risperdal are: rapid weight
gain, hyperprolactinemia, gynecomastia (abnormal
development of breasts in males), galactorrhea
(lactation), pituitary tumors, microadenomas of the
pituitary gland, breast cancer, osteoporosis, decreased
bone
mineral
density,
metabolic
syndrome,
dyslipidemia, hypertension, diabetes mellitus,
diabetic ketoacidosis (DKA), hyperosmolar coma,
hyperglycemia,
glucose
dysregulation,
insulin
insufficiency, insulin resistance, pancreatitis, tardive
dyskinesia, extrapyramidal symptoms, involuntary
movement disorders, dyskinesia, dystonia, akathisia,
parkinsonism, neuroleptic malignant syndrome
(NMS) and/or other related conditions. Risperdal is
designed, developed, tested, labeled, packaged,
distributed, marketed, and sold throughout the
United States by the Janssen Defendants.
On December 29, 1993, Janssen obtained
approval from the Food and Drug Administration
(“FDA”) to market Risperdal oral tablets for the
treatment of “manifestations of psychotic disorders”

App-65
(schizophrenia) in adults. In September 2000, the FDA
requested that the label be changed to more clearly
indicate that Risperdal was only approved for use in
treating schizophrenia in adults. In October 2006,
Risperdal was approved for the treatment of
irritability associated with autistic disorder in
children and adolescents (between the ages of 5 and
16), including symptoms of aggression towards others,
deliberate self-injuriousness, temper tantrums and
quickly changing moods. Risperdal has not been
approved for children younger than 5 or those older
than 16 years old for irritability associated with
autistic disorder.
The prescribing of drugs “off-label” occurs when a
drug is prescribed by a medical professional for use
beyond those contained in the drug’s FDA-approved
uses. This includes prescribing a drug for a condition
not indicated on the label, treating the indicated
condition at a different dose or frequency than
specified in the label, or treating a different patient
population. An example of off-label use is the
treatment of a child with the drug when the drug is
approved to treat adults. 2
Plaintiff A.Y. was born in 1999. Plaintiff was
diagnosed with Attention Deficit Hyperactivity
Disorder (ADHD) and Oppositional Defiant Disorder
(ODD). In August of 2003, when A.Y. was four and a
half years old, he was prescribed Risperdal by Dr.
Deniz Eker, a pediatric psychiatrist. Eker Dep. 2/8/16
2 See U.S. Food & Drug Administration, Understanding
Unapproved Use of Approved Drugs “Off Label,” available at
https://www.fda.gov/forpatients/other/offlabel/default.htm (last
visited February 4, 2018).

App-66
at 31-32. At the time Dr. Eker prescribed Risperdal to
A.Y., she did not warn A.Y.’s mother about the risk of
gynecomastia. Dr. Eker stated that she would have
warned A.Y.’s mother, but Dr. Eker did not know at
the time that there was such a significant risk of
gynecomastia from elevated prolactin. Id. at 56, 61. In
January 2004, four months after Plaintiff began
taking Risperdal, A.Y.’s mother went to Doctor Eker
and expressed concern that A.Y.’s breasts were
enlarging. Id. at 65. Dr. Eker then began tapering the
Risperdal because she was concerned about
gynecomastia. Id. at 66. In February 2005, after the
initial tapering, Dr. Eker noted that A.Y.’s breasts
were getting big and that she was discontinuing
Risperdal because A.Y. had gynecomastia. Id. Dr.
Eker testified that when she first noticed
gynecomastia, she began tapering off from the
Risperdal but would have stopped it immediately if
she had been properly informed about the risk of
gynecomastia from Risperdal. Id. Dr. Eker believed
gynecomastia was much less frequent and that A.Y.’s
development of female breasts (at five years old) was
a rare occurrence. When Dr. Eker believed the
gynecomastia had gone down, she put A.Y. back on
Risperdal. Id. at 76-77.
Dr. Eker transferred A.Y.’s psychiatric care to Dr.
Michael Hughes in the first half of 2005. Id. at 78. Dr.
Hughes testified that the idea to put A.Y. on Risperdal
originated with Dr. Eker, and he was simply
continuing the treatment. Id. at 279-80. Dr. Hughes
could not say that he would have put A.Y. on Risperdal
at all if Dr. Eker had not prescribed it first. Id. Dr.
Hughes testified that if he had known that there was
a statistically significant association between

App-67
prolactin elevation from Risperdal use and
gynecomastia this information would have had a
significant impact in his thinking with regard to
prescribing Risperdal. Id. at 266-267. Dr. Hughes
stated that he would have pushed against Risperdal
use if he had known of the additional significant
concerns. Id. at 83-84. Dr. Hughes treated A.Y. from
May 2005 through May 2011. Id. at 228-29. Dr.
Hughes discontinued Risperdal at the request of A.Y.’s
mother because A.Y. was gaining so much weight. Id.
at 161-62.
Dr. Brian Bonfardin, a psychiatrist, began
treating A.Y. in June 2011. Id. at 16. In June of 2012,
A.Y. was struggling, and A.Y.’s mother suggested
trying Risperdal again to Dr. Bonfardin. At that time,
Dr. Bonfardin’s prescription of Risperdal had already
plummeted because he had learned prior to 2012 that
Risperdal increased prolactin levels more than other
antipsychotics. Id. at 48-49. Dr. Bonfardin testified
that he did not know of the studies showing a 5.5% and
12.5% frequency of gynecomastia among children who
used Risperdal. If he had such information, he would
have warned A.Y.’s mother about this significant risk.
Bonfardin Dep. 2/11/16 at 16.
A.Y.’s care was transferred to Dr. Gordon Greeson
in October of 2012. Dr. Greeson took A.Y. off Risperdal
once he took over care because A.Y. gained quite a bit
of weight and had hypertension in the short period he
had been put back on Risperdal. A.Y.’s mother
requested he be put back on Risperdal next month.
In 2013, A.Y.’s mother saw an advertisement
discussing gynecomastia from Risperdal use. A.Y.
Mother Dep. 12/14/15 at 6-8. She got in contact with

App-68
an attorney and then went to talk to A.Y.’s treating
physicians about the problem. Id. Dr. Greeson learned
of the gynecomastia from A.Y.’s mother in March
2013. Dr. Greeson immediately decided he needed to
stop Risperdal because he feared making the problem
worse.
ISSUES
Defendants raised the following issues in their
1925(b) Statement of Matters Complained of on
Appeal:
The Court Should Have Granted
Judgment As A Matter Of Law Because
Plaintiffs Failed To Establish That The
Risperdal Warning Was Inadequate Or
That Defendants Could Have Lawfully
Changed The Label
1.

The Court erred in submitting the case to the
jury because the Risperdal warning was
adequate as a matter of Tennessee law. The
pre-October 2006 Risperdal label stated in
both the “Precautions” section and the
“DOSAGE
AND
ADMINISTRATION”
SECTION: “Pediatric Use: Safety and
effectiveness in children have not been
established.” This unequivocal statement
notified physicians that the medication was
not approved for any use in children at that
time—rendering the label adequate under
Tennessee law. See, e.g., Strayhorn v. Wyeth
Pharms., Inc., 887 F. Supp. 2d 799 (W.D.
Tenn. 2012) aff’d 737 F.3d 378 (6th Cir. 2013).
Moreover, the label accurately reflected the
state of science at the time it was marketed.

App-69
Tenn. Code. Ann. § 29-28-105(a). Plaintiffs’
expert Dr. David Kessler acknowledged that
the Risperdal label included a warning as to
the risk of hyperprolactinemia and the
possibility of gynecomastia generally and his
opinions as to the adequacy of the label were
based on an incorrect interpretation of FDA
regulations.
As
a
result,
judgment
notwithstanding the verdict was appropriate.
Mot. for Post-Trial Relief Pursuant to Pa.
R.C.P. No. 227.1 of Defendants Janssen
Pharm., Inc.; Johnson & Johnson; and
Janssen Research & Dev., LLC (July 11,
2016) (Control No. 16071208) (“Post-Trial
Mot.”) at 8-11, 35-37 ¶¶ 20-27, 75-78.
2.

The Court erred in submitting this case to the
jury because all of Plaintiffs’ failure-to-warn
claims are preempted by federal law, and this
issue should have been resolved by the Court.
Plaintiffs’ entire failure-to-warn theory rests
on the notion that Janssen should have
provided additional warnings as to Risperdal
relative to the alleged risk of gynecomastia
associated with Risperdal use by children and
adolescents. This claim is preempted because
federal law prohibits Janssen from taking
this action. Specifically, Janssen could not
comply with both Plaintiff’s demands and
federal regulations as evidenced by the fact
that the U.S. Food and Drug Administration
(“FDA”)
has
explicitly
stated
that
gynecomastia is not a serious adverse event,
which is clear evidence that the FDA would
not have approved the label change as

App-70
required by Wyeth v. Levine, 555 U.S. 555
(2009), and its progeny. See Post-Trial Mot. at
33-35, ¶¶ 71-74.
3.

The Court erred in submitting Plaintiffs’
failure-to-warn claim, which was based on the
pre-October 2006 Risperdal label, to the jury
because this claim is preempted by federal
law and should have been resolved by the
Court. Plaintiffs’ entire theory as to the preOctober 2006 Risperdal label rests on the
notion that Janssen should have provided
warnings as to Risperdal relative to an
unapproved population, i.e., children and
adolescents. This claim is preempted because
federal law prohibits Janssen from taking
this action. Specifically, the FDA regulations
in effect during the relevant time, including
21 C.F.R. § 201.57(e) (Mar. 2006), reflect that
a warning concerning a risk as to an off-label
use, i.e., an unapproved indication, must be
initiated by the FDA. Post-Trial Mot. at 3133, ¶¶ 66-70.
The Court Should Have Granted
Judgment As A Matter of Law Or, In The
Alternative, A New Trial Because There
Was Inadequate Evidence That Any
Alleged Failure to Warn Proximately
Caused A.Y.’s Alleged Injuries

4.

Tennessee, like Pennsylvania, has adopted
the learned intermediary doctrine. Pittman v.
Upjohn Co., 890 S.W.2d 425, 428 (Tenn.
1994). A pharmaceutical manufacturer “may
discharge their duty [to exercise reasonable

App-71
care] by distributing the drugs with proper
directions and adequate warnings to those
who foreseeably could be injured by the use of
their products.” Id. An allegedly inadequate
warning cannot be the proximate cause of an
injury where a physician is fully aware of the
risks of a medication. Harden v. Danek Med.,
Inc., 985 S.W.2d 449, 451 (Tenn. Ct. App.
1999). Post-Trial Mot. at 24, ¶¶ 50-51.
Additionally, even where a warning is found
inadequate, a manufacturer cannot be held
liable unless plaintiff can demonstrate that
an allegedly adequate warning would have
been conveyed to the Plaintiff and prevented
plaintiff from taking the medication. See King
v. Danek Med., Inc., 37 S.W.3d 429, 452-53
(Tenn. Ct. App. 2001) (citing Harden, 985
S.W.2d at 451). Post-Trial Mot. at 24-25, ¶ 52.
Finally, Tennessee law also provides that
where there is no evidence that a physician
actually read the allegedly inadequate
warning, the warning could not have been the
proximate cause of the plaintiff’s injury.
Carter v. Danek Med., Inc., No. CIV. 96-3243G, 1999 WL 33537317, at *10 (W.D. Tenn.
June 3, 1999). Post-Trial Mot. at 26-27, ¶ 55.
5.

Here, uncontroverted testimony showed that
A.Y.’s initial prescriber of Risperdal Dr. Deniz
Eker, the only physician who prescribed
Risperdal to A.Y. prior to the time Plaintiffs
alleged he developed gynecomastia, was fully
aware of the potential association between
Risperdal and gynecomastia when she
prescribed to A.Y. Post-Trial Mot. at 25-26,

App-72
¶ 53. Dr. Eker also testified that: she was
aware that Risperdal elevates prolactin levels
and that gynecomastia was a potential side
effect of Risperdal since she first learned of
the medication around the year 2000; that
she was aware of the potential side effect the
entire time she prescribed Risperdal; that she
believed that the risks of causing
hyperprolactinemia and gynecomastia were
higher for Risperdal than they were for other
medications; and that beginning at least as
early as 2003, she regularly asked her
patients who were taking Risperdal whether
they experienced any breast discharge. PostTrial Mot. at 25-26, ¶ 53. In fact, Dr. Eker
testified that she suspected gynecomastia in
A.Y. in 2004. Dep. of Dr. Deniz Eker at
126:22-128:11 (Feb. 8, 2015). Despite these
suspicions, Dr. Eker restarted A.Y. on
Risperdal in 2005 after discussing A.Y.’s
potential gynecomastia with A.Y.’s mother.
Id. at 177:11-21. Billie Ann Yount, A.Y.’s
mother, acknowledged that Dr. Eker told her
that breast enlargement was a possible side
effect of Risperdal and, after being told of the
risks and even after filing her lawsuit, she
still requested that A.Y. stay on Risperdal.
Post-Trial Mot. at 25-28, ¶¶ 53, 56. Dr.
Hughes, A.Y.’s next prescriber, also testified
that he was aware of the risks of
gynecomastia when she [sic] prescribed
Risperdal to A.Y. Post-Trial Mot. at 25-26,
¶ 53. Moreover, neither Dr. Eker nor Dr.
Hughes could recall ever having read or relied

App-73
on the Risperdal label in connection with
their prescriptions to A.Y. Post-Trial Mot. at
26-27, ¶ 55. Where, as here, the prescribing
physicians testified that they understood the
risks of a medication at the time they
prescribed it to their patient, they conveyed
that risk to the patient (here the patient’s
mother), and there is no evidence that either
prescribing physician even read the product
label, any alleged deficiency in the label could
not be the proximate cause of A.Y.’s injury.
Judgment as a matter of law therefore should
have been granted.
6.

In the alternative, the Court should have
granted a new trial because the Court’s
charge to the jury and verdict form did not
accurately reflect Tennessee law with respect
to both medical and proximate causation.
Post-Trial Mot. at 29-31, ¶¶ 58-65. The
Court’s verdict form failed to distinguish
between medical causation and proximate
causation—asking only “[w]as Janssen’s
negligence a substantial factor in bringing
about [A.Y.]’s gynecomastia?” Post-Trial Mot.
at 30, ¶ 63. The verdict form made it
impossible to verify that the jury found both
(a) that Risperdal caused A.Y. to develop
gynecomastia, and (b) that had a different
(and according to Plaintiffs adequate)
warning been provided to A.Y.’s prescribing
physicians they would not have prescribed
Risperdal to him. Both were essential
elements of A.Y.’s claim. See, e.g., Nye v.
Bayer Cropscience, Inc., 347 S.W.3d 686, 704

App-74
(Tenn. 2011) (“Causation, an essential
element of any products liability action, refers
to both ‘proximate cause’ and ‘cause in fact.’”).
It is not clear from the verdict form that the
jury made both necessary determinations
and, as a result, the Court should have
ordered a new trial.
The Court Should Have Granted
Judgment As A Matter of Law Because
There Was Inadequate Evidence That
Risperdal Was The Medical Cause of
A.Y.’s Alleged Injuries
7.

The Court erred in submitting Plaintiffs’
negligent failure to warn claim to the jury
because Plaintiff did not establish the
requisite causal connection between the
alleged injury and Risperdal. Post-Trial Mot.
at 12-23, ¶¶ 32-49. Plaintiffs’ expert, Mark P.
Solomon, M.D., did not cite to any scientific
literature in support of his general causation
opinion,
i.e.,
that
Risperdal
causes
gynecomastia because it elevates prolactin
and elevated prolactin causes gynecomastia.
Post-Trial Mot. at 14-18, ¶¶ 32, 34-40. He also
purported to diagnose A.Y.’s alleged
gynecomastia on the basis of a photograph
even though he acknowledged that this was
not a generally accepted means of diagnosis
and that “[i]n order to make any diagnosis,
you have to do a physical exam.” Post-Trial
Mot. at 14-15, ¶ 33. This testimony should
have been excluded pursuant to Pa. R. Evid.
702, 703, Pennsylvania’s Frye standard, and

App-75
Tennessee substantive law. See, e.g., Betz v.
Pneumo Abex, LLC, 44 A.3d 27 (Pa. 2012);
Grady v. Frito-Lay, Inc., 839 A.2d 1038 (Pa.
2003); Richardson v. GlaxoSmithKline, 412 F.
Supp. 2d 863, 868 (W.D. Tenn. 2006) (“[The
cause] must be such that had it not happened
the injury would not have been inflicted.”);
Downs v. Perstorp Components, Inc., 126 F.
Supp. 2d 1090, 1095 (E.D. Tenn. 1999).
8.

Dr. Solomon’s testimony that Risperdal was
the cause in fact of A.Y.’s alleged
gynecomastia also should have been excluded
by the Court. Dr. Solomon failed to identify
the basis on which he concluded that A.Y. had
gynecomastia in 2003 that did not resolve
through the time he examined A.Y. in 2015.
He also failed to adequately exclude other
potential
causes
of
A.Y.’s
alleged
gynecomastia or consider the specific dose of
Risperdal taken by A.Y. These failings
rendered Dr. Solomon’s specific causation
testimony inadmissible under Pennsylvania
law and it should have been excluded by the
Court. Post-Trial Mot. at 19-21, ¶¶ 41-46.

9.

Additionally, Dr. Solomon’s expert report
failed to disclose his opinion that A.Y. had
gynecomastia at “Christmastime 2003.” As
this opinion was not disclosed in Dr.
Solomon’s report, it was error for the Court to
permit the testimony, alleging an opinion
disclosed for the first time at trial. Post-Trial
Mot. at 22-23, ¶¶ 47-49; Pa. R.C.P. No.

App-76
4003.5; Woodard v. Chatterjee, 827 A.2d 433,
441 (Pa. Super. Ct. 2003).
The Court Should Have Ordered A New
Trial Because The Court Improperly
Excluded Evidence With Regard To A.Y.’s
Complete Mental Health Picture And The
Benefits of Risperdal
10. The Court erred in improperly excluding
considerable evidence relevant to A.Y.’s
complete mental health picture, the benefits
of Risperdal, and the risk-benefit analysis
that A.Y.’s physicians had to undertake when
determining whether to prescribe Risperdal.
It is undisputed that almost every
prescription medication, including Risperdal,
carries some risk of side effects. In
determining whether a medication is
appropriate for a particular patient, the
physician must weigh the potential side
effects against the needs of the patient and
the potential benefit to him from the
medication.
The
Court
committed
fundamental error tainting the entire trial by
allowing Plaintiffs to present a one-sided
description of this process, focused only on
risks, while preventing Defendants from fully
explaining why A.Y. needed Risperdal and
the factors that his physicians needed to
consider when making that decision. If A.Y.’s
physicians understood the risks associated
with Risperdal but decided that A.Y.’s need
for the medication outweighed those risks,
Janssen’s product label could not have been

App-77
the proximate cause of A.Y.’s injuries,
regardless of content. See, e.g., Harden, 985
S.W.2d at 451. The Court’s ruling deprived
the jury of critical evidence necessary to
resolve one of the core issues in the case—
whether A.Y.’s prescribing physicians and his
parents in fact would have refused Risperdal
had they been given different risk
information. A reasonable jury presented
with the specific facts relating to the extreme
behavior by A.Y. and the substantial
difficulties his parents faced with A.Y.’s
behavior might well have found that different
warnings would not have changed their
decision to give A.Y. Risperdal. But
prohibited from presenting these facts and
limited to generalities, Defendants were
unable to explain the depth of A.Y.’s need for
Risperdal to the jury and mount a fair
defense. Post-Trial Mot. at 86-87, ¶¶ 189-94.
11. The Court compounded this error with two
other errors that both individually also
warrant a new trial. First, the Court
improperly limited the testimony of
Defendants’ expert Nadine Schwartz, M.D.
Dr. Schwartz is a child psychologist who
regularly treats the conditions for which
Risperdal is prescribed and who regularly
prescribes it and other medications within its
class. She therefore was highly qualified to
opine on Risperdal generally, the patients for
whom Risperdal is appropriate, the analysis
a prescriber engages in when determining
whether to prescribe Risperdal, including

App-78
consideration of the risks and benefits, the
psychological impact on A.Y. of his
gynecomastia
diagnosis,
and
other
medications that were available for a patient
such as A.Y. Testimony as to each topic,
supported by Dr. Schwartz’s extensive
experience in the field, was appropriate
expert testimony pursuant to Pa. R. Evid.
702. The Court, without basis, limited Dr.
Schwartz’s testimony to discussing the
general benefits of Risperdal while allowing
Plaintiffs’ expert Dr. Kessler (who is not a
psychiatrist and does not treat conditions or
prescribe these medications) free rein to
testify on these issues. This limitation on Dr.
Schwartz’s testimony was erroneous and
highly prejudicial to Defendants, especially
given the inconsistent treatment of her
testimony compared with Dr. Keller [sic].
This warrants a new trial. McClain v. Walker,
761 A.2d 155, 156 (Pa. Super. Ct. 2000). PostTrial Mot. at 44-47, ¶¶ 93-100.
12. The Court also committed error requiring a
new trial by improperly precluding
Defendants from presenting the testimony of
A.Y.’s treating physician Gordon Greeson,
M.D. who also prescribed Risperdal to A.Y.
Dr. Greeson’s testimony was relevant to
causation because it rebutted Plaintiffs’
argument that A.Y.’s parents would not have
allowed him to take Risperdal had they
known of its “true” risk profile. Dr. Greeson’s
records also discuss A.Y. having enlarged
breasts in February 2016—a record that was

App-79
referenced by Plaintiffs during their opening
argument, closing argument, and during the
testimony of Dr. Solomon. Despite this, the
Court without justification prevented
Defendants from introducing the testimony of
Dr. Greeson reflecting his personal
observations of A.Y. and his medical
diagnoses derived therefrom. The jury had a
right to know A.Y.’s current physician’s
impressions of his physical and mental state
but were deprived of this testimony by the
Court’s improper ruling. Post-Trial Mot. at
48-51, ¶¶ 102-114.
The Court Should Have Ordered A New
Trial Because The Court Improperly
Admitted
Certain
Testimony
By
Plaintiffs’ Expert Dr. David Kessler
13. The Court erred in admitting large portions
of Dr. David Kessler’s prior deposition
testimony taken in another case for four
reasons. First, there was no showing or even
contention that Dr. Kessler was unavailable
to testify live at trial as required by the
Pennsylvania Rules of Evidence. Pa. R. Evid.
804(a)(5). Plaintiffs simply decided they did
not want to pay the cost of having him testify
live. Post-Trial Mot. at 38-42, ¶¶ 79-89.
14. Second, allowing Dr. Kessler to testify via
presentation of a stale de bene esse deposition
intended for use in two separate and earlier
cases prejudiced Defendants’ ability to
meaningfully cross-examine him on issues
germane to this case. Post-Trial Mot. at 42,

App-80
¶ 90. It also precluded Defendants from crossexamining Dr. Kessler on important and
relevant developments since that deposition
was taken, including, but not limited to, the
publication of a peer-reviewed and published
reanalysis of the data from the studies
addressed in the 2003 Findling article, on
which Dr. Kessler offered opinions, including
matters relating to “Table 21,” as well as the
FDA’s most recent analysis of the Risperdal
label. Post-Trial Mot. at 42-43, ¶ 91. The
prejudice was compounded by the Court’s
refusal to admit evidence of the FDA’s
rejection of a Citizen Petition submitted by
Plaintiffs’ counsel as well as the Court’s
refusal to allow Defendants to introduce other
relevant testimony Dr. Kessler gave in other
cases, on the basis of a non-existent rule that
if Defendants failed to ask about a matter in
the de bene esse deposition no testimony by
Dr. Kessler on that matter could be
admissible. Post-Trial Mot. at 43, 83-84
¶¶ 92, 184.
15. Third, the Court erred in permitting Dr.
Kessler to offer extensive testimony
regarding
“off-label”
promotion.
This
testimony was improper for two separate
reasons. First, expert witnesses are not
permitted to testify as to what the law is or
whether certain conduct was legal—that is
the exclusive province of the Court. Waters v.
State Emples. Ret. Bd., 955 A.2d 466 (Pa.
Commw. Ct. 2008). Post-Trial Mot. at 72-73
¶165. Second, Dr. Kessler’s opinions

App-81
regarding alleged off-label promotion were
irrelevant and inadmissible in this case
because whether Janssen engaged in off-label
promotion was irrelevant to the existence or
absence of liability on Plaintiffs’ claims under
Tennessee law. See, e.g., Giggers v. Memphis
Hous. Auth., 277 S.W.3d 359, 364 (Tenn.
2009). Nor is there any evidence of off-label
promotion to any of A.Y.’s prescribers. PostTrial Mot. at 73-74 ¶¶ 166-169. This lack of
any nexus to the facts or law of this case
renders this testimony wholly irrelevant.
16. Fourth and finally, the Court admitted
extensive testimony from Dr. Kessler
regarding his personal interpretation of
internal Janssen documents, impermissible
testimony regarding Janssen’s corporate
knowledge and “intent,” the FDA’s alleged
intent, alleged violations of law by Janssen
including but limited to alleged “fraud-onthe-FDA,” Dr. Kessler’s own personal beliefs
as to what is important to doctors, patients,
and parents, and an outdated and improper
analysis of “Table 21.” Dr. Kessler’s
testimony should have been excluded as to
each of these topics pursuant to Pa. R. Evid.
403, 702, 703 and related decisional law.
Post-Trial Mot. at 65-72, 76-84 ¶¶ 150-163,
173-184.
The Court Should Have Ordered A New
Trial Because The Court Erroneously
Excluded The FDA’s Decision On The

App-82
Citizen Petition Submitted by Plaintiffs’
Counsel
17. A new trial is warranted based upon the
Court’s improper exclusion of the FDA’s
November 25, 2014 decision on the Citizen
Petition submitted by Plaintiff’s counsel. The
denial letter sent by the FDA provided
valuable information concerning the FDA’s
opinion on the adequacy of the Risperdal
label’s warnings and the benefits of Risperdal
in pediatric populations. The denial letter is
powerful evidence that the FDA itself
disagrees with the conclusions of Plaintiffs’
expert witnesses, including Dr. Kessler,
whose credibility Plaintiff attempted to
bolster by citing his prior experience at the
FDA. Defendants were prejudiced by the
Court’s refusal to admit this relevant
evidence. That the denial of the petition was
at the time of trial the subject of an appeal to
the United States Court of Appeal for the
Third Circuit from dismissal of the challenge
by Plaintiffs’ counsel to the denial by the
United States District Court for the Eastern
District of Pennsylvania, is immaterial to its
relevance or its admissibility. The letter was
fully effective pending judicial review unless
a Court stayed its effect which did not occur
here. See 5 U.S.C. § 705. Post-Trial Mot. at
84-85, ¶¶ 185-89.
The Court Should Have Ordered A New
Trial Because The Court Improperly
Charged The Jury In Several Respects

App-83
18. The Court also made several errors in its jury
charge that necessitate a new trial. First, the
Court failed to instruct the jury as to the
learned
intermediary
doctrine.
A
pharmaceutical
manufacturer
“may
discharge their duty [to exercise reasonable
care] by distributing the drugs with proper
directions and adequate warnings to those
who foreseeably could be injured by the use of
their products.” Pittman, 890 S.W.2d at 428.
Under the learned intermediary doctrine, the
duty to warn runs to the prescribing
physician, not the end user of the medication.
Not only did the Court fail to instruct the jury
that it was required to determine whether
Janssen provided A.Y.’s physicians with an
adequate warning, the court charged that
“[w]arnings should be given to those persons
whom the supplier should reasonably expect
to use or handle the product or be endangered
by its use or handling if the supplier
reasonably should believe those persons
would not realize the danger without the
warnings.” This instruction suggested to the
jury that Janssen needed to supply A.Y. (or
his parents) with a warning adequate to put
them on notice of a potential risk, which is
contrary to controlling Tennessee law. PostTrial Mot. at 51-54, ¶¶ 115-21.
19. The Court also fundamentally misapplied
Tenn. Code Ann. §§ 29-39-102(a)(2), (h)(2),
and improperly instructed the jury that it
should
determine
whether
Janssen
intentionally
falsified,
destroyed,
or

App-84
concealed evidence. Neither party disputed at
trial that Tenn. Code Ann. §§ 29-39-102(a)(2),
(h)(2) applied to this case. That statute limits
the amount of non-economic damages that
can be awarded to any plaintiff to $750,000
unless “the defendant intentionally falsified,
destroyed or concealed records containing
material evidence with the purpose of
wrongfully evading liability in the case at
issue.” Id. The Court should not have
instructed the jury on this issue at all because
there is no evidence whatsoever that Janssen
falsified, destroyed, or concealed any evidence
to avoid liability in this case, let alone that it
did so intentionally. The statute’s exception,
in effect, is a safeguard against spoliation of
evidence. See, e.g., Tenn. Code Ann. §§ 29-39102(a)(2), (h)(2) (“this subsection (h) does not
apply to the good faith withholding of records
pursuant to privileges and other laws
applicable to discovery . . .”); Tenn. Prac.
Series, Tenn. Pattern J.I. —Civ § 14.57A
(2015). These provisions make clear that the
exception to the statute is concerned with
discovery abuses, not the merits of the
underlying conduct. In order to invoke the
exception, Plaintiffs argued that Defendants
withheld two pieces of evidence—Table 21
and the “Bilker issue”—but there is no
evidence that either document was falsified,
withheld or destroyed to evade liability. To
the contrary, the documents were produced to
Plaintiffs during discovery and in fact were
admitted into evidence in this case. Moreover,

App-85
the Court exacerbated the error by failing to
include the phrase “for the purpose of
wrongfully evading liability in this case”
which does not accurately describe the jury
findings necessary to invoke the exception to
the cap. As a result, the damages cap should
have applied and the jury should not have
been instructed on the exception which did
not apply as a matter of law. Post-Trial Mot.
at 54-56, ¶¶ 122-29.
20. The Court erred in failing to instruct the jury
on Tennessee’s statutory presumption of
adequacy in its charge and that failure
necessitates a new trial. Tennessee law
provides
that
“[c]ompliance
by
a
manufacturer or seller with any federal or
state statute or administrative regulation
existing at the time a product was
manufactured and prescribing standards
for … labeling, warning or instructions for
use of the product, shall raise a rebuttable
presumption that the product is not in an
unreasonably dangerous condition in regard
to matters covered by these standards.” Tenn.
Code Ann. § 29-28-104(a). Where there is
evidence, as here, that a defendant complied
with federal regulations, a jury must be
instructed on the statutory presumption. See,
e.g., Clarksville-Montgomery Cnty. School
Sys. v. United States Gypsum Co., 925 F.2d
993, 1004-05 (6th Cir. 1991). The Court’s
failure to do so in this case requires a new
trial. Post-Trial Mot. at 56-58, ¶¶ 130-34.

App-86
21. The Court also erred in failing to instruct the
jury that Defendants could not be liable for
failing to provide information to the FDA,
that Defendants could not be found liable for
truthful off-label promotion, or that punitive
damages were not at issue, despite Plaintiffs’
counsel’s repeated and improper invitations
to “punish” defendants. In light of the
minimal evidence regarding damages in this
case, see infra ¶ 22, and the $70,000,000
verdict, the jury’s award cannot rationally be
understood as anything other than a punitive
award given the gross disproportion between
the evidence of harm and the amount of the
verdict. These errors too require a new trial.
Post-Trial Mot. at 58-65, ¶¶ 135-49.
The Court Should Have Ordered A New
Trial Or In The Alternative Remittitur
Because The Amount Of Damages
Awarded By The Jury Was Unsupported
By The Evidence At Trial
22. The Court erred in not ordering a new trial
given the excessive nature of the jury’s
verdict. Tennessee Courts have held that
“[t]he amount of a verdict alone can be so
large that it reflects passion, prejudice, or
caprice.” Duran v. Hyundai Motor Am., Inc.,
271 S.W.3d 178, 212 (Tenn. Ct. App. 2008).
“When asked to determine whether a verdict
should be set aside based on the amount of
the damage award alone, the courts must
consider the nature and extent of the
plaintiff’s injuries, the pain and suffering the

App-87
plaintiff experienced, the expenses the
plaintiff incurred as a result of the injuries,
the plaintiff’s loss of earning capacity as a
result of the injuries, the impact the injuries
have had on the plaintiffs enjoyment of life,
and the plaintiff’s age and life expectancy.”
Id. Additionally, where a remittitur would
effectively “destroy[] the jury’s verdict” a new
trial is required. See, e.g., Guess v. Maury, 726
S.W.2d 906, 907, 913 (Tenn. Ct. App. 1986)
(overruled in part on other grounds). Here,
the jury’s verdict of $70,000,000 was so
blatantly excessive that a new trial was
required. The only evidence at trial in support
of A.Y.’s claim for damages was the testimony
of A.Y.’s father, Terry Yount, who testified
that A.Y. was teased at school and at Mr.
Yount’s workplace. He also testified that A.Y.
is “doing okay, considering what he’s been
through. He’s doing all right.” Plaintiffs also
presented the deposition testimony of A.Y.
and Ms. Yount which was consistent with Mr.
Yount’s testimony. Plaintiffs introduced no
testimony of any out-of-pocket expenses,
medical expenses, lost wages, or lost-earning
potential.
This
evidence
alone
was
inadequate to support a $70,000,000
compensatory damages verdict. To the
contrary, numerous Tennessee cases have
remitted much smaller awards or ordered a
new trial where the plaintiff introduced far
more extensive evidence of pain and
suffering. See, e.g., Guess, 726 S.W.2d 906.
Plaintiffs conceded they have not incurred

App-88
any expenses as a result of A.Y.’s injuries, and
did not introduce any evidence to show any
loss of earning capacity or ongoing injury.
Given the discrepancy between the evidence
as to damages and the jury’s monetary award,
a remittitur cannot cure the error and a new
trial is required. Post-Trial Mot. at 89-95,
¶¶ 198-214.
23. In the alternative, the jury’s award must be
significantly remitted in order to be in line
with Tennessee case law with respect to
damages. Post-Trial Mot. at 89-95, ¶¶ 198214.
The Court Should Have Granted
Judgment Notwithstanding The Verdict
As To Johnson & Johnson And Janssen
Research & Dev., LLC Because Plaintiffs
Introduced No Evidence Of Wrongdoing
As To Those Defendants
24. The Court should have granted judgment
notwithstanding the verdict as to both
Johnson & Johnson and Janssen Research &
Dev., LLC because Plaintiffs introduced no
evidence of any wrongdoing as to either
Defendant—neither of whom manufactured
Risperdal. Tenn. Code Ann. § 29-28-105(a).
The verdict form only asked the jury to render
a verdict as to Janssen and no evidence was
introduced at trial that Janssen is simply an
alter-ego of either company. As a result, both
Johnson & Johnson and Janssen Research &
Dev., LLC should have been granted

App-89
judgment notwithstanding the verdict. PostTrial Mot. at 96-98, ¶¶ 218-29.
Plaintiffs raised the following issue in their
1925(b) Statement of Matters Complained of on
Appeal:
1.

On May 2, 2014, the trial court granted
Defendants’ global motion for partial
summary judgment as to the Plaintiffs’
claims for punitive damages asserted in In re:
Risperdal® Litigation, March Term 2010, No.
296, reasoning that New Jersey law applied
globally to the issues of punitive damages in
this litigation and that Defendants could not
incur punitive liability in any of the Risperdal
cases filed in Philadelphia County as a matter
of New Jersey law. The May 2, 2014 Order
had global application to all Risperdal cases
pending in the First Judicial District. Did the
trial court err by granting that motion, where
ample evidence supported a claim of punitive
damages against Defendants and warranted
the submission of that issue to the jury under
either Tennessee or New Jersey law?
DISCUSSION
DEFENDANTS’ STATEMENT OF MATTERS
COMPLAINED OF ON APPEAL:

This Court has consolidated the twenty-four
points enumerated in Defendants’ Statement of
Matters Complained of on Appeal into the following
thirteen issues: (1) whether this Court should have
granted judgment as a matter of law because Plaintiffs
failed to establish that the Risperdal warning was
inadequate or that Defendants could have lawfully

App-90
changed the label; (2) whether this Court erred in
submitting the case to the jury because all of Plaintiffs’
failure to warn claims were preempted by federal law;
(3) whether Plaintiffs’ claims were barred by the
learned intermediary doctrine; (4) whether this
Court’s verdict form was proper; (5) whether the
evidence was sufficient to establish medical causation;
(6) whether this Court erred in excluding evidence of
specific instances of aggressive conduct; (7) whether
this Court erred in limiting the testimony of Nadine
Schwartz, M.D.; (8) whether this Court improperly
precluded the testimony of Gordon Greeson, M.D.;
(9) whether this Court erred in admitting Dr. Kessler’s
de bene esse deposition; (10) whether this Court erred
in excluding the FDA’s decision on the Citizen
Petition; (11) whether this Court’s jury instructions
were proper; (12) whether the verdict was excessive;
and (13) whether this Court should have entered
judgment notwithstanding the verdict as to Johnson
& Johnson and Janssen Research & Development,
LLC. This Court finds no merit in any of the
assignments of error.
I.

THIS COURT PROPERLY REFUSED TO
GRANT JUDGMENT AS A MATTER OF LAW
BECAUSE DEFENDANTS FAILED TO
PROVIDE AN ADEQUATE LABEL AND
DEFENDANTS, NOT THE FDA, WERE
RESPONSIBLE FOR PROVIDING SUCH A
LABEL

On appeal, Defendants claim, in part, that this
Court erred in submitting the case to the jury because
the Risperdal label was adequate as a matter of
Tennessee law. Defendants’ claim should be

App-91
dismissed. As discussed in detail below, Defendants
were aware of the extent of the statistical link between
Risperdal and gynecomastia and they failed to provide
this information either on their label or to the FDA. As
such, Defendants’ claim for judgment as a matter of
law as it pertains to the adequacy of their label fails.
Defendants additionally claim that they were
entitled to judgment notwithstanding the verdict
based on what they perceived as a concession from
Plaintiffs’ expert, Dr. David Kessler, to an allegedly
“incorrect interpretation of FDA regulations.”
Contrary to Defendants’ claim, there was no such
concession on the record. Moreover, even if such a
concession was made, the standard for judgment
notwithstanding the verdict would not have been met.
Judgment notwithstanding the verdict will only
be granted “in a clear case where the facts are such
that no two reasonable minds could fail to agree.”
DiFrancesco v. Excam, Inc., 642 A.2d 529, 531 (Pa.
Super. Ct. 1994).
In reviewing a denial of judgment
notwithstanding the verdict, an appellate
court must decide whether there was
sufficient evidence to sustain the verdict; our
[the Superior Court of Pennsylvania’s] scope
of review is very narrow: all evidence and all
reasonable inferences drawn therefrom must
be considered in the light most favorable to
the verdict winner.
Mitchell v. Moore, 729 A.2d 1200, 1203 (Pa. Super. Ct.
1999). Here, in viewing the evidence in the light most
favorable to the Plaintiffs, it is clear that there was
sufficient evidence to sustain the verdict.

App-92
A. Defendants failed to
adequate Risperdal label

provide

an

It is essential to the safety of prescription drug
users across the country that manufacturers be held
to the standard of providing adequate labels for their
drugs. The Court in Strayhorn v. Wyeth Pharms. Inc.,
explained the following:
Tennessee law effectively requires a
manufacturer to alter its label if it wishes to
avoid tort liability. Indeed, prescription drug
manufacturers must market and distribute
their products while minimizing the risk of
danger; adequate warnings and proper
instructions reduce this risk. Thus, if a
manufacturer distributes a drug without
adequate warnings, it exposes itself to
liability … To avoid that liability, the
manufacturer would have to alter its label to
strengthen its warning …
Strayhorn v. Wyeth Pharms. Inc., 887 F. Supp. 2d 799,
818 (W.D. Tenn. 2012) aff’d 737 F.3d 378 (6th Cir.
2013) (emphasis added). The Strayhorn Court went on
to say that:
… [T]he Tennessee Supreme Court has noted
that manufacturers of prescription drugs
“have a duty to market and distribute their
products in a way that minimizes the risk of
danger. They may discharge their duty by
distributing the drugs with proper directions
and adequate warnings to those who
foreseeably could be injured by the use of
their products. Warnings are reasonable
when they both convey a fair indication of the

App-93
dangers involved in taking a prescription
drug and warn with the degree of intensity
required by the nature of the risk.
Id. at 814 (emphasis added) (citation omitted).
Here, the Risperdal label was inadequate because
Defendants were well aware of off-label pediatric use
of Risperdal at the time it was prescribed to A.Y., and
as discussed at length in the Learned Intermediary
section of this Opinion, Defendants failed to provide a
label that demonstrated the degree of intensity, or
likelihood and seriousness, of the risks associated with
Risperdal use, despite their knowledge to the
contrary. 3
1.

Pediatric use
foreseeable

of

Risperdal

was

The evidence presented at trial established that
the Defendants foresaw pediatric use of Risperdal.
The following deposition testimony was elicited from
Plaintiffs’ expert, Dr. David Kessler, who served as the
commissioner of the FDA for seven years:
Q. And in documents that you have reviewed,
was Janssen interested in not only

Although both pediatric and adult patients with psychosis,
later changed to schizophrenia, could be considered “foreseeable”
Risperdal users, this opinion focuses on pediatric users
specifically. Kessler Dep. 5/19/15 at 37. In 2006, Risperdal was
specifically approved for irritability associated with autism in
adolescents and children; subsequently it was approved for use
in bipolar pediatric patients. Id. at 35. Patients with these
conditions who Defendants were aware would likely be
prescribed Risperdal from their physicians, were foreseeable
Risperdal users.
3

App-94
maintaining but developing the market of
what was an off-label usage of the drug?
A. So certainly by documents that I’ve seen
around 2000, 2001, those statements about
growing and maintaining the market was in
Janssen’s agenda.
Kessler Dep. 5/19/15 at 86. The discussion later
continued:
Q. Was there an obligation to get this
information [meaning known higher rates
between Risperdal and gynecomastia] which
was known to Janssen in 2000/2001, and
certainly in 2001 by July, to the physicians
who are prescribing this drug widely off-label
[meaning to children]?
A. In my opinion, yes, there was such an
obligation, because Janssen, if you look
carefully at this time period, was marketing
this drug for its use in children. And if you’re
going to market a drug for use in children,
then you have an obligation to tell the good as
well as the bad. So you want to make sure—I
mean, if you’re marketing a drug, you’ve got
to tell the good and the bad.
Q. Okay. Is there evidence which you have
seen that Janssen was marketing the drug for
children and adolescents back in 2000/2001?
A. Yes.
Id. at 125-126. As the transcript demonstrates,
Defendants clearly foresaw pediatric use of Risperdal
because Defendants specifically targeted the pediatric
population through their marketing efforts.

App-95
2.

Defendants failed to disclose the true
statistical
relationship
between
Risperdal and gynecomastia

Defendants failed to report the statistically
significant association between Risperdal and
gynecomastia, both within itself as a drug, and in
comparison to other drugs, despite having evidence of
a causal link in their internal studies. The 2002
Risperdal label in effect at the time that A.Y. was first
prescribed the drug stated that “gynecomastia is rare”
indicating under industry standards the chance of
occurrence was “fewer [than] one out of a 1000.” Eker
Dep. 2/8/16 at 43. The 2002 label also stated that “as
with other drugs that antagonize Dopamine D2
receptors,” Risperidone “elevates prolactin levels.” Id.
at 4-6. This label was not changed until 2006
whereupon it stated that gynecomastia occurred in
2.3% of users and that Risperdal caused a higher
occurrence of hyperprolactinemia than other
antipsychotics. Id. at 56-58. Still, the label was
inaccurate and misleading according to Defendants’
own internal studies.
In mid-May 2002, Janssen conducted a pooled
analysis of five studies which looked at prolactin levels
in children and adolescents. The data was
summarized in a chart referred to as Table 21. At the
time of this analysis, Defendants already knew that
the pure incident rate of gynecomastia was 4 to 5%.
Kessler Dep. 5/19/15 at 176. This is because Janssen
had previously conducted a special attention study in
November 2000 (RIS-INT-41), which showed such a

App-96
correlation. 4 During Dr. Kessler’s deposition, he
testified about Janssen’s internal studies, the
information contained therein, and the knowledge
that Defendants had regarding the true rate of
gynecomastia. The following exchange occurred:
Q. Now my question is, was it known to
Janssen Pharmaceuticals well before 2006
that the rate of gynecomastia in children and
adolescents in their studies exceeded 2.3
percent?
A. Yes. You certainly have earlier studies
that were completed years before that show a
higher incidence. That is the average of—
across studies by 2006.
Q. Yes. But my focus is on timing, not on—
not on average. We’ll talk about average.
A. Okay.
Q. As to timing, did Janssen Pharmaceuticals
know by 2000, by November of 2000, that the
rate of gynecomastia actually exceeded 2.3
percent [despite their label at the time still
saying “rare” and indicating less than .001%
incidence]?
A. Yes. In certain studies, that was exactly
correct.
Id. at 64.
4 The final results of this study established that 5.5% of boys
taking Risperdal developed gynecomastia. It should also be noted
that Defendants subsequently conducted an extension study
(RIS-INT-70) which showed that the incidence rate of
gynecomastia was 12.5%.

App-97
Not only did Defendants know that Risperdal
elevated prolactin in children and adolescents and
caused gynecomastia at a rate higher than 2.3%,
Defendants also knew that Risperdal was associated
with an increased risk of hyperprolactinemia
compared to other antipsychotics long before the label
was changed. This was evidenced by a September 2006
email from Dr. Gahan Pandina, a scientist who was
involved in Janssen drug development and Risperdal
development; it stated the following: “[w]e have known
for years that RIS [Risperdal] elevates prolactin more
so than other second-generation antipsychotics. Firstgeneration antipsychotics also elevate prolactin either
comparably or less than RIS, a fact that has been
known for years.” Kessler Dep. 5/19/15 at 72-73. As
this email makes clear, Defendants knowingly
concealed that Risperdal was connected to higher
rates of hyperprolactinemia than other antipsychotics
for “years.” 5
Based on the foregoing, Defendants’ claim that
the Risperdal label was adequate must fail.
Defendants foresaw pediatric use of Risperdal given
that they specifically targeted the pediatric
population,
and
Defendants
deliberately
misrepresented and understated both the incidence
A second email was shown to the Court demonstrating that
the same knowledge of the increased relationship between
hyperprolactinemia and Risperdal as compared to other antipsychotics was known in 2003 and likely before. See Kessler Dep.
5/19/15 at 71-72 (“[In an email from Janssen employee, Olga
Mitelman on January 28, 2003,] [w]hen compared to
competitors … only RIS [Risperdal] causes prolactin elevation at
the recommended low doses. Other atypicals would show the
same elevations, but only at doses seldom seen.”).
5

App-98
rate of gynecomastia and the increased risks
associated with Risperdal as compared to other
antipsychotics.
B. Defendants had the responsibility to
warn users of potential Risperdal risks
and due to their failure to disclose
important statistical information to the
FDA, the FDA’s refusal to accept initial
label change requests is irrelevant
It is the responsibility of the drug manufacturer
to ensure that it provides an adequate label to
foreseeable consumers. See Wyeth v. Levine, 555 U.S.
555, 567-68 (2009) (“Congress adopted a rule of
construction to make it clear that manufacturers
remain responsible for updating their labels”). The
United States Supreme Court clearly states that “the
very idea that the FDA would bring an enforcement
action against a manufacturer for strengthening a
warning pursuant to the CBE [Changes Being
Effected] regulation is difficult to accept—neither [the
manufacturer Defendant] nor the United States has
identified a case in which the FDA has done so.” Id. at
570. This Court is equally unconvinced by Defendants’
claim that they were prohibited by the FDA from
providing an adequate drug label.
FDA regulation provides that “if a manufacturer
is changing a label to ‘add or strengthen a
contraindication, warning, precaution, or adverse
reaction’ or to ‘add or strengthen an instruction about
dosage and administration that is intended to increase
the safe use of the drug product,’ it may make the
labeling change upon filing its supplemental
application with the FDA; it need not wait for FDA

App-99
approval.” Id. at 568. Per the regulations, a drug
manufacturer need merely to submit the “revised
warning for review and approval” at a later time. Id.
at 562. The FDA mandates that “analysis of any other
data or information relevant to the safety and
effectiveness of the drug” must be provided to the
agency along with requests for changes in a drug label.
Kessler Dep. 5/19/15 at 263.
Here, Defendants are correct that the FDA
rejected their attempts to add pediatric information to
the Risperdal label for years. When Defendants first
applied for a change in the Risperdal label in 1997, the
FDA rejected their changes because they had “not
identified any pediatric indication for—for which
[they] believe[d] Risperdal could be approved.” Id. at
82-84. In 2000, the FDA rejected Defendants’ proposed
label changes again; this time the rejection was due to
the fact that the FDA did not find Defendants’
proposed pediatric usage for “conduct disorder” to be
valid as either a diagnosis or disorder. Id. at 88-90. In
2005, Defendants filed for label changes specific to
irritability associated with autism, instead of conduct
disorder, but were denied yet again for failing to
present adequate information. Kessler Dep. 5/20/15 at
337-341.
Defendants neglected to submit testing
information pertaining to the statistically significant
association between Risperdal and gynecomastia with
any of their applications to the FDA. The following
testimony was elicited from Dr. Kessler:
Q. From what you know and what you’ve
reviewed in this litigation, did Janssen have,
among the information in their files, Table 21

App-100
and the statistically significant association
[between Risperdal and gynecomastia]?
A. Yes.
Q. Okay. And from what you see and what
you know, was that submitted to the FDA as
part of the process?
A. I do not see it being submitted.
Q. And, in fact, do you see eventually the
opposite being represented?
A. Yes, I do.
Id. at 339. In attempting to garner FDA approval for
a drug label, Dr. Kessler made clear that as a drug
manufacturer, “…you’d want to make sure that
physicians and the FDA had the full set of data.”
Kessler Dep. 5/19/15 at 316. Defendants failed provide
a full set of data. While the statistical association
between Risperdal and prolactin-related adverse
events was presented in the drafts of labels for FDA
approval, the same information did not appear in the
final version presented to the FDA. See Kessler Dep.
5/19/15 at 263-264 (“The incidence appears, but the
statistical association is taken out between Version 4
and the final publication.”).
As Dr. Kessler explained, due to the complete lack
of knowledge of the statistically significant
relationship between Risperdal and gynecomastia, the
FDA “advisory committee . . . . recommended against
monitoring [prolactin] [and therefore changing the
Risperdal label to adjust for pediatric use], because
there was no association [so far as they were aware].
But, in fact, we know that [there was such an
association and it was known to Defendants]. And,

App-101
therefore, we don’t know what the—those advisors
would have recommended had they been told about
the association.” Id. at 268-269. As the Wyeth Court
stated, in the absence of “clear evidence that the FDA
would have approved a change to [the drug’s] label,
[the Supreme Court] will not conclude that it was
impossible for [the manufacturer] to comply with both
federal and state requirements.” Wyeth, 555 U.S. at
571. There is no clear evidence here as to whether the
FDA would, or would not have, approved a change to
Risperdal’s label had they known of the true statistical
relationship between Risperdal and gynecomastia.
This Court therefore cannot conclude that it would
have been impossible for Defendants to comply with
both federal and state requirements.
In sum, the FDA repeatedly rejected Defendants’
attempts to change the label, not because they were
refusing to provide safety information to Risperdal
users, but because Defendants repeatedly submitted
vague drug information with little research or
support. Defendants can hardly blame the FDA’s
approval process for their failure, and choice, to
withhold crucial safety information from the FDA, and
consequentially, foreseeable users.
Defendants’ claim that they could not have
lawfully changed the Risperdal label due to FDA
regulations fails based on legal precedent stating they
could have provided warning prior to approval if they
had so chosen. It also fails due to factual evidence that
they failed to provide, and in fact actively attempted
to conceal, adequate drug safety information to, and
from, the FDA.

App-102
For the foregoing reasons, Defendant’s claim
should be dismissed. Defendants did not meet the
burden of proof required for either judgment as a
matter of law or judgment notwithstanding the
verdict.
II. PLAINTIFFS’
CLAIMS
WERE
PREEMPTED BY FEDERAL LAW

NOT

On appeal, Defendants contend that this Court
erred in submitting the case to the jury because all of
Plaintiffs’ failure to warn claims were preempted by
federal law. According to Defendants, a conflict
between Tennessee law and federal regulation made
it impossible for Defendants to adequately warn of
Risperdal’s gynecomastia risk. As discussed above,
Defendants’ arguments are without merit.
According to the U.S. Supreme Court, “[a] proper
pre-emption analysis is dependent upon a comparison
of the federal statute or regulation and the particular
state law applicable.” Hassett v. Dafoe, 74 A.3d 202,
214 (Pa. Super. Ct. 2013) (citing Foster v. Love, 522
U.S. 67, 71 (1997) (“holding preemption must turn on
whether state law conflicts with the text of the
relevant federal statute or regulation”)). A state
statute is preempted only “where compliance with
both federal and state regulations is a physical
impossibility or where the state law stands as an
obstacle to the accomplishment and execution of the
full purposes and objectives of Congress.” CTS Corp.
v. Dynamics Corp. of America, 481 U.S. 69, 79 (1987)
(internal citations and quotations omitted). Since
“[s]tates are independent sovereigns in our federal
system,” there is a strong presumption against
preemption. See Medtronic, Inc. v. Lohr, 518 U.S. 470,

App-103
485 (1996) (“Congress does not cavalierly pre-empt
state-law causes of action”). Here, Plaintiffs’ failure to
warn claims were not preempted because it was
possible for Defendants to comply with both their state
law duty to adequately warn foreseeable users of
Risperdal, and their federal labeling duties.
Defendants rely on Wyeth v. Levine, 555 U.S. 555
(2009) in support of their claim that Plaintiffs’ failureto-warn claims were preempted by federal law. Such
reliance is misplaced. In Wyeth, the Supreme Court
expressly rejected the argument that FDA drug
labeling regulations preempt state-law failure to warn
claims. The Court asserted the following:
[I]t has remained a central premise of federal
drug regulation that the manufacturer bears
responsibility for the content of its label at all
times. It is charged both with crafting an
adequate label and with ensuring that its
warnings remain adequate as long as the
drug is on the market.
Id. at 570-71. The Court explained that “[a]lthough a
manufacturer generally may change a drug label only
after the FDA approves a supplemental application,
the agency’s ‘changes being effected’ (CBE) regulation
permits certain preapproval labeling changes that add
or strengthen a warning to improve drug safety.” Id.
at 573. The Court noted that the FDA retains the
authority to reject labeling changes made pursuant to
CBE regulation; however, in order to conclude that it
was impossible for a drug manufacturer to comply
with both state and federal requirements, there must
be clear evidence that the FDA would not have
approved a change to the drug’s label. The Court

App-104
ultimately found that the drug manufacturer in Wyeth
could have unilaterally strengthened its drug label
without the FDA’s prior approval pursuant to the CBE
process and that there was no evidence that the FDA
would have rejected such a label change.
Here, like the drug manufacturer in Wyeth,
Defendants were responsible for the content of their
Risperdal label at all times; they were responsible for
providing all relevant safety research to the FDA, and
to ensure that any safety concerns about Risperdal
were made known to foreseeable users. Despite this
responsibility, Defendants failed to adequately warn
of the risks associated with Risperdal even though
they knew there was a higher than reported statistical
link between Risperdal and gynecomastia. As
discussed above, Defendant did propose label changes
to the FDA; however, they provided the FDA with
inaccurate and incomplete information. Had
Defendants presented accurate information to the
FDA about the statistically significant relationship
between Risperdal and gynecomastia, the label
change may have been approved. Since there was no
clear evidence as to whether the FDA would, or would
not have, approved a change to Risperdal’s label had
they known of the true statistical relationship
between Risperdal and gynecomastia, this Court could
not conclude that it was impossible for Defendants to
comply with both federal and state labeling
requirements.
Based on the foregoing, Defendants’ claim should
be dismissed. Defendants failed to sustain their
burden of demonstrating that it was impossible to
comply with both federal and state law.

App-105
III. THE
LEARNED
INTERMEDIARY
DOCTRINE FAILS AS A DEFENSE
On appeal, Defendants attempt, unsuccessfully,
to raise the learned intermediary doctrine as a
defense. The purpose of the learned intermediary
doctrine is to ensure that makers of “unavoidably
unsafe products” with a duty to give warnings may
“reasonably rely on intermediaries [often, physicians]
to transmit their warnings and instructions.” Pittman
v. Upjohn Co., 890 S.W. 2d 425, 429 (Term. 1994). The
Court in Harden v. Danek Med., Inc. held the
following:
In order to recover for failure to warn under
the learned intermediary doctrine, a plaintiff
must show: (1) that the defendant failed to
warn the physician of a risk associated with
the use of the product not otherwise known to
the physician; and (2) that the failure to warn
the physician was both a cause in fact and
proximate cause of the plaintiff’s injury. 6
Harden v. Danek Med., Inc., 985 S.W. 2d 449, 451
(Tenn. Ct. App. 1998). “[I]t is generally held that the
learned intermediary doctrine may shield a
manufacturer from liability when the physician was
independently aware of the risks involved” because
“the failure to warn cannot be the proximate cause of
the user’s injury if the user had actual knowledge of
6 Cause in fact will be addressed in a separate part of this
opinion. For the purposes of this discussion, the Court is
proceeding with the understanding that it has already been
proven that Defendants’ failure to warn was a cause in fact of
A.Y.’s gynecomastia.

App-106
the hazards in question” and the “consumer [in this
case, physician] was already aware of the danger.” Id.
Here, Defendants’ attempted application of the
learned intermediary doctrine through both Deniz
Eker, M.D. and Michael Hughes, M.D. fails as
(A) Defendants failed to produce adequate notice of
the full risk associated with Risperdal and its
connection to gynecomastia and (B) neither physician
was independently aware of the full risk of Risperdal
and its relationship to gynecomastia.
A. The learned intermediary doctrine fails
because Defendants did not provide
adequate notice of the risk of
gynecomastia on the Risperdal label
“[P]hysicians can be learned intermediaries only
when they have received adequate warnings.”
Pittman, 890 S.W. 2d at 429. “The adequacy of a drug
manufacturer’s warnings is normally a question of
fact.” Id. In Pittman, a case holding that a drug label
was adequate and the manufacturer not at fault,
adequate warnings were defined as follows:
Warnings concerning prescription drugs
generally are adequate when they contain a
full and complete disclosure of the potential
adverse reactions to the drug. A reasonable
warning not only conveys a fair indication of
the dangers involved, but also warns with the
degree of intensity required by the nature
of the risk.
Id. (emphasis added).
Here, unlike Pittman, the Risperdal label was
inadequate as it failed to state the correct degree of

App-107
intensity of the risk of gynecomastia by
(1) understating the relationship between Risperdal
and gynecomastia and (2) falsely advertising that
Risperdal’s connection to hyperprolactinemia was
comparable to other drugs. 7
1.

Defendants understated the relationship
between Risperdal and gynecomastia

As discussed above, Dr. Eker first prescribed
Risperdal to A.Y. in August of 2003. At that time, the
Risperdal label stated that “gynecomastia is rare.”
Eker Dep. 2/8/16 at 42. Rare, as defined on the
Risperdal label, meant “events … occurring … fewer
[than] one out of 1000.” Id. at 43.
At trial, Plaintiffs introduced evidence that
Defendants were aware that the relationship between
Risperdal and gynecomastia was higher than rare
since 2001. It was revealed that instead of the
likelihood of gynecomastia being 1/1000 (or .001%), a
clinical trial of 1,885 children showed an incidence
rate of 2.3%. Id. at 48. The Risperdal label was not
altered to reflect this higher percentage until 2006. Id.
at 56. But see Hughes Dep. 3/10/16 at 80-81 (“[T]here
are internal [Defendants’] studies that say 12.5
percent [occurrence rate of gynecomastia] and there
are internal studies that say 5—or 12 percent, other
internal studies that say 5.5 percent … that label says
2.3 percent, and before that it doesn’t mention the 2.3
percent”).

7 Hyperprolactinemia refers to elevated levels of prolactin.
Prolactin is the hormone that causes gynecomastia.

App-108
During Dr. Eker’s deposition, Plaintiffs’ counsel
questioned Dr. Eker about how she would address a
“rare” side effect with her patients:
Q. When you have a side effect like
gynecomastia and you’re being told that it
occurs in fewer than one out of 1000 users or
it’s rare, is that the type of thing that you
typically have to counsel patients about, or is
that one of the lesser?
A. It’s a less likelihood.
…
… [I]f the risk is rare, I do not discuss usually
with the patient because there might be a lot
of rare side effects.
Eker Dep. 2/8/16 at 43-44. Dr. Eker’s response
dramatically changed when Plaintiffs’ counsel asked
her how a higher than rare risk of a side effect would
affect her decision to prescribe a drug:
Q. There are lots of different side effects—
A. Huh-huh.
Q. —different quality and different likelihood
of developing them; correct?
A. Yes.
Q. And when you’re doing a risk benefit
analysis, is that [severity] one of the things
you’re trying to balance, how severe the side
effect is with how likely the patient is to get
it?
A. That’s right.
…

App-109
Q. Is that [gynecomastia] the type of thing as
a Doctor that, if you thought was a frequent
side effect you would want to be on the
lookout for?
…
A. Yes, I would.
Id. at 40-42.
Dr. Hughes, who began treating A.Y. in 2005, had
a similar response. During Dr. Hughes’s deposition,
Plaintiffs’ counsel questioned him about how the
higher than “rare” relationship between gynecomastia
and Risperdal would have affected his risk-benefit
analysis and advice to A.Y.’s mother. The following
exchange occurred:
Q. … I mean, wouldn’t you have found 5.5—a
5.5 percent incidence rate significant enough
to impact the type of risk benefit discussions
you were having with the mother?
…
A [Hughes]: Sure. So I’m going back in time—
Q. Right.
A. —giving you my best gues[s]. My best
guess is that I probably would have but it’s
speculation on my part, but I think I would
have but—
Q. Sure.
A. —I can’t—I can’t go back in time and say
for certain, but it’s—it would be important to
know, I mean, yeah.
Hughes Dep. 3/10/16 at 82-83.

App-110
As the above-referenced testimony demonstrates,
the Risperdal label understated the “degree of
intensity” of the relationship between Risperdal and
gynecomastia. It failed to disclose to either Dr. Eker or
to Dr. Hughes the true incidence rate of gynecomastia
and was therefore inadequate. The inadequacy of the
Risperdal label is one factor that causes Defendants’
learned intermediary doctrine defense to fail.
2.

Defendants falsely presented Risperdal’s
connection to hyperprolactinemia as
being comparable to other drugs

In 2003, when Dr. Eker first prescribed Risperdal
to A.Y., the label indicated that the risk of
hyperprolactinemia in patients taking Risperdal was
comparable to other drugs. See Eker Dep. 2/8/16 at 45
(“[A]s with other drugs that antagonize Dopamine D2
receptors with Risperidone elevates prolactin levels”).
In 2006, the label was changed to state that
“Risperidone is associated with higher levels of
prolactin elevation than other antipsychotic agents.”
Id. at 58.
During her deposition, Dr. Eker made clear that
had she known of the greater risk of
hyperprolactinemia associated with Risperdal as
compared to other drugs, she would never have
prescribed it in 2003:
Q. [A]nd you were just telling us a second ago
if you had—if they had included this
information about Risperidone is associated
with higher levels of prolactin elevation than
other psychotics—antipsychotic agents—
excuse me—you wouldn’t have prescribed it
in ’03?

App-111
A. That’s right.
Id. at 59-60.
Dr. Hughes also addressed the increased relative
risk of hyperprolactinemia with Risperdal use:
Q. … And if one thing you’re concerned about
is prolactin levels when you’re prescribing a
medication, would it be important for you as
a doctor to know whether Risperidone or
Risperdal elevates those prolactin levels
higher than its competitors?
A. Certainly.
…
Just to be clear … if there was an elevation of
prolactin and there was a correlation directly
made clinically in relation to increased
gynecomastia would that be important to
know?
Q. Yes, sir.
A. Sure, any medication certainly.
Q. And if you to page—I mean, you want to
know the clinical significance—let me ask you
this: Is the more information you have as a
doctor, better? Does it help you treat your
patients?
A. Of course.
Q. And if a drug company was aware of
information that would be clinically
significant, would you want them to tell you
that so you can help treat your patients
better?
A. Of course.

App-112
Hughes Dep. 3/10/16 at 66-69.
By hiding the true nature of the risk of
hyperprolactinemia with Risperdal behind an
inaccurate depiction of Risperdal as similar to other
drugs,
the
warnings
were
inadequate.
Consequentially, the learned intermediary doctrine
does not apply.
B. The learned intermediary doctrine fails
because
neither
physician
had
knowledge of the risk of gynecomastia
As Tennessee courts have explained, a physician
must be “fully aware of the risks” of a product to have
independent knowledge sufficient to overcome an
inadequate product label. Harden, 985 S.W. 2d at 452.
Here, in addition to the foregoing, the learned
intermediary doctrine defense fails because 1) neither
Dr. Eker nor Dr. Hughes had sufficient experience
with gynecomastia and 2) the jury found that there
was insufficient evidence that either physician relied
upon independent knowledge instead of Defendants’
provided material.
1.

Neither physician had experience
with gynecomastia

The first factor often addressed by the Court is the
experience of physicians with a specific product. See
Carter v. Danek Med., Inc., 1999 WL 33537317 (W.D.
Tenn. June 3, 1999) (finding that the physician could
be held to have independent knowledge of risks
associated with the surgical equipment because he
had extensive experience with the equipment, having
performed over 100 spine fusions with the device); see
also King v. Danek Med., Inc., 37 S.W.3d 429, 431-32,

App-113
453 (Tenn. Ct. App. 2000) (noting that both of the
plaintiffs’ implanting physicians in the case were “well
experienced” with a device used in spinal fusion
surgeries: one physician, who performed spinal
surgery on the first plaintiff, was the chief of
orthopedic surgery and chief of orthotics at the United
States Air Force Academy Hospital; the other
physician, who performed a disc removal surgery on
the second plaintiff, was a board certified orthopedic
surgeon and past president of the Western New York
Orthopedic Society”).
Here, neither Dr. Eker nor Dr. Hughes had
experience or training pertaining to gynecomastia.
During Dr. Eker’s deposition, defense counsel asked
Dr. Eker about her experience with diagnosing
gynecomastia. The following exchange occurred:
Q. Did you ever make a diagnosis of true
gynecomastia—
A. Then or in the past?
Q. —of [A.Y.]?
A. I had concerns. I never saw gynecomastia
before and I thought he had it.
…
Q. Based on your review of the records, did
you ever send [A.Y.] for a prolactin test?
A. I did not.
Q. Have you ever diagnosed anyone with
gynecomastia?
A. Not since then.
Q. So, [A.Y.] would be the only person who
you’ve had a suspicion of gynecomastia?

App-114
A. Yes.
Eker Dep. 2/8/16 at 126-128. Plaintiffs’ counsel also
questioned Dr. Eker about her experience:
Q. And do you get any training as a
psychiatrist on the difference between, for
instance, gynecomastia caused by hormonal
changes—you know, breast growth as
opposed to fatty tissue?
…
In your career have you received training on
that?
A. Not specifically.
Q. Okay.
A. I can’t differentiate that.
Id. at 68-69.
Similar questions were posed to Dr. Hughes. Dr.
Hughes testified that he had “concerns with
gynecomastia before” but decided not to diagnose
gynecomastia. Hughes Dep. 3/10/16 at 122-124. As Dr.
Hughes explained, he took a “baseline [prolactin test]
so [he] could monitor it going forward.” Id. When
asked about his specific experience with diagnosing or
treating gynecomastia, Dr. Hughes stated the
following:
Q. … And is gynecomastia—have you ever
treated patients with gynecomastia?
A. It would have been so long ago.
Q. Sure. It’s not your focus?
A. No.
Id. at 91.

App-115
Given their testimony, it would be implausible to
suggest that Dr. Eker, having diagnosed exactly one
case of gynecomastia, and Dr. Hughes, with no
training or specialization in treating gynecomastia,
had similar experience to the Carter physician who
had performed 100 times with the device at issue. It
would be equally implausible to suggest that the two
King orthopedic surgeons, performing spinal and disc
removal surgeries well within their specialty, were
acting with the same experience as two psychiatrists
observing the physical symptoms of gynecomastia in
A.Y. It is evident that neither Dr. Eker nor Dr. Hughes
had sufficient experience with gynecomastia to have
independent knowledge sufficient for the learned
intermediary doctrine to apply.
2.

Neither
physician
ignored
manufacturer warnings to rely upon
their own independent knowledge

To supplement the determination of independent
knowledge, Courts consider whether the physician
relied upon information provided by the manufacturer
in determining the product’s risk. See Harden, 985
S.W. 2d at 452 (stating that the physician
acknowledged that he was familiar with the FDA
regulatory status of the product but that he did “not
rely upon certain literature distributed or sponsored
by the defendant in making his determinations”). If a
physician did rely upon the literature of the
defendant, he was not utilizing “independent
knowledge.” See King, 37 S.W.3d at 453 (“Both of the
plaintiffs’ implanting physicians … testified that they
relied upon their own knowledge and judgment in
deciding to implant the devices into the plaintiffs. The

App-116
plaintiffs [therefore had] not shown that these
decisions [pertaining to utilizing the product] were
influenced by any representation which the
defendants made or failed to make. Thus, the
plaintiffs’ claims in this [attempted suit of the
manufacturer] fail because they have failed to
establish that, had additional warnings been given,
the plaintiffs would not have sustained their injuries
[as the physicians’ risk analysis was in no way based
upon information provided by the manufacturer]”).
Here, when Dr. Eker was asked whether she
recalled “consulting and relying upon any portion of
the Risperdal label when deciding to prescribe”
Risperdal thirteen years before, she admitted that she
did not remember. Eker Dep. 2/8/16 at 111. Still, she
was “not aware of the significance of gynecomastia at”
the time she prescribed Risperdal to A.Y. Id. at 66. Dr.
Eker was also asked where she found information
pertaining to Risperdal in her patients in 2001 and
2002. The following exchange occurred:
Q. What information, if any, did you review
that led you to first prescribe Risperdal to
your patients in 2001 or 2002?
A. It was a discussion, of course, with my
supervisors and the journals I have read, case
reports, review articles.
Q. And what did you consult in 2001 and
2002, to learn about the side effects
associated with Risperdal?
A. I would check the PDR [physician’s desk
reference].

App-117
Id. at 100. The fact that Dr. Eker checked the
physician’s desk reference, a guide commonly used by
doctors in determining which medication to prescribe
for a patient, intrinsically means that Dr. Eker most
likely did look to the Risperdal label before prescribing
it to patients.
Dr. Hughes testified that he was not “relying
exclusively” on the package insert of Risperdal but on
“multiple sources.” Hughes Dep. 3/10/16 at 99.
Nonetheless, when asked what his understanding of a
package insert (or label) was, Dr. Hughes made clear
that “it talks about things that are important about
the medication” and it is “certainly” something that he
understands that a pharmaceutical company uses to
convey “important” information to prescribing
physicians. Id. at 55-56.
Unlike the physician in Harden, neither Dr. Eker
nor Dr. Hughes explicitly stated that they did not rely
upon the literature provided by manufacturers.
Moreover, unlike the physicians in King, neither
physician here claimed to have had independent
knowledge of gynecomastia and neither claimed to
have relied upon their own knowledge.
Ultimately, the jury was not convinced that the
inability to remember actions taken over a decade ago,
or choosing not to exclusively rely upon labels for
Risperdal’s side effects, was the equivalent to either
physician having independent knowledge of
Risperdal’s side effects or consciously ignoring
Defendants’ Risperdal label. As neither physician was
found to ignore the Defendants’ label or to possess
independent knowledge of the risks associated with

App-118
Risperdal, the learned intermediary doctrine does not
apply.
IV. THIS COURT’S
PROPER

VERDICT

FORM

WAS

On appeal, Defendants claim that this Court’s
verdict form made it impossible to verify that the jury
found that Defendants were both the cause in fact and
the legal cause of A.Y.’s injuries because it only asked
whether Janssen’s negligence was a substantial factor
in bringing about A.Y.’s gynecomastia. Accordingly,
Defendants contend that a new trial was warranted.
For the reasons discussed below, Defendants’ claim
must fail.
It is axiomatic that the trial court’s jury
instructions guide the jury in its deliberations. The
instructions must inform the jury of each applicable
legal principle and must “be presented in a way that
will be readily understandable to the jury.” Alexander
v. Inman, 903 S.W.2d 686, 704 (Tenn. Ct. App. 2014)
(citing Sasser v. Averitt Express, Inc., 839 S.W.2d 422,
430 (Tenn. Ct. App. 1992)). “[W]here the trial court’s
instructions clearly and definitely set forth the
elements upon which liability must be based, the
failure to recite each element in the verdict form will
not render the verdict invalid.” Goodale v.
Langenberg, 243 S.W.3d 575, 584 (Tenn. Ct. App.
2007) (citing State v. Faulkner, 154 S.W.3d 48, 62
(Tenn. 2005)).
Here, this Court’s instructions clearly and
definitely set forth the elements upon which liability
was to be based. Relying on the Tennessee Pattern
Jury Instructions, this Court instructed the jury, in
relevant part, as follows:

App-119
Plaintiffs allege that Janssen was negligent
because there was a defect in Risperdal’s
warning label. A manufacturer who knows or
reasonably should know that a product is
likely to be dangerous for its intended use has
a duty to use reasonable care to warn of the
product’s danger or to reveal its unsafe
condition.
…
A negligence claim requires proof of two types
of causation, cause in fact and legal cause.
Cause in fact and legal cause are distinct
elements of a negligence claim, and both must
be proven by the plaintiff by a preponderance
of the evidence.
The defendant’s negligent conduct is a cause
in fact of the plaintiff’s injury if, as a factual
matter, it directly contributes to the
plaintiff’s injury and, without it, plaintiff’s
injury would not have occurred. It is not
necessary that a defendant’s act be the sole
cause of the plaintiff’s injury, only that it can
be—only that it be a cause.
Once you have determined that a defendant’s
negligence is the cause in fact of a plaintiff’s
injury, you must decide whether the
defendant’s negligence was also a legal cause
of the plaintiff’s injury . . . . To be a legal
cause of an injury, there is no requirement
that the cause be the only cause, the last act,
or the nearest to the injury, so long as it is a
substantial factor in producing the injury or
the damage. The foreseeability requirement

App-120
does not require the person guilty of
negligence to foresee the exact manner in
which the injury takes place or the exact
person who would be injured. It is enough
that the person guilty of negligence could
foresee or, through the use of reasonable care,
should have foreseen the general manner in
which the injury or the damage occurred.
N.T. 6/30/16 a.m. at 167-170. See also T.P.I.-Civil 3.20,
3.21 and 3.22. As these instructions clearly indicate,
after finding that the Defendants breached their duty
to warn, the jury was required to determine whether
Defendants’ negligent conduct was a cause in fact of
A.Y.’s injuries. If the jury made such a finding, it was
then required to determine whether Defendants’
negligence was also a legal cause of A.Y.’s injuries. As
this Court explained, both cause in fact and legal
cause are elements of negligence that Plaintiffs must
prove. See Kilpatrick v. Bryant, 868 S.W.2d 594, 612
(Tenn. 1993) (Proximate cause or legal cause
“concerns a determination of whether legal liability
should be imposed where cause in fact has been
established”).
After all instructions were read to the jury, this
Court presented the jury with the verdict form; the
form included, inter alia, the following question, which
the jury answered in the affirmative: 8

8 The first interrogatory on the verdict form asked the
following: “Was Janssen negligent by failing to provide an
adequate warning to [A.Y.]’s healthcare providers about the risk
of gynecomastia from taking Risperdal?” The jury responded
“Yes” and were directed to “proceed to Question 2.”

App-121
2. Was Janssen’s negligence a substantial
factor
in
bringing
about
[A.Y.]’s
gynecomastia?
Yes____

No____

If you answered “Yes” to Question 2, please
respond to Question 3. If you answered “No” to
Question 2, Plaintiff cannot recover. Do not
answer any further questions and return to
the courtroom.
Contrary to Defendants’ claim on appeal, this
interrogatory accurately reflected the law as described
in the jury instructions and was sufficient to establish
that the jury found Defendants to be the cause in fact
and the legal cause of A.Y.’s injuries. To reiterate, the
jury could not have found that Defendants’ negligence
was a substantial factor in bringing about A.Y.’s
gynecomastia unless it first found that Defendants’
negligence was the cause in fact of A.Y.’s injuries.
Upon consideration of the foregoing, Defendants’
claim should be dismissed. This Court, in instructing
the jury, clearly set forth the elements upon which
liability was to be based. These instructions, combined
with the jury’s affirmative response to the abovereferenced interrogatory, were sufficient to establish
that the jury found that Defendants were both the
cause in fact and the legal cause of A.Y.’s injuries.
V. THE EVIDENCE WAS SUFFICIENT TO
ESTABLISH MEDICAL CAUSATION
On appeal, Defendants contend that this Court
should have granted judgment as a matter of law
because there was inadequate evidence that Risperdal
was the medical cause of A.Y.’s injuries. Defendants’

App-122
claim is meritless. As discussed in detail below, the
testimony of Dr. Solomon, Plaintiffs’ medical
causation expert, was sufficient to support the
conclusion that A.Y. developed gynecomastia while on
Risperdal. Since the law does not require a verdict in
Defendants’ favor, this claim should be dismissed.
A. Dr. Solomon’s testimony was proper
under Pennsylvania and Tennessee law

First, Defendants argue that Dr. Solomon’s
testimony should have been precluded at trial because
he purported to diagnose A.Y.’s gynecomastia on the
basis of a photograph and he did not cite to scientific
literature in support of his general causation opinion.
According to Defendants, Dr. Solomon’s testimony
should have been excluded pursuant to Pennsylvania
Rules of Evidence 702 and 703, Pennsylvania’s Frye
standard,
and
Tennessee
substantive
law.
Defendants’ claim must fail.
According to Rule 702, “[a] witness who is
qualified as an expert by knowledge, skill, experience,
training, or education may testify in the form of an
opinion or otherwise if: (a) the expert’s scientific,
technical, or other specialized knowledge is beyond
that possessed by the average layperson; (b) the
expert’s scientific, technical, or other specialized
knowledge will help the trier of fact to understand the
evidence or to determine a fact in issue; and (c) the
expert’s methodology is generally accepted in the
relevant field.” Pa.R.E. 702. Relatedly, Rule 703
provides that “[a]n expert may base an opinion on facts
or data in the case that the expert has been made
aware of or personally observed. If experts in the
particular field would reasonably rely on those kinds

App-123
of facts or data in forming an opinion on the subject,
they need not be admissible for the opinion to be
admitted.” Pa.R.E. 703.
Here, Dr. Solomon’s testimony was admissible
under Rules 702 and 703. Dr. Solomon is a board
certified general and plastic surgeon with over thirty
years of experience. N.T. 6/22/16 p.m. at 13, 17. Dr.
Solomon is amply familiar with gynecomastia; he
routinely makes diagnostic, treatment, and causation
decisions in his private practice. Id. at. 17. By his own
estimation, Dr. Solomon has treated hundreds of
patients with gynecomastia. Id. Dr. Solomon clearly
possesses knowledge beyond that of the average
layperson and was qualified to give expert testimony
about whether Risperdal caused A.Y.’s gynecomastia
in this case.
In forming his opinion, Dr. Solomon relied on a
variety of factors, including A.Y.’s medical records, his
own examination of A.Y, and his personal experience.
Dr. Solomon’s opinion that A.Y.’s gynecomastia was
caused by his use of Risperdal was well-reasoned,
scientifically supported, and helpful to the trier of fact.
1.

Contrary to Defendants’ claim, Dr.
Solomon did not diagnose A.Y.’s
gynecomastia solely on the basis of a
photograph

Defendants’ claim that Dr. Solomon purported to
diagnose A.Y.’s gynecomastia on the basis of a
photograph is a mischaracterization of Dr. Solomon’s
testimony. At trial, Dr. Solomon was asked whether
he could diagnose gynecomastia from a picture. Dr.
Solomon answered in the affirmative. N.T. 6/22/16
p.m. at 49. Dr. Solomon did not, however, diagnose

App-124
A.Y.’s gynecomastia solely on the basis of a
photograph as Defendants intimate. Rather, in
forming his opinion regarding the cause of A.Y.’s
gynecomastia, Dr. Solomon relied on a number of
factors, which he discussed in his expert reports and
at trial.
Dr. Solomon authored two reports in the instant
action. In his first report, dated December 8, 2015, Dr.
Solomon stated that it was his impression that A.Y.
had bilateral gynecomastia due to his exposure to
Risperdal. Dr. Solomon’s finding was based on A.Y.’s
medical history and a physical examination of A.Y on
November 30, 2015. Dr. Solomon testified regarding
this examination at trial:
DR. SOLOMON: I met with Andrew and his
mother [on November 30, 2015], and I took
the history of his exposure to the Risperdal,
of the development of his breasts, of his other
medical issues, which we talked about and I
put in my report. And I asked about his
exposure to other drugs, both legal and
illegal, other habits, drinking, for example,
which can contribute to gynecomastia, which
he does not do, nor does he have any illicit
drug history that I could elicit from him. So I
did basically a standard medical intake exam,
allergies, medications, any kind of surgery
that he underwent, and then I did an exam
that I would describe as problem-focused but
focused toward the issues related to exposure
to Risperdal.
…

App-125
I
examined
his
breasts.
I
made
measurements of his breasts. I photographed
his breasts.
N.T. 6/22/16 p.m. at 92-94, 99. After evaluating A.Y.,
Dr. Solomon wrote the December 8th report, wherein
he detailed his findings.
Dr. Solomon wrote a second report on February
17, 2016. This report was based on Dr. Solomon’s
review of supplemental data. Dr. Solomon reviewed
medical records, pharmacy records, and deposition
testimony from A.Y., A. Y.’ s mother, Dr. Eker, Dr.
Bonfardin, Dr. Philips and Jessica Livingston, APRN.
The information contained in these documents
buttressed Dr. Solomon’s initial findings and he was
able to establish a causal link between Risperdal and
A.Y.’s gynecomastia.
DR. SOLOMON: So what I decided prior to
my completing this review was that he had
gynecomastia. I hadn’t made a causal link
until I reviewed all the supplementary data.
N.T. 6/22/16 p.m. at 156. After reviewing the abovereferenced information, Dr. Solomon opined, to a
reasonable degree of medical certainty, that exposure
to Risperdal caused A.Y. to suffer from gynecomastia.
See Report of Dr. Solomon dated February 17, 2016.
Dr. Solomon thoroughly explained all of the facts
and data upon which his opinion was based at trial:
Q. You have testified you reviewed the
medical literature about Risperdal; right?
A. Yes.
Q. You reviewed Andrew’s medical history;
right?

App-126
A. Yes.
Q. You’ve examined Andrew?
A. Yes.
Q. You’ve talked with his mother as well?
A. Yes.
Q. Looked at the photograph evidence?
A. Yes.
Q. You have brought to bear your training,
your knowledge, and experience in evaluating
Andrew; correct?
A. Yes.
Q. Do you have opinions about whether or not
he has gynecomastia?
A. I do.
Q. What is your opinion about whether he has
gynecomastia?
A. He absolutely has gynecomastia.
Q. Okay. Do you have an opinion as to what
caused his gynecomastia?
A. I do.
Q. And in reaching that opinion, did you rely
upon all those things you’ve described, the
medical records, your knowledge of the
scientific research, your training, your
experience, the whole gamut of expertise that
you bring to bear on this?
A. That’s correct.

App-127
Q. I assume you didn’t just consider the good
parts and the bad parts. You considered
everything; is that right?
A. Correct, the totality.
…
Q. So based on the records you’ve reviewed,
your training, your experience, your
examination, your knowledge of the scientific
literature, can you tell us to a reasonable
degree of scientific and medical certainty
what caused Andrew’s gynecomastia?
A. Andrew’s exposure to Risperdal at a very
young age is the direct and proximate cause
of his gynecomastia.
Q. Doctor, all your opinions have been to a
reasonable degree of medical and scientific
certainty?
A. Absolutely.
N.T. 6/22/16 p.m. at 112-113, 117-118. As the
transcript demonstrates, Dr. Solomon reviewed and
relied on a variety of factors and information in
forming his opinion that Risperdal caused A.Y.’s
gynecomastia, not just a photograph.
2.

The Frye test is not applicable

Defendants’ claim that Dr. Solomon’s testimony
should
have
been
excluded
pursuant
to
Pennsylvania’s Frye standard must fail. The Frye test
does not apply to the instant action.
As the Superior Court has stated, the test set
forth in Frye only applies when a party seeks to
introduce novel scientific evidence; it does not apply

App-128
every time science enters the courtroom. Trach v.
Fellin, 817 A.2d 1102, 1109 (Pa. Super. Ct. 2003).
When novel scientific evidence is presented, the
proponent of that evidence must demonstrate that the
expert’s methodology is generally accepted by
scientists in the relevant field as a method for
reaching the conclusion to which the expert will testify
at trial. Grady v. Frito-Lay, Inc., 839 A.2d 1038, 1045
(Pa. 2003). Under Frye, trial judges are required to
“pay deference to the conclusions of those who are in
the best position to evaluate the merits of scientific
theory and technique when ruling on the admissibility
of scientific proof[.]” Id. As the Supreme Court
explained, the purpose of the Frye test is to insure that
“only reliable expert scientific evidence is admitted at
trial.” Id.
Here, Plaintiffs did not introduce novel scientific
evidence; rather, the methodology used by Dr.
Solomon in rendering his opinion was generally
accepted in the medical community. As the record
demonstrates, Dr. Solomon reviewed and analyzed
A.Y.’s medical records and relied on his personal
expertise in reaching his conclusion that Risperdal
caused A.Y.’s gynecomastia. This type of methodology
is generally accepted among the medical community
for diagnosis and treatment. See Cummins v. Rosa,
846 A.2d 148, 151 (Pa. Super. Ct. 2004) (finding the
Frye test inapplicable where the methodology
employed by plaintiffs’ medical experts in reaching
their conclusions regarding the source of plaintiff’s
injuries consisted of an analysis of the plaintiff-wife’s
medical records and reliance upon their respective
personal expertise).

App-129
Since there was nothing scientifically novel about
the methodology used by Dr. Solomon in this case, the
Frye test does not apply.
3.

The weight to be given to Dr.
Solomon’s testimony was a question
for the jury

Defendants’ claim that Dr. Solomon’s testimony
should have been excluded because he did not cite to
scientific literature in support of his general causation
opinion should be dismissed. This claim goes to the
weight of Dr. Solomon’s testimony, not the
admissibility.
As Pennsylvania appellate courts have explained,
“[i]f a witness has any reasonable pretension to
specialized knowledge on the subject under
investigation he may testify, and the weight to be
given to his [testimony] is for the jury.” Lira v. Albert
Einstein Medical Center, 559 A.2d. 550, 552 quoting
Kuisis v. Baldwin-Lima-Hamilton Corp., 319 A.2d
914, 924 (Pa. 1974). See e.g., Joyce v. Boulevard
Physical Therapy Rehab. Ctr. P.C., 694 A.2d 648, 656
(Pa. Super. Ct. 1997) (finding that an orthopedic
surgeon, who testified to the applicable standard of
care, did not need to cite to treatises and medical
periodicals to support his opinion; his thirty years in
the field of orthopedic medicine was sufficient to
support his opinion regarding the relevant standard of
care); Smith v. Grab, 705 A.2d 894, 900-01 (Pa. Super.
Ct. 1997) (finding that an oncologist’s opinion
regarding the effect of a three-week delay in
diagnosing breast cancer was based upon his
knowledge, education, reading, and experience of
twenty-five years as a practicing oncologist, and the

App-130
“failure to cite an article or text on point goes to the
weight of his testimony, not its admissibility”).
The weight to be afforded to Dr. Solomon’s
testimony was for the jury to decide. Thus, this claim
should be dismissed.
B. Dr. Solomon’s testimony that Risperdal
was the cause in fact of A.Y.’s
gynecomastia was properly admitted
Second, Defendants contend that Dr. Solomon’s
testimony that Risperdal was the cause in fact of
A.Y.’s alleged gynecomastia should have been
excluded. According to Defendants, Dr. Solomon failed
to identify the basis on which he concluded that A.Y.
had gynecomastia in 2003 that did not resolve through
the time he examined A.Y. in 2015. He also failed to
adequately exclude other potential causes of A.Y.’s
alleged gynecomastia or consider the specific dose of
Risperdal taken by A.Y. These failings, according to
Defendants, rendered Dr. Solomon’s specific causation
testimony inadmissible under Pennsylvania law and
it should have been excluded by the Court.
Defendants’ claims are baseless.
1.

Dr. Solomon identified the basis for
his conclusion

Contrary to Defendants’ claim, Dr. Solomon
identified the basis upon which he concluded that A.Y.
had gynecomastia in 2003 that did not resolve through
the time he examined A.Y. in 2015. This is evident
from the record.
The evidence presented at trial established that
A.Y. was first prescribed Risperdal on August 22, 2003
by Dr. Eker. N.T. 6/22/16 p.m. at 136. Dr. Eker

App-131
prescribed 0.25 milligrams of Risperdal to be taken
twice a day, once in the morning and once at night.
N.T. 6/22/16 p.m. at 43. A.Y. began showing signs of
gynecomastia just a few months later. In a photograph
taken of A.Y. during Christmastime 2003, A.Y.’s
breasts appeared to be disproportionate to the rest of
his body. At that time, A.Y. was not taking any other
medications. Id. at 115. The Christmastime
photograph was the first documented evidence of
gynecomastia. This evidence was substantiated by a
claim made by A.Y.’s mother a few weeks later. On
January 12, 2004, during an appointment with Dr.
Eker, A.Y.’s mother expressed concern that A.Y.’s
“breasts have been enlarging.” Id. at 55. Dr. Eker
decided to “gradually taper the Risperdal to be
discontinued,” noting that the “patient is gaining
weight and has possible ? gynecomastia.” See Report
of Dr. Eker dated January 12, 2004. Less than a month
later, on February 9, 2004, A.Y. had a medication
check with Dr. Eker. At that time, Dr. Eker noted in
her records that A.Y. “has gynecomastia.” N.T. 6/22/16
p.m. at 62. See also Report of Dr. Eker dated February
9, 2004.
At trial, Dr. Solomon was asked whether
gynecomastia could be stopped at this point if A.Y.
stopped taking Risperdal. The following exchange
occurred:
Q. If they stop the Risperdal, do they stop the
gynecomastia from continuing to form?
A. It does not stop it.
Q. Is there some pill, some treatment, some
shock, anything that we have medically
available to us in 2004, or even today, that Dr.

App-132
Eker could have done on February 9, 2004 to
stop the gynecomastia?
A. No. Once you’ve started that process, once
the cells have been stimulated to do what
they’re going to do, they’re now beyond the
scope of normal control, and there are no
medications, as I stated previously, that
would change that course.
Q. The match has been lit is what I think you
said.
A. Yes. The match is lit. The fire is going.
N.T. 6/22/16 p.m. at 62-63. As Dr. Solomon made clear,
once the breast tissue has been stimulated and an
abnormal pattern of growth has been established, the
breast tissue will continue to grow beyond normal
boundaries. Id. at 50, 53. In other words, there was no
way to stop the gynecomastia from continuing to form
at this point.
On May 26, 2005, a prolactin test was performed.
At the time, A.Y. was taking 0.25 milligrams of
Risperdal once a day, and had been since March 9,
2005. 9 Id. at 69, 78-79. The lab results came back the
following day, May 27, 2005. The results revealed that
A.Y.’s prolactin level was “highly elevated” at 23.7
milligrams per milliliter. N.T. 6/22/16 p.m. at 78. Dr.
Solomon explained the significance of the results at
trial:
A. Prolactin is a hormone secreted by the
pituitary gland that, in the presence of
9 Prior to March 9, 2005, Risperdal had been discontinued for a
period of time.

App-133
Risperdal, goes up above normal levels and is
associated with the presence or production of
gynecomastia.
Q. Prolactin is in all of our bodies?
A. Yes.
Q. What happens in boys if their prolactin
levels get too high?
A. They get breasts, among other things.
Q. That is called hyperprolactinemia I think
we’ve heard?
A. Yes, that’s correct.
Q.… So they do this prolactin test; is that
right?
A. That’s correct.
…
Q. What do the prolactin results come back
at?
…
A. So it’s 23.7 milligrams per milliliter. That’s
the quantity of the hormone per milliliter, or
cubic cc, that’s what a milliliter is, of blood
circulating in his body. We have a six-and-ahalf-year-old boy at this point. When you look
at those reference ranges, you know, when
they call that normal there, it’s normal for a
non-pregnant woman or a pregnant woman.
So the lab doesn’t distinguish the age or the
sex of the person they’re getting the specimen
from. Adult males have a normal range of 2 to
18 milligrams per milliliter. That’s an adult
male.

App-134
…
It’s highly elevated for an adult male. For a
young boy, for whom the reference range is
probably 10 to 12 at most, it’s more than
double. And, in fact, I’ve seen data from the
Janssen folks where the reference range is 7,
so that would be triple what the company
describes as normal.
…
Q. Does that high prolactin level mean the
gynecomastia started in 2005?
A. It does not, no. We already know it started
in—around Christmastime of 2003, and we
have evidence of it then. So it started then.
Q. So if I tried to argue that it started in ’05,
that would be wrong or misleading; fair?
A. It would certainly be incorrect based on the
evidence that we’ve reviewed already in the
court.
Q. What significance then can we draw from
the elevated prolactin test in 2005?
A. The evidence that we can draw is that,
when this young man is exposed to the
Risperdal, his prolactin level goes up at any
age.
Q. He’s sensitive to the medicine?
A. Correct.
Q. Because not—fair point not everybody that
takes Risperdal will end up with
gynecomastia; right?
A. Correct.

App-135
…
Q. We can put that 5/27/05 record back on.
And I think where we left off, and I don’t want
to put words into your mouth, but by this
point, even though we’ve got this elevated
prolactin, it’s your testimony that the damage
is already done?
A. Yes.
N.T. 6/22/16 p.m. at 72-73, 75-76, 78, 83. As Dr.
Solomon explained, the stimulus for the growth of
A.Y.’s breast tissue occurred in 2003, when A.Y. began
taking Risperdal. A.Y.’s gynecomastia was observable
shortly thereafter. A photograph taken around
Christmastime that year showed that Defendants’
breasts were disproportionate to the rest of his body.
The elevated prolactin test in May 2005 was
additional evidence of A.Y.’s gynecomastia. Dr.
Solomon’s explanation was consistent with Dr.
Solomon’s prior testimony that once gynecomastia has
formed, it will not go away on its own.
Moreover, Dr. Solomon’s explanation was
consistent with his own findings from his physical
examination of A.Y. in December 2015. To reiterate,
when Dr. Solomon physically examined A.Y. in
December 2015, he found that A.Y.’s gynecomastia did
not resolve. Dr. Solomon stated the following
regarding his physical examination of A.Y.:
Q. You actually put your hands on him; is
that right?
A. Absolutely.

App-136
Q. Were you able to feel the glandular tissue
you described at the beginning of your
examination?
A. Yes.
Q. You’re sure this isn’t just fat?
A. It’s breast tissue. It’s gynecomastia beyond
any doubt.
N.T. 6/22/16 p.m. at 98. Dr. Solomon explained his
finding to the jury:
A. The thing that I think the jury needs to
remember is, even if he was a little toward the
higher side in that Christmas photograph, his
breasts were beyond that. They were out of
proportion to that. And it is my
determination, based on the records, the
photographs,
and my own physical
examination, that that pattern has continued
into his present-day status.
Id. at 58.
As the transcript demonstrates, Dr. Solomon
explained the basis upon which he concluded that A.Y.
had gynecomastia in 2003 that did not resolve through
the time he examined A.Y. in 2015. Based on the
foregoing, Defendants’ claim should be dismissed.
2.

Dr. Solomon excluded other potential
causes of gynecomastia

Contrary to Defendants’ claim, Dr. Solomon
adequately excluded other potential causes of A.Y.’s
gynecomastia. Dr. Solomon ruled out gynecomastia
associated with puberty, gynecomastia from
Klinefelter syndrome, gynecomastia caused by other

App-137
medications, gynecomastia from kidney and/or liver
disease, gynecomastia caused by a thyroid condition,
and family history of gynecomastia. Dr. Solomon
specifically testified as follows:
Q. … did you consider whether
gynecomastia was caused by puberty?

the

A. I did.
Q. How do we know the gynecomastia was not
caused by puberty?
A. Because at the age of four, he wasn’t in
puberty when he got breasts.
Q. Four-year-olds aren’t in puberty; right?
A. By definition.
Q. So we can eliminate that as a cause; fair?
A. Correct.
Q. You mentioned something
Klinefelter syndrome; is that right?

called

A. Yes.
Q. Can you rule out Klinefelter syndrome as
a cause of his gynecomastia?
A. I did.
Q. How?
A. Based on the fact that he is sexually
mature. Patients with Klinefelters have a
different hair pattern in their gonads. They
have breast tissue but they tend to be thin.
And, again, he has sexual maturity. He’s
achieved sexual function. And I examined his
gonads, as I said, and, well, he had an
undescended testicle. That’s a different

App-138
discussion. But he certainly has a normal
penis and testicle, and except for the
undescended one, he’s normal. Klinefelters
often have small gonads, small testes, for
example, and pubic hair does not look like
adult male pubic hair.
Q. He also has facial hair?
A. He has facial hair. He has acne, consistent
with his issue of puberty on his chest.
Q. Can we rule out Klinefelters as a potential
cause of his gynecomastia?
A. Correct.
Q. What about family history? Does he have
anybody in the family that’s got—you know,
his dad, his mom, did you look into that?
A. Again, that’s part of the questions I
routinely ask, and the answer is there’s no
family history.
Q. Not showing in the records a history of
gynecomastia in the family?
A. Correct.
Q. Can we rule that out?
A. Yes.
Q. We talked about this a little bit already,
but he’s been on some other medications;
right?
A. That’s correct.
Q. How do we know—well, first of all, how do
we know it wasn’t the other medications?

App-139
A. Because the only medication he was on
when he first got the condition was Risperdal.
Q. And, I mean, I can—I’m circling here the
December 25, ’03 picture. At that time he was
only on the Risperdal; is that right?
A. That’s correct.
Q. That was the triggering event?
A. That’s correct.
Q. So all these other medicines—Risperdal,
Depakote, lithium, Abilify—can you rule
those out as the cause?
A. After the trigger event, that’s correct.
Q. What about issues with his thyroid?
A. Again, he’s got a number of measurements
of thyroid function throughout the chart, the
medical records that I read, I believe even up
to the exam of February 2016. They’re all
normal.
Q. So we can eliminate that as well?
A. Yes.
Q. I hear people with chronic liver disease can
get gynecomastia.
A. Correct.
Q. Does Andrew have chronic liver disease?
A. He has no history of hepatitis. He does not
drink. His liver function studies that I saw in
the chart that were drawn periodically
throughout his life have all been normal.
Q. Can we rule chronic liver disease out?

App-140
A. Correct.
Q. I hear people with chronic kidney disease
can also end up with gynecomastia.
A. Rarely, but yes.
Q. Does Andrew have chronic kidney disease?
A. He has no evidence of kidney disease either
in history or biochemical assays that are,
again, present in the chart.
Q. We rule that out; is that right?
A. Correct.
Q. That leaves us with Risperdal?
A. That’s correct.
Q. Can we rule out Risperdal as the cause of
his gynecomastia?
A. No. It’s the culprit.
Q. So based on the records you’ve reviewed,
your training, your experience, your
examination, your knowledge of the scientific
literature, can you tell us to a reasonable
degree of scientific and medical certainty
what caused Andrew’s gynecomastia?
A. Andrew’s exposure to Risperdal at a very
young age is the direct and proximate cause
of his gynecomastia.
Q. Doctor, all your opinions have been to a
reasonable degree of medical and scientific
certainty?
A. Absolutely.

App-141
N.T. 6/22/16 p.m. at 113-117. As the transcript
demonstrates, Dr. Solomon adequately ruled out other
potential causes of AY’s gynecomastia.
3.

There is no support for Defendants’
claim that Dr. Solomon failed to
consider the dose of Risperdal

Defendants’ claim that Dr. Solomon failed to
consider the dose of Risperdal taken by A.Y. is
baseless. As discussed above, Dr. Solomon testified
that, in forming his opinion, he relied, in part, on
medical records from several physicians. These
medical records contained information regarding the
dates in which Risperdal was prescribed to A.Y., as
well as the dose of Risperdal that was prescribed. Not
only did Dr. Solomon review this information, he
discussed it at trial. See e.g., N.T. 6/22/16 p.m. at 4344, 56, 61, 69, 173-175. Dr. Solomon’s testimony
refutes Defendants’ claim that Dr. Solomon failed to
consider the specific dose of Risperdal taken by A.Y.
Since there is no support for Defendants’ claim, it
should be dismissed.
C. Dr. Solomon’s testimony was proper
under Pennsylvania Rule 4003.5
Finally, Defendants contend that Dr. Solomon’s
expert report failed to disclose his opinion that A.Y.
had gynecomastia at “Christmastime 2003.” As this
opinion was not disclosed in Dr. Solomon’s report, it
was error for the Court to permit the testimony,
alleging an opinion disclosed for the first time at trial.
Defendants’ claim should be dismissed. This Court did
not err in admitting Dr. Solomon’s testimony.

App-142
Pennsylvania Rule of Evidence 4003.5, which
governs discovery of expert testimony, states, in
relevant part, as follows:
(c) To the extent that the facts known or
opinions held by an expert have been
developed in discovery proceedings under
subdivision (a)(1) or (2) of this rule, the direct
testimony of the expert at the trial may not
be inconsistent with or go beyond the fair
scope of his or her testimony in the discovery
proceedings as set forth in the deposition,
answer to an interrogatory, separate report,
or supplement thereto. However, the expert
shall not be prevented from testifying as to
facts or opinions on matters on which the
expert has not been interrogated in the
discovery proceedings.
Pa.R.E. 4003.5(c). Rule 4003.5 “favors the liberal
discovery of expert witnesses and disfavors unfair and
prejudicial surprise.” Woodard v. Chatterjee, 827 A.2d
433, 441 (Pa. Super. Ct. 2003) (quoting Jones v.
Constantino, 631 A.2d 1289, 1294 (Pa. Super. Ct.
1993)). In determining whether an expert’s trial
testimony is within the “fair scope” of his report, “[t]he
question to be answered is whether, under the
circumstances of the case, the discrepancy between
the expert’s pre-trial report and his trial testimony is
of a nature which would prevent the adversary from
preparing a meaningful response, or which would
mislead the adversary as to the nature of the
appropriate response.” Bainhauer v. Lehigh Valley
Hospital, 834 A.2d 1146, 1150-51 (Pa. Super. Ct.

App-143
2003). Here, Dr. Solomon’s testimony did not exceed
the fair scope of his expert reports.
1.

Dr. Solomon’s testimony was within the
fair scope of his reports

Defendants received a copy of Dr. Solomon’s
December 8, 2015 report, as well as his February 17,
2016 report prior to trial. In his February report, Dr.
Solomon stated, in relevant part, that the cause of
A.Y.’s gynecomastia was “exposure to Risperdal
starting in 2003 and ongoing at intervals until 2013.”
See Report of Dr. Solomon dated February 17, 2016.
Dr. Solomon explained this portion of his report on
cross-examination at trial:
A. My second report stated that he has
gynecomastia due to the exposure to
Risperdal. His exposure to Risperdal began in
2003.
Therefore,
that’s
when
his
gynecomastia began.
N.T. 6/22/16 p.m. at 124-125. Dr. Solomon also
provided support for the conclusions set forth in his
report at trial:
A. … the stimulus for the growth of his breast
tissue occurred in 2003 and was documented
first, we can see it in that photograph, the
Christmas photograph I’ll call it, and in the
subsequent visit with Dr. Eker, when
discussions about gynecomastia were first
entertained, when his mom said he was
growing breasts.
N.T. 6/22/16 p.m. at 88. Dr. Solomon’s testimony was
proper.

App-144
Although not specifically stated in his expert
reports, Dr. Solomon’s testimony that A.Y.’s
gynecomastia began shortly after starting Risperdal
in 2003 and was observable in a photograph taken
around Christmastime that year did not improperly
exceed the fair scope of the reports. As our appellate
courts have explained, the fair scope rule is not “a trap
for the unwary, requiring that every word a witness
utters on the stand be traceable to his or her pre-trial
report.” Andaloro v. Armstrong World Industries, Inc.,
799 A.2d 71, 84 (Pa. Super. Ct. 2002). Rather, “‘fair
scope’ contemplates a reasonable explanation and
even an enlargement of the expert’s written words.”
Hickman v. Fruehauf Corp., 563 A.2d 155 (Pa. Super.
Ct. 1989). Dr. Solomon’s explanation for his conclusion
was reasonable and consistent with his theory of
causation. Since Dr. Solomon’s testimony was within
the fair scope of his reports, Defendants’ claim should
be dismissed.
2.

No harm resulted from the admission of
Dr. Solomon’s testimony

Even if Dr. Solomon’s testimony was outside of
the fair scope of his reports, Defendants were neither
surprised nor prejudiced by the admission of his
testimony. Defendants had an opportunity to rebut
Dr. Solomon’s testimony through their own causation
expert, Dr. Moltich, who specifically addressed, and
called into question, the opinions of Dr. Solomon at
trial. Since any discrepancy between Dr. Solomon’s
reports and his trial testimony was not of a nature
which prevented Defendants from making a
meaningful response, this Court did not err in
admitting it.

App-145
VI. THIS
COURT
DID
NOT
ERR
IN
EXCLUDING EVIDENCE OF SPECIFIC
INSTANCES OF AGGRESSIVE CONDUCT
On appeal, Defendants claim that this Court
should have ordered a new trial because it improperly
excluded evidence with regard to A.Y.’s complete
mental health picture and the benefits of Risperdal.
Defendants’ claim is without merit and a new trial is
not warranted. It is well-established that “[t]he grant
or refusal of a new trial will not be reversed on appeal,
absent an abuse of discretion or error of law which
controlled the outcome of the case.” Weed v. Kerr, 205
A.2d 858, 859 (Pa. 1965). Here, this Court did not
commit an abuse of discretion or error of law in
limiting the scope of evidence related to A.Y.’s mental
health. Thus, Defendants’ claim should be dismissed.
The Pennsylvania Rules of Evidence “vest the
trial court with the authority to determine the
admissibility of evidence as well as to control the scope
of examination.” Rettger v. UPMC Shadyside, 991
A.2d 915, 925 (Pa. Super. Ct. 2010). To be admissible,
evidence must be relevant; “evidence that is not
relevant is not admissible.” Pa.R.E. 402 cmt.
“Evidence is relevant if it logically tends to establish a
material fact in the case, tends to make a fact at issue
more or less probable, or supports a reasonable
inference or presumption regarding the existence of a
material fact.” Commonwealth v. Spiewak, 617 A.2d
696, 699 (Pa. 1992). According to Rule 403, the trial
court may exclude relevant evidence if its probative
value is outweighed by a danger of unfair prejudice. 10
10 “Pa.R.E. 403 differs from F.R.E. 403. The Federal Rule
provides that relevant evidence may be excluded if its probative

App-146
Pa.R.E. 403. As our appellate courts have explained,
‘“[u]nfair prejudice’ supporting exclusion of relevant
evidence means a tendency to suggest decision on an
improper basis or divert the jury’s attention away
from its duty of weighing the evidence impartially.”
Commonwealth v. Wright, 961 A.2d 119, 151 (Pa.
2008). It is the function of the trial court to “balance
the alleged prejudicial effect of the evidence against
its probative value and it is not for an appellate court
to usurp that function.” Commonwealth v. Parker, 882
A.2d 488, 492 (Pa. Super. Ct. 2005).
Here, at trial, Defendants sought to introduce
evidence of specific instances where A.Y. exhibited
aggressive behavior as well as certain encounters A.Y.
had with the justice system. This evidence, according
to Defendants, was relevant because it related to the
risk/benefit analysis used by his physicians in
deciding to prescribe Risperdal to A.Y. Defendants
specifically argued the following:
… [T]o the extent that he’s had encounters
with the justice system that have been
discussed and dealt with by his physicians in
choosing to prescribe him Risperdal and other
drugs, that’s all important evidence to
understanding what was in the mind of the
prescribers at the time that they choose to put
him on Risperdal or other medications.

value is ‘substantially outweighed.’ Pa.R.E. 403 eliminates the
word ‘substantially’ to conform the text of the rule more closely
to Pennsylvania law. See Commonwealth v. Boyle, 498 Pa. 486,
447 A.2d 250 (1982).” Pa.R.E. 403 cmt.

App-147
N.T. 6/20/16 a.m. at 10. This Court disagreed. This
was not a failure to diagnose case. Plaintiff was
diagnosed correctly and was placed on the correct
medication; therefore, specific incidents of rage or
violence was not necessary for this failure to warn
claim. Not only was the proffered evidence not
relevant to Plaintiffs’ failure-to-warn claim, it was
prejudicial to Plaintiffs. As such, this Court precluded
Defendants from introducing said evidence. This
Court specifically stated the following in support of its
decision:
… [I]n terms of getting into all these specific
incidents, had to call the police 2 o’clock in the
morning, he was doing this, doing all that, no,
I’m not going to allow that, because I think
that that is very prejudicial. It’s not
probative. The only thing the jury has to
know is that this person had mental health
issues. They were severe and had some
violent outbursts and he was prescribed this
medication. Anything specific, you know,
about what he did when he was being violent,
what he did as a result of being on this
medication or not being on, that’s not
relevant, it really isn’t, to the failure-to-warn
issue . . . . I will allow you to bring out the fact
that, of course, he had, you know, he was
violent and he had some issues, you know.
That’s why he had to take the medication
because of his mental health, extensive
mental health issues.
Id. at 14. As the transcript demonstrates, this Court
permitted Defendants to discuss the fact that A.Y. had

App-148
extensive mental health issues, was violent at times,
and had outbursts. Id. at 15. Although this Court
precluded Defendants from introducing evidence of
specific instances where A.Y. exhibited aggressive
conduct, Defendants were not deprived of the ability
to mount a fair defense as they contend. Defendants
were able to adequately explain why A.Y. needed
Risperdal and the factors that his physicians
considered in making the decision to prescribe the
medication.
This Court’s decision was not an abuse of
discretion or contrary to law. This Court properly
weighed the relevant and probative value of the
proffered evidence against the prejudicial impact. In
doing so, this Court found that evidence of specific
instances of A.Y.’s aggressive conduct was not
relevant to the underlying issue of whether
Defendants failed to adequately warn of the risks
associated with Risperdal. Moreover, the prejudicial
effect of the proffered evidence outweighed its
probative value. Based on the foregoing, Defendants’
claim should be dismissed.
VII. THIS COURT DID NOT ERR IN LIMITING
THE TESTIMONY OF NADINE SCHWARTZ,
M.D.
On appeal, Defendants claim that this Court
erred in limiting the scope of testimony of Defendants’
expert, Nadine Schwartz, M.D. According to
Defendants, Dr. Schwartz “was highly qualified to
opine on Risperdal generally, the patients for whom
Risperdal is appropriate, the analysis a prescriber
engages in when determining whether to prescribe
Risperdal, including consideration of the risks and

App-149
benefits, the psychological impact on A.Y. of his
gynecomastia diagnosis, and other medications that
were available for a patient such as A.Y.” See
Defendants’ 1925(b) Statement. Despite being
qualified to testify as to each topic, Defendants’
contend that “[t]he Court, without basis, limited Dr.
Schwartz’s testimony to discussing the general
benefits of Risperdal[.]” Id. For the reasons discussed
below, Defendants’ claim must fail.
It is well-settled that “[t]he admissibility of
evidence is a matter addressed solely to the discretion
of the trial court.” Klein v. Aronchick, 85 A.3d 487, 491
(Pa. Super. Ct. 2014) (quoting Commonwealth v.
Marshall, 743 A.2d 489, 492 (Pa. Super. Ct. 1999)).
Thus, the standard of review is very narrow. The
reviewing court “may only reverse upon a showing
that the trial court clearly abused its discretion or
committed an error of law.” Turney Media Fuel, Inc. v.
Toll Bros., Inc., 725 A.2d 836, 839 (Pa. Super. Ct.
1999) (citations omitted). “To constitute reversible
error, an evidentiary ruling must not only be
erroneous, but also harmful or prejudicial to the
complaining party.” Id. Here, this Court did not abuse
its discretion in limiting the testimony of Dr. Schwartz
at trial.
Dr. Schwartz is a pediatrician and a general and
child psychiatrist in Philadelphia. N.T. 6/24/16 p.m. at
6-7. Dr. Schwartz is board certified in pediatrics,
general pediatrics, general psychiatry, and child and
adolescent psychiatry. Id. at 7. In this case, Dr.
Schwartz was offered by Defendants as an expert in
pediatrics, general psychiatry, child and adolescent
psychiatry, the prescription of psychiatric medications

App-150
and the risk/benefit analyses performed in connection
with those prescriptions, and the pharmacology of
pediatric psychiatric medications. Id. at 22. This
Court permitted Dr. Schwartz to testify as an expert
witness; however, it limited the scope of examination.
See Rettger v. UPMC Shadyside, 991 A.2d 915, 925
(Pa. Super. Ct. 2010) (the Pennsylvania Rules of
Evidence “vest the trial court with the authority to
determine the admissibility of evidence as well as to
control the scope of examination”). This Court did not,
however, limit the scope of Dr. Schwartz’s testimony
as described by Defendants.
A. Dr. Schwartz was not limited to only
discussing the general benefits of
Risperdal
Contrary to Defendants’ claim, Dr. Schwartz was
not precluded from testifying about Risperdal
generally, the patients for whom Risperdal is
appropriate, and the analysis a prescriber engages in
when determining whether to prescribe Risperdal,
including consideration of the risks and benefits. As
the transcript demonstrates, Dr. Schwartz testified
regarding these matters and more at trial. The
following testimony was elicited:
Q. In your practice as a child and adolescent
psychiatrist, do you perform risk/benefit
analyses in deciding whether or not to
prescribe a particular medication?
A. With every patient that I see and with
every patient that I supervise on, yes.
Q. … [W]ould you just generally describe
what a risk/benefit analysis is in connection
with making a decision to prescribe a

App-151
medication for a patient in child and
adolescent psychiatry.
A. Sure. So a risk/benefit analysis is a fancy
way of saying that you consider the pros and
cons of what the best treatment or what the
right treatment or what the various
treatment options should or shouldn’t be for
any given patient or patient situation. You
look at what you’re trying to do for someone
and you look at what the various options are
that might exist and you figure out if the
treatment is hopefully going to give you the
benefit that you want without making things
worse than what you started off with.
…
Q. Dr. Schwartz, you’ve told us earlier that
you’ve reviewed medical and educational
records and testimony relating to [A.Y.].
Based on your review of all the information
relating to [A.Y.], did you determine whether
he was diagnosed with any psychiatric
conditions?
A. I did.
Q. And what conditions was he diagnosed
with during the course of his treatment?
A. He was diagnosed with several different
conditions. He was diagnosed with attention
deficit hyperactivity disorder, oppositional
defiant disorder, and he was diagnosed with
mood disorder that at various points was
called different things, which is okay, because
mood disorder is sort of an umbrella or

App-152
overarching term that can include a number
of different things. And so at different points
he was labeled as either just mood disorder or
depressed or bipolar. So all those things
collectively kind of indicated the same thing.
Q. Did you reach any opinion with respect to
how serious these conditions were?
A. I did.
Q. And without describing specific acts or
events that you reviewed in the course of his
treatment, what was your opinion with
respect to the severity of his condition?
A. [A.Y.] had, over the course of the records
that I reviewed, very serious symptoms.
Q. Is the severity of the condition relevant to
the risk/benefit analysis that a psychiatrist
does in deciding whether to prescribe a
medication?
A. It’s pretty much the most essential piece,
yes.
Q. And how is that so?
A. Well, first of all, somebody doesn’t usually
show up to the doctor unless something’s
bothersome in the first place. And then in a
case of psychiatric or psychological problems,
if something is not that severe, especially
with a child, we’re probably not going to
consider medication in the first place. We’ll
probably consider some other kind of route
like therapy, behavior therapy, individual
talk therapy, family therapy. There are a
variety of different kinds of therapies out

App-153
there. So the only time we’re going to think
about medication for a child is if something
reaches a certain level of severity. And so
that’s why severity is critical, is an essential
piece of a risk/benefit analysis.
Q. Could you briefly explain to the jury what
a mood disorder is?
A. Sure. So the primary piece of a mood
disorder is that your—the person’s mood is—
I guess the best way to explain this is the
analogy that I always use when I’m talking to
patients and families, and that is the globe of
the Earth. If you think about the globe of the
Earth, the widest part is at the equator. And
most of us live not on the equator all the time
because people’s moods aren’t flat. They’re
not supposed to be flat. But we live within
range of the equator. So maybe we go up as
high as North Carolina or south as Brazil, but
we don’t go all the way to the two different
Poles. That would be a big, far stretch from
the equator. And a mood disorder is when
your mood varies very widely, from around
the equator. So to be depressed would be to be
way down south, towards the South Pole. And
to stay there not just for a little bit, but to stay
there for a significant enough period of time
that it was interfering with your functioning.
And the opposite, bipolar disorder, meaning
something where you have mania and also
some amount of depression, would be way up
north, up at the North Pole. And, again, not
just for a split second or a minute or a tiny

App-154
little bit of time, but for enough time that it
created dysfunction in your life. So that’s the
basic premise of a mood disorder. And then
there are symptoms that go along with mood
disorders that people can manifest in all sorts
of ways. But that’s really the crux of a mood
disorder, is that your mood is very different
from what it’s supposed to be and it stays
there for a while and it interferes with your
functioning in a way that is significant that
can be interfering with your relationships
with people. It can interfere with your
relationship with your family, with your
relationship with peers. It can interfere with
your achievement in terms of academic
accomplishments, your ability to be or remain
employed. It can be so severe that it can cause
you to feel suicidal or, in fact, attempt to take
your life. And if they go on for a while and are
untreated, they can even lead to psychosis,
which is the same kind of symptoms that
people have when they’re schizophrenic.
…
Q. Would you explain to the jury what the
benefits of Risperdal are in the treatment of
the types of disorders with which [A.Y.] was
diagnosed?
A. Okay. I’m going to start with mood
disorder. Risperdal and drugs similar to
Risperdal in that class are used for mood
disorder as a way of helping with aggressive
or explosive outbursts of mood and also as
mood stabilizers. So what that means is that

App-155
what I was talking about before, those
deviations from the more stable mood that
typically people have, their moods are
varying, from highs to lows, and helping to
rein those unstable moods back in towards
stability. So that when persons are having a
mood disorder and their mood is not reined in
towards the more typical stable, Risperdal
can—has been shown to help with mood
stabilization. It also has been shown to help
with aggressive and impulsive outbursts of
mood and with people being able to stay more
in control and have less aggressive outbursts
type behaviors. Another thing that happens
for some people with mood disorders is that
they have difficulty sleeping, either getting to
sleep or staying asleep or both. And so one of
the things that sometimes—not necessarily
an intended effect, but one of the side effects
of Risperdal that can be beneficial for people
with that problem is that it will help them
with their sleep. And, again, another not
necessarily intended effect but beneficial
effect for some people with mood disorder is
that Risperdal can help with appetite. For
some people that turns into a bigger problem
than it is intended to be, so that can be both
a benefit and a not benefit, but for some
people it is a benefit. But really the primary
benefit for mood disorder is helping to rein
those very explosive and aggressive outbursts
of mood that some people have, what we call
irritability, in so that people can stay in
better control of their moods when they have

App-156
mood disorder. The same thing is often seen
with people who have behavior disorders such
as ADHD or oppositional defiant disorder. So
with those kinds of disorders, oftentimes
there’s a component of impulsivity that leads
to outbursts of behavior. And those can
sometimes be very quick and very severe.
And, again, the same kinds of benefit are seen
with Risperdal and the agents like it in
helping the people with those disorders not
necessarily have such a short fuse, so that
there’s a little bit more time between when
they are aggravated by something and their
ability to not necessarily fly off the handle so
quickly so that they get a little bit more time
to think maybe and to come up with a
different response so that aggression and
violence are not necessarily the immediate
response, but maybe there’s a more thoughtout or measured response.
N.T. 6/24/16 p.m. at 21-26, 54-56. The abovereferenced testimony belies Defendants’ claim that
this Court limited Dr. Schwartz to only discussing the
general benefits of Risperdal. As the transcript
demonstrates, Dr. Schwartz testified about Risperdal
as a treatment for certain mood disorders, the patients
for whom Risperdal is appropriate, and the factors to
be considered when prescribing such a medication. Dr.
Schwartz also discussed A.Y.’s medical conditions, the
seriousness of his symptoms, and why the severity of
the conditions is relevant to a psychiatrist’s
risk/benefit analysis.

App-157
Given that the substance of Dr. Schwartz’s
testimony covered more than just a discussion of the
general benefits of Risperdal, this claim must fail.
B. This Court did not err in precluding Dr.
Schwartz from testifying about certain
topics
In addition to the foregoing, Defendants’ claim
that this Court improperly precluded Dr. Schwartz
from testifying about the psychological impact on A.Y.
of his gynecomastia diagnosis and from discussing
other medications that were available must also fail.
First, Dr. Schwartz was not qualified to testify
about the psychological impact the gynecomastia
diagnosis had on A.Y. Dr. Schwartz never interviewed,
examined or treated A.Y.; she never even met with
him or any member of his family in connection with
her work on this case. Dr. Schwartz did not have any
first-hand knowledge of A.Y.’s psychological state,
which varied at certain points in time, nor could she
adequately ascertain this information from the
medical records. Thus, any opinion regarding how
A.Y.’s gynecomastia diagnosis affected him would
have been based on speculation and conjecture. As our
appellate courts have explained, “an opinion based on
mere possibilities is not competent evidence. This
means that expert testimony cannot be based solely
upon conjecture or surmise.” Viener v. Jacobs, 834
A.2d 546, 558 (Pa. Super. Ct. 2003). See also Duquesne
Light Company v. Woodland Hills School District, 700
A.2d 1038, 1047 (Pa. Cmwlth. 1997) (“Speculative
testimony or testimony made without reasonable
certainty does not aid the trier of fact and should be
stricken”). Since Dr. Schwartz’s opinion regarding how

App-158
A.Y.’s diagnosis affected him would not have assisted
the trier of fact, it was properly precluded at trial.
Second, Defendants suffered no prejudice as a
result of this Court’s decision to preclude Dr. Schwartz
from testifying about other medications that were
available to A.Y. Throughout trial, the jury heard
testimony that A.Y. was placed on numerous
medications to help with treatment of his conditions.
Specifically, the jury heard testimony that A.Y. was
prescribed Clonidine, Strattera, Dexedrine, Abilify,
Tenex, Ritalin, Seroquel, Zoloft, Zyprexa, Lithium,
Prozac, Depakote, Fluoxetine, Paxil, Geodon,
Trileptal, Invega, and Fanapt. The jury also heard
testimony that these medications were not effective in
treating A.Y.’s symptoms. As the transcript
demonstrates, A.Y.’s mother told doctors that
Risperdal was “the only med[ication] which has really
helped.” N.T. 6/28/16 p.m. at 16. She also
acknowledged that she restarted A.Y. on Risperdal
because she thought it was more effective than any
other medication. N.T. 6/29/16 p.m. at 141.
Since the jury heard testimony regarding the
other medications that were available, Defendants
were not harmed or prejudiced by this Court’s decision
to preclude Dr. Schwartz from testifying in this
regard. As such, Defendants’ claims should be
dismissed.
VIII.
THIS COURT DID NOT ABUSE ITS
DISCRETION IN
PRECLUDING
THE
TESTIMONY OF GORDON GREESON, M.D.
On appeal, Defendants claim that this Court
erred in precluding the testimony of Gordon Greeson,
M.D., at trial. Defendants’ claim must fail. Dr.

App-159
Greeson’s testimony was not relevant to Plaintiffs’
failure to warn claims as it did not have a tendency to
make the existence of any fact more or less probable.
See Pa.R.E. 401.
As discussed above, “the admissibility of evidence
is a matter addressed solely to the discretion of the
trial court and may be reversed only upon a showing
that the court abused its discretion.” Klein v.
Aronchick, 85 A.3d at 491. Here, this Court did not
abuse its discretion in precluding Dr. Greeson’s
testimony at trial.
Dr. Greeson is a child and adolescent psychiatrist
at the Helen Ross McNabb Mental Health Center
(“Health Center”) in Knoxville, Tennessee. Greeson
Dep. 3/1/16 at 13-14. Dr. Greeson began treating A.Y.
in October 2012 after A.Y.’s psychiatrist, Dr. Brian
Bonfardin, left the Health Center. Id. at 15. At the
time Dr. Greeson inherited A.Y. as a patient, A.Y. was
having behavioral issues. According to Dr. Greeson,
A.Y. “presented with mood issues, primarily
irritability and aggression.” Id. at 17. Dr. Greeson
treated A.Y. for these issues, and others, until
February 2016. Id at 22.
During one particular doctor’s visit in March
2013, A.Y.’s mother informed Dr. Greeson that she
filed a lawsuit against the manufacturer of Risperdal.
Id. at 105-106. According to A.Y.’s mother, she saw a
commercial run by lawyers who were advertising for
potential clients who had taken Risperdal and
developed gynecomastia. A.Y.’s mother brought this to
Dr. Greeson’s attention and stated that she believed
Risperdal caused A.Y. to develop gynecomastia. Id. at
106-109. At trial, Defendants sought to introduce the

App-160
testimony of Dr. Greeson, contending that his
discussion with A.Y.’s mother was relevant to the
issue of causation. Plaintiffs disagreed. The following
arguments were advanced by both parties with respect
to the admissibility of Dr. Greeson’s testimony:
THE COURT: What is this doctor? What is
the offer of proof for that one?
DEFENSE COUNSEL: It’s a little different
in that Dr. Greeson has testimony with
regard to gynecomastia and discussion of
gynecomastia with [A.Y.’s mother], and so it
definitely goes to causation.
THE COURT: I’m sorry. The testimony is
that he had discussion with her about
gynecomastia?
DEFENSE COUNSEL: About gynecomastia,
that’s right, Your Honor, and that differs
from Dr. Bonfardin, for example, such that
the jury’s entitled to hear this testimony, part
of their consideration about whether [A.Y.]
really had gynecomastia, part of the
causation question.
N.T. 6/24/16 a.m. at 86.
THE COURT: What was the basis of this
doctor discussing any gynecomastia with the
plaintiff?
DEFENSE COUNSEL: Because [A.Y.’s
mother] brought it to his attention. They had
a discussion about it in 2013.
THE COURT: I’m trying to find out—

App-161
DEFENSE COUNSEL: The discussion that
we just heard about from [A.Y.’s father]
related to the lawsuit. So when she had heard
the commercial, she came in and asked Dr.
Greeson for the first time about whether he
had gynecomastia, and it’s relevant for the
jurors’ understanding of whether or not [A.Y.]
had gynecomastia and it goes to the causation
question.
THE COURT: I don’t think it does. Go ahead.
PLAINTIFFS’ COUNSEL: Your Honor, if I
may, I think you’re right on. What it said was
there was a conversation after she filed the
lawsuit. She told her doctor. He got her off
generic Risperdal. [Dr. Greeson] never
evaluated [A.Y.] for gynecomastia. He never
made a determination on it. It really has
nothing to do with anything. It’s after
Bonfardin. We’re talking even more removed
than his testimony.
Id. at 87-88.
PLAINTIFFS’ COUNSEL: [Dr. Greeson]
didn’t do any evaluation for gynecomastia. He
didn’t put his hands on him, pinch test, any of
that stuff.
THE COURT: So how would he know?
PLAINTIFFS’ COUNSEL: He doesn’t
know . . . . He doesn’t ever say he knows. Dr.
Bonfardin prescribed generic Risperdal. This
is a doctor that continued on. I think they
shared a note together at one point where
they write on the same medical record. All he

App-162
did was keep prescribing what Dr. Bonfardin
did. The mother goes in and says—
THE COURT: This was a doctor after
Bonfardin?
PLAINTIFFS’ COUNSEL: Correct. And the
mother goes in and says the thing about the
lawsuit, gynecomastia. He never confirms or
denies whether he has it. He never does an
evaluation. All they did was taper him off the
drug, and that was it.
Id. at 97-98. This Court ultimately determined that
Dr. Greeson’s testimony was not relevant to Plaintiffs’
failure to warn claims. Dr. Greeson never conducted a
physical examination of A.Y.’s chest and did not
diagnose A.Y. with gynecomastia. In fact, Dr. Greeson
had never diagnosed any patient with gynecomastia.
Greeson Dep. 3/1/16 at 108. Thus, contrary to
Defendants’ claim, Dr. Greeson’s testimony would not
have been relevant for the jurors’ understanding of
whether or not A.Y. had gynecomastia at the time.
Moreover, the jury already heard testimony that
A.Y.’s mother filed the underlying lawsuit after seeing
the above-referenced commercial for Risperdal. The
following testimony was elicited from A.Y.’s father at
trial:
Q. You mentioned that your wife saw a
commercial advertising about the fact that a
drug Risperdal made people grow female
breasts. Do you remember talking about that
with your lawyer a few minutes ago?
A. I do.

App-163
Q. And it was shortly after that that your wife
filed this lawsuit; right?
A. She did.
N.T. 6/24/16 a.m. at 52. As such, Dr. Greeson’s
testimony regarding his conversation with A.Y.’s
mother would have been duplicative of testimony that
was already presented to the jury.
Based on the foregoing, Defendants’ claim should
be dismissed. This Court did not abuse its discretion
in precluding the testimony of Dr. Greeson at trial.
IX. THIS COURT DID NOT ERR IN ADMITTING
THE TESTIMONY OF DR. KESSLER
On appeal, Defendants claim that this Court
improperly admitted certain testimony by Plaintiffs’
expert, David A. Kessler M.D, J.D. According to
Defendants, Dr. Kessler’s testimony should have been
precluded because (1) there was no showing or
contention that Dr. Kessler was unavailable to testify
live at trial; (2) Defendants were unable to
meaningfully cross-examine Dr. Kessler on issues
germane to this case; (3) Dr. Kessler improperly
offered testimony regarding off-label promotion; and
(4) Dr. Kessler improperly testified regarding his
personal interpretation of internal corporate
documents. For the reasons discussed below,
Defendants’ claims should be dismissed.
Dr. Kessler holds a bachelor’s degree from
Amherst College, a law degree from the University of
Chicago Law School, and a medical degree from
Harvard Medical School. Dr. Kessler completed his
internship and residency in pediatrics at Johns
Hopkins Hospital. In 1990, President George H.W.

App-164
Bush appointed Dr. Kessler as the Commissioner of
the Food and Drug Administration. Dr. Kessler served
in this role for seven years and was responsible for
enforcing the United States Food, Drug, and Cosmetic
Act. From 1997 to 2003, Dr. Kessler was the Dean of
Yale University School of Medicine, where he also
taught pediatrics, epidemiology, public health. Since
2003, Dr. Kessler has worked at the University of
California at San Francisco, where he is a professor of
pediatrics, epidemiology, and biostatistics. Dr. Kessler
has authored numerous professional articles in legal
medical and scientific journals on federal regulation of
food, drugs, and medical devices.
In this case, Plaintiffs introduced a de bene esse
deposition of Dr. Kessler at trial. Given Dr. Kessler’s
knowledge, skill, education, experience, and training,
he was qualified to give expert testimony about
general topics relating to FDA regulatory process, a
pharmaceutical company’s obligation to warn of safety
hazards, and Defendants’ failure to warn about the
risks associated with Risperdal. Dr. Kessler’s
testimony was relevant and helpful to the trier of fact
in understanding the evidence and was properly
admitted at trial.
A. Dr. Kessler’s testimony was admissible
under Pa.R.C.P. 4017(g)
Defendants’ claim that this Court erred in
admitting Dr. Kessler’s deposition testimony because
there was no showing or contention that he was
unavailable to testify live at trial must fail. Dr.
Kessler’s
testimony
was
admissible
under
Pennsylvania Rule of Civil Procedure 4017.1(g).

App-165
According to Rule 4017.1(g), “a video deposition of
a medical witness or any witness called as an expert,
other than a party, may be used at trial for any
purpose whether or not the witness is available to
testify.” This Rule is intended to “allay the problem of
attendance at trial that is commonly experienced with
medical and other expert witnesses.” Goodrich Amram
2d § 4017.1(g):1.
Here, Dr. Kessler’s opinions have been thoroughly
explored in the Risperdal litigation. Prior to the trial
at issue, Dr. Kessler had been deposed three times and
testified at two trials. In May 2015, Plaintiffs obtained
a de bene esse videotaped deposition of Dr. Kessler for
use in all Risperdal trials. The purpose of this
deposition was to lower litigation costs and for the
convenience of Dr. Kessler, who resides in California.
In his deposition, Dr. Kessler addressed issues
germane to all Risperdal cases and offered opinions
regarding the Defendants’ duty of care and
Defendants’ breach of their duty to warn. As Plaintiffs
explained, Dr. Kessler’s testimony was Defendantspecific but Plaintiff-generic. Since Dr. Kessler’s de
bene esse deposition was relevant to all Risperdal
trials, including this one, his deposition was properly
admitted. This is so even if Dr. Kessler was available
to appear live at trial. To reiterate, Rule 4017.1
permits use of a videotaped deposition of a medical
witness even if the witness is available to appear at
trial. As such, this claim should be dismissed.
B. The Findling reanalysis was
relevant to Dr. Kessler’s testimony

not

Second, Defendants contend that they were
unable to meaningfully cross-examine Dr. Kessler on

App-166
issues germane to this case. Specifically, Defendants
claim they were precluded from cross-examining Dr.
Kessler about the reanalysis of data which appeared
in the 2003 article, “Prolactin Levels During LongTerm Risperidone Treatment in Children and
Adolescents” by Findling et al. (“Findling”). This claim
must also fail.
Our Superior Court has explained that “an expert
witness may be cross-examined on the contents of a
publication upon which he or she has relied in forming
an opinion, and also with respect to any other
publication which the expert acknowledges to be a
standard work in the field. In such cases, the
publication or literature is not admitted for the truth
of the matter asserted, but only to challenge the
credibility of the witness’ opinion and the weight to be
accorded thereto.” Majdic v. Cincinnati Mach. Co., 537
A.2d 334, 339 (Pa. Super. Ct. 1988).
Here, as Plaintiffs’ counsel pointed out at trial,
Dr. Kessler’s testimony focused on Defendants’ failure
to warn in 2003 when the Findling article was
operative and A.Y. was being prescribed Risperdal. In
his de bene esse deposition, Kessler referred to various
drafts of the Findling article and discussed the fact
that data included in the initial drafts of the article,
which showed a statistically significant association
between Risperdal ingestion and gynecomastia, did
not appear in the published article. Dr. Kessler
testified that, by omitting this data, Janssen misled
physicians and the scientific community. Dr. Kessler
ultimately concluded that the Defendants failed to
warn of the gynecomastia risk associated with
Risperdal.

App-167
In forming his opinions, Dr. Kessler did not
acknowledge the Findling article to be a standard
work in the field upon which he relied. In addition, Dr.
Kessler did not rely on the reanalysis of the Findling
article in formulating his opinions. The reanalysis was
published in 2016. As discussed above, Dr. Kessler’s
opinions focused on Defendants’ failure to warn in
2003. As such, the reanalysis had no bearing on Dr.
Kessler’s testimony. Moreover, because Dr. Kessler
did not consider or rely on the reanalysis in forming
his opinions, there was no need to cross-examine him
about an opinion he did not offer. Defendants were
permitted to present their own expert witnesses to
discuss the reanalysis and to challenge Dr. Kessler’s
credibility.
Finally, the results of the reanalysis were
available at the time that Dr. Kessler’s de bene esse
deposition was taken. Thus, Defendants could have
cross-examined Dr. Kessler regarding the reanalysis
at that time. Defendants’ failure to do so did not justify
requiring Dr. Kessler to testify live at trial.
For the foregoing, Defendants’ claim should be
dismissed. The Findling reanalysis was not relevant
to Dr. Kessler’s testimony.
C. Dr. Kessler’s testimony regarding offlabel promotion was properly admitted
Third, Defendants contend that this Court erred
in permitting Dr. Kessler to offer extensive testimony
regarding “off-label” promotion. According to
Defendants, expert witnesses are not permitted to
testify as to what the law is or whether certain conduct
was legal. Moreover, Defendants contend that Dr.
Kessler’s opinions regarding off-label promotion were

App-168
inadmissible because whether Janssen engaged in offlabel promotion was irrelevant to the existence or
absence of liability on Plaintiffs’ claim under
Tennessee law. Defendants’ claims are meritless and
should be dismissed.
As discussed above, it is well-settled that evidence
is relevant if it has any tendency to make a fact more
or less probable than it would be without the evidence
and the fact is of consequence in determining the
action. Pa.R.E. 401. “Whether evidence has a tendency
to make a given fact more or less probable is to be
determined by the court in the light of reason,
experience, scientific principles and the other
testimony offered in the case.” Pa.R.E. 401 cmt.
Relevant evidence may be excluded “if its probative
value is outweighed by a danger of one or more of the
following: unfair prejudice, confusing the issues,
misleading the jury, undue delay, wasting time, or
needlessly presenting cumulative evidence.” Pa.R.E.
403. Here, Dr. Kessler’s testimony regarding off-label
promotion was relevant to the issues in this case and
its probative value outweighed the danger of unfair
prejudice.
Off-label means the practice of prescribing
prescription drugs for use that is not approved by the
FDA. Off-label use of prescription drugs is lawful.
That is, doctors are allowed, in the practice of
medicine, to prescribe drugs that have been approved
by the FDA for purposes or uses other than the ones
approved by the FDA. It is not lawful, however, for
drug companies to promote their drug for a use that
has not been approved by the FDA. Dr. Kessler

App-169
testified in this regard during his de bene esse
deposition.
[I]f I can just say, the drug can be used offlabel. Nothing wrong with that. What the law
says is that doctors can use their individual,
his or her—any doctor can use his or her
judgment. It just prevents a company from
promoting the use.
Kessler Dep. 5/19/15 at 88. Dr. Kessler explained the
purpose behind the FDA’s policy against off-label
promotion by pharmaceutical companies:
It’s one of the—it’s a very important policy
issue. It underlies, really, the whole structure
of our drug regulatory system. We have a
system where companies have incentives to
do studies, get information, and that
information goes to doctors and patients. And
that comes from doing studies and getting the
information. And if you can go promote, go
market, outreach—call it what you want—
you can go sell, market, promote, outreach,
for indications that you’re not approved,
where is the incentive to get the kind of
information, to evaluate that information
appropriately, and assure safety and efficacy?
So if you allow unapproved marketing for offlabel indications, unapproved indications,
then you’re not going to—you’re going to
basically unravel the whole system of drug
regulation.
Kessler Dep. 5/20/15 at 367-68. As Dr. Kessler
explained, off-label promotion undercuts the FDA’s
ability to ensure safety and efficacy of a drug.

App-170
… [I]t deprives physicians and patients of the
basic safety and effectiveness evaluation that
companies and the FDA work hard to do to
assure the public that its drugs are safe and
effective. If a company promotes off-label, it
undercuts that system. All right. And when
you couple that off-label promotion with
powerful medicines for whom the risk is not
fully disclosed, what you’re doing, when you—
if you sell this medicine, if you sell Risperdal
for a broad range of indications, for a whole
set of behavioral indications, ADHD,
Tourette’s, other indications that are not—
have never been approved, you are going to
expose more children to that risk. And when
that exposure accompanies—is accompanied
by an increased risk and risks that are not
fully disclosed, that puts those kids in harm’s
way.
Id. at 474-75. Despite the FDA’s policy, Plaintiffs
presented evidence that Defendants promoted offlabel use of Risperdal for children and adolescents
years before it was approved for that indication by
FDA. According to Dr. Kessler, Defendants created
business and marketing plans specifically targeting
children and adolescents for the use of Risperdal.
Defendants directed its sales force to go out and talk
to pediatricians, pediatric psychiatrists, and other
medical professionals who primarily treated children,
and to market Risperdal as safe and effective for
symptoms of various disorders in children. Dr. Kessler
testified as follows:
Q. Was there a sales force for Janssen?

App-171
A. Yes.
Q. And did the sales force for Janssen visit
doctors regularly?
A. Yes. I reviewed sales notes, yes.
Q. Did Janssen doctors [sic] visit routinely
and consistently with physicians who were
pediatric
psychiatrists,
pediatric
neurologists, and pediatric pediatricians in
particular?
A. I think you said Janssen doctors. I think
you meant—
Q. Sales force.
A. Thank you very much. Yes. There are
documents that talk about those visits.
Kessler Dep. 5/20/15 at 403.
Q. From your review of the documents, can
you tell us, first of all, in the period of 2000
through 2006 before the approval for autism,
was Janssen promoting the drug Risperdal
for children and adolescents?
A. I have no doubt in my mind.
Q. From the documents that you reviewed,
have you reached that conclusion?
A. Yes.
Q. Was Janssen marketing the drug for
adolescents and children?
A. Certainly.
Q. Is there any doubt in your mind?
A. No.

App-172
Id. at 365. In addition to promoting Risperdal for
unapproved use in children, Defendants failed to warn
of its risks despite knowing that Risperdal was
associated with an increased risk of gynecomastia in
young males and despite having ample opportunity to
warn. The following testimony was elicited from Dr.
Kessler.
Q. … I want you to just, if you would, list for
me and tell me those ways that the—that
Janssen could have and should have warned
pediatric practitioners prescribing this drug
off-label to children.
A. In all—in all ways, whenever they touched
a physician.
Q. Okay. Let me—let me see if I can catalogue
them for you.
A. Yes.
Q. Could they and should they have done it
through their sales force?
A. Sure.
Q. Tell me how.
A. What—if they’re going—if they’re in there
visiting, they can warn.
Q. Is every opportunity—is every time that a
salesperson went to a doctor who they knew
was prescribing to children and adolescents
an opportunity to give them the information
which you’ve mentioned here?
A. As long as it’s safety and warning, yes.
Q. Okay. How about through the medical
education that they were doing? Could they

App-173
have and should they have warned in that
way?
A. Absolutely.
Q. Is there something called a “Dear Doctor”
letter?
A. Yes.
Q. What is a “Dear Doctor” letter? And could
and
should
Janssen
under
these
circumstances have disseminated a “Dear
Doctor” letter? First, describe it and tell me
could they have and should they have here.
A. Yes. Yes, they could have. Yes, they should
have. FDA was very specific going back
several decades. If you look at the Federal
Register and you look at the language that my
predecessors set out in the Federal Register,
there—companies can warn. If there is a
safety issue, you can warn in a “Dear Doctor”
letter. It’s a letter to physicians. It’s a—it’s a
form of communication.
Q. If you’re not sure, can you go to the FDA
and tell the FDA, “I’m going to send this letter
out. Is this okay?”
A. In fact, Janssen—there’s examples where
Janssen sent out “Dear Doctor” letters before
talking to the FDA, and after talking to the—
the FDA. Certainly you would want to talk to
the FDA. I would think that would be a good
idea. But the fact is, if you know of a safety
issue, okay, there are many forms, including
a “Dear Doctor” level—letter, that you can
warn.

App-174
Q. We’ve mentioned the “Dear Doctor” letter,
the sales representatives, the medical—the
educational approach when they are having
these regional advisory committee meetings.
Was that a place where they could have and
should have warned?
A. Absolutely. You would think, right, that
the number one thing you would want if you
have doctors there—I mean, call it an
advisory committee—is you talk about the
safety issues. You talk about the incidence.
You talk about hyperprolactinemia being—
Risperdal causing more hyperprolactinemia.
You talk about the fact that you have this
increase in 8 to 12 weeks, and you talk about
all the data.
Q. And did they do the opposite?
A. They did not do—they did not sufficiently
warn. They failed to warn.
Id. at 460-63. As Dr. Kessler explained, Defendants
had every opportunity to warn pediatric practitioners
prescribing Risperdal off-label to children but
intentionally failed to do so.
Dr. Kessler’s testimony regarding off-label
promotion was proper. Dr. Kessler was qualified and
well-equipped to testify regarding the policies and
procedures at the FDA given his extensive knowledge
and experience in the field of food and drug regulation.
Dr. Kessler explained his experience, in relevant part,
as follows:

App-175
Q. As part of your role at the FDA, were you
knowledgeable about and did you oversee
marketing and promotion of drugs?
A. I was intimately involved in the regulation
of
advertising,
marketing,
and
communication of prescription drugs. That
was done by an office at the time that was
called—the acronym was DDMAC. And it had
a director, but I worked directly with that
director on implementing a number of
policies.
Q. And would you also be familiar with the
regulation of drugs; that is to say, the
regulations which are promulgated which
are—those documents which say what can
and can’t be done?
A. Yes. Both the laws, the regulations, the
guidances. I’ve also served, sir, since I was
FDA commissioner on certain corporate
boards and, in fact, chaired the compliance
committee of those corporate boards as they
relate to both drugs and devices.
Kessler Dep. 5/19/15 at 25-26.
Q. And you’re familiar with the sales
activities of pharmaceutical companies?
A. I certainly was responsible for overseeing
the regulation of the advertising and
marketing when I was at the agency, and I’ve
seen it from the inside being on
pharmaceutical company boards.
Kessler Dep. 5/20/15 at 435. Given Dr. Kessler’s
background, he was qualified to testify regarding the

App-176
FDA’s policy on off-label promotion by pharmaceutical
companies and whether he believed Defendants acted
in accordance with that policy.
Moreover, contrary to Defendants’ claim, evidence
of off-label promotion was relevant to Plaintiffs’
failure to warn claims. Under Tennessee law,
“[m]anufacturers of prescription drugs, like the
manufacturers of any other unavoidably dangerous
product, have a duty to market and distribute their
products in a way that minimizes the risk or danger.
They may discharge their duty by distributing the
drugs with proper directions and adequate warnings
to those who foreseeably could be injured by the use of
their products.” Pittman v. Upjohn Co., 890 S.W.2d
425, 428 (Tenn. 1994). Warnings are considered
adequate “when they contain a full and complete
disclosure of the potential adverse reactions to the
drug. A reasonable warning not only conveys a fair
indication of the dangers involved, but also warns with
the degree of intensity required by the nature of the
risk.” Pittman v. Upjohn Co., 890 S.W.2d at 429 (citing
Seley v. G.D. Searle & Co., 67 Ohio St.2d 192, 423
N.E.2d 831, 837 (1981)).
As discussed above, Dr. Kessler testified that
Defendants were promoting Risperdal for unapproved
use in children for many years, evidenced by their
marketing materials. Since Defendants specifically
targeted the pediatric population, Risperdal use in
pediatric patients was foreseeable. Under Tennessee
law, Defendants had a duty to disclose the known
risks that Risperdal posed to this pediatric population.
As Dr. Kessler explained, Defendants not only failed
to adequately warn of the known risks, they concealed

App-177
and misrepresented information about the side effects
of Risperdal. This testimony was undeniably relevant
to Plaintiffs’ failure to warn claim.
Based on the foregoing, Defendants’ claim should
be dismissed. Dr. Kessler’s testimony was relevant to
the issues in the case and helpful to the trier of fact in
understanding the evidence.
D. Dr. Kessler was permitted to testify
regarding internal corporate documents
Finally, Defendants contend that this Court erred
in admitting extensive testimony from Dr. Kessler
regarding his personal interpretation of internal
Janssen documents as well as the intent of Janssen
and the FDA. Defendants’ claim is unfounded. Dr.
Kessler did not exceed the permissible scope of expert
testimony.
Courts have held that an expert may testify about
his review of internal corporate documents to explain
the basis for his opinions. In re Flonase Antitrust
Litigation, 884 F. Supp. 2d 184 (E.D. Pa. 2012). Here,
in forming his opinions, Dr. Kessler reviewed, inter
alia, internal documents from Janssen and the FDA.
Dr. Kessler discussed the meaning and significance of
these documents and how they fit into the FDA’s
scheme for regulating pharmaceutical drugs. Using
the information contained in these documents, Dr.
Kessler explained what knowledge was available to
Defendants and what information they should have
known as the manufacturer of a prescription drug. Dr.
Kessler also discussed what Defendants should have
done in terms of disclosing certain information and
what their own internal documents showed they failed
to do. Dr. Kessler was permitted to offer such

App-178
testimony given his extensive knowledge and
experience with FDA regulations and procedures, as
well as his knowledge of the obligations of a
pharmaceutical company to disclose clinical data and
analyses of data pertinent to safety. This testimony
was helpful to the jury in understanding FDA
regulatory requirements and the ways in which
Defendants failed to comply with those requirements.
The substance of Dr. Kessler’s testimony did not
exceed the bounds of permissible expert testimony.
While Dr. Kessler discussed what Defendants should
have known, should have done, and failed to do, he did
not testify regarding Defendants’ intent. In fact, at one
point during his deposition, Dr. Kessler expressly
stated that he did not “want to … get into intention.”
Kessler Dep. 5/20/15 at 415. As such, Defendants’
claim must fail.
X. THIS
COURT
DID
NOT
ERR
IN
PRECLUDING THE FDA’S RESPONSE TO
THE CITIZEN PETITION
On appeal, Defendants contend that this Court
erred in excluding the FDA’s response to the Citizen
Petition submitted by Plaintiffs’ counsel. Defendants’
claim is baseless and should be dismissed. This Court
did not err in precluding this evidence at trial.
By way of background, on July 27, 2012, Plaintiffs’
counsel submitted a Citizen Petition (the “Petition”),
requesting the FDA to exercise its authority to request
information relating to Risperdal, gynecomastia, and
prolactin. 11 Additionally, Plaintiffs’ counsel requested
the FDA to revoke the pediatric indication for
11

The Petition was amended on August 27, 2012.

App-179
Risperdal (risperidone), for all generic versions of
risperidone, and for Invega (paliperidone), unless and
until the long-term safety of those drug products can
be demonstrated. Alternatively, Plaintiffs’ counsel
requested that the FDA require a black-box warning
for Risperdal and all generic versions of risperidone
based on the lack of sufficient data to prove the drugs’
safety. The FDA responded to the Petition on
November 25, 2014 and denied Plaintiffs’ counsel’s
requests for a ban or black box warning. 12
Prior to the start of trial in this case, Plaintiffs
moved to exclude evidence, arguments, references, or
inferences to the FDA’s November 25, 2014 response.
According to Plaintiffs, the FDA’s response
constituted inadmissible hearsay and had no
relevance to the main issues in the case. The
Defendants, however, claimed the FDA’s response was
relevant and admissible under the official records
exception to the hearsay rule. This Court ultimately
granted Plaintiffs’ motion and precluded the FDA’s
response at trial. This Court’s decision was proper for
the following reasons.
First, the FDA’s response was inadmissible
hearsay. Hearsay is defined as “a statement, other
than one made by the declarant, while testifying at
trial or hearing, offered in evidence to prove the truth
of the matter asserted.” Pa.R.E. 801(c). Hearsay is
generally inadmissible unless an exception applies.
One exception to the hearsay rule is the official records
12 Plaintiffs’ counsel subsequently sued the FDA, challenging
its decision. At the time of trial in this case, the matter was on
appeal.

App-180
exception. Section 42 Pa.C.S.A. § 6103, provides the
following:
An official record kept within this
Commonwealth by any court, magisterial
district judge or other government unit, or an
entry therein, when admissible for any
purpose, may be evidenced by an official
publication thereof or by a copy attested by
the officer having the legal custody of the
record, or by that officer’s deputy, and
accompanied by a certificate that the officer
has the custody. The certificate may be made
by any public officer having a seal of office
and having official duties with respect to the
government unit in which the record is kept,
authenticated by the seal of that office[.]
According to 42 Pa.C.S.A. § 6104, when an official
record has been properly certified pursuant to the
requirements set forth in 42 Pa.C.S.A. § 6103, the
record is admissible as evidence that the
governmental action or inaction disclosed therein was
in fact taken. 42 Pa.C.S.A. § 6104(a). In addition, “a
copy of a record authenticated as provided in section
6103 disclosing the existence or nonexistence of facts
which have been recorded pursuant to an official
duty … shall be admissible as evidence of the
existence or nonexistence of such facts, unless the
sources of information or other circumstances indicate
lack of trustworthiness.” Id. at (b).
Here, contrary to Defendants’ claim, the FDA’s
response contained out of court statements which
Defendants purported to use as evidence to prove the
truth of the matter asserted and did not fit under the

App-181
official records exception to the rule against hearsay.
Defendants sought to introduce the information
contained in the FDA’s response through Janet
Arrowsmith, M.D., an expert in regulatory matters
relating
to
pharmaceutical
regulation.
Dr.
Arrowsmith authored an expert report, wherein she
offered several opinions regarding the intent of the
FDA’s response. Dr. Arrowsmith specifically opined,
in relevant part, that the FDA’s response confirmed
that Risperdal is safe and effective for children and
adolescents, that gynecomastia is not a serious or
clinically significant hazard, that the Risperdal label
is adequate, that Risperdal’s association with
increases in prolactin levels and gynecomastia were
well-known as possible side effects associated with
antipsychotic
drugs,
and
that
reports
of
hyperprolactinemia and gynecomastia in the post1993 Risperdal trials were not new events and did not
meet the “newly acquired information” standard that
would have necessitated a CBE change to the existing
label. See Report of Dr. Arrowsmith dated February
12, 2016. Dr. Arrowsmith’s interpretations of the
FDA’s out of court statements were offered for the
truth of the matter asserted therein and were
inadmissible as the FDA’s response did not fit under
the official records exception to the rule against
hearsay.
Second, even if the FDA’s response did not
constitute inadmissible hearsay, it was nonetheless
inadmissible because it was not relevant to Plaintiffs’
failure to warn claims. As previously discussed, A.Y.
was initially prescribed Risperdal in 2003; he stopped
using Risperdal in 2013. The FDA responded to the
Petition in November 2014, after the relevant time

App-182
period at issue, and did not address Plaintiffs’
counsel’s contentions regarding the current labeling of
Risperdal. Rather, it only addressed Plaintiffs’
counsel’s requests to revoke the pediatric indication
for Risperdal and all generic versions of risperidone or
to require a black-box warning. Dr. Arrowsmith’s
opinions regarding the FDA’s response to these
requests were not relevant to whether Defendants
adequately warned of the risks associated with
Risperdal use, whether A.Y.’s physicians would not
have prescribed Risperdal had they known of the
risks, and whether Risperdal use caused A.Y.’s
gynecomastia. Since Dr. Arrowsmith’s opinions in this
regard would not have been helpful to the jury in
determining a fact in issue or in understanding the
evidence, they were precluded at trial.
Finally, assuming arguendo that the FDA’s
response had evidentiary value, the danger of unfair
prejudice outweighed its minimal probative value.
Pa.R.E. 403. As our courts have explained, “‘[u]nfair
prejudice’ means a tendency to suggest decision on an
improper basis or to divert the jury’s attention away
from its duty of weighing the evidence impartially.” Id.
at cmt. Here, admitting the FDA’s response at trial
would have confused and distracted the jury from a
fair consideration of the evidence in this case. For this
reason and the others mentioned above, Defendants’
claim should be dismissed.
XI. THIS COURT’S
WERE PROPER

JURY

INSTRUCTIONS

On appeal, Defendants claim that this Court
“made several errors in its jury charge that necessitate
a new trial.” According to Defendants, this Court erred

App-183
in (A) improperly suggesting to the jury that Janssen
needed to provide A.Y. or his parents with a warning
adequate to put them on notice; (B) improperly
instructing the jury that it should determine whether
Janssen intentionally falsified, destroyed, or
concealed evidence; (C) failing to instruct the jury on
Tennessee’s statutory preemption of adequacy; and
(D) failing to instruct the jury that punitive damages
could not be awarded. Defendants’ claims must fail;
there was no error with regard to the jury instructions.
“Whether a jury instruction is erroneous is a
question of law and is therefore subject to de novo
review with no presumption of correctness.” Solomon
v. First Am. National Bank of Nashville, 774 S.W.2d
935, 940 (Tenn. Ct. App. 1989). “The legitimacy of a
jury’s verdict is dependent on the accuracy of the trial
court’s instructions […], [t]herefore, a trial court is
under a duty to impart substantially accurate
instructions concerning the law applicable to the
matters at issue.” Hensley v. CSX Transp., Inc., 310
S.W.3d 824, 833 (Tenn. Ct. App. 2009). However,
“[t]he judgment of a trial court will not be set aside
based on an erroneous jury instruction unless it
appears that the erroneous instruction more probably
than not affected the judgment of the jury.” Tenn. R.
App. P. 36(b); Gorman v. Earhart, 876 S.W.2d 832, 836
(Tenn. 1994).
Trial courts need not grant a request for a jury
instruction if the general jury charge already covers
the substance of the requested instruction. Borne v.
Celadon Trucking Servs., Inc., 532 S.W.3d 274, 300
(Tenn. 2017). “Appellate courts review the entire
charge as a jury would, rather than through the

App-184
practiced eye of a judge or lawyer.” Id. at 297. In
addition, jury instructions are not measured against
the standard of perfection and the jury charge will not
be invalidated if it “fairly defines the legal issues
involved in the case and does not mislead the jury.”
City of Johnson City v. Outdoor West, Inc., 947 S.W.2d
855, 858 (Tenn. Ct. App. 1996). Moreover “a particular
instruction must be considered in the context of the
entire charge.” Id.
Reversal of a judgment is appropriate “only when
the improper denial of a request for a special jury
instruction has prejudiced the rights of the requesting
party.” Johnson v. Tennessee Farmers Mut. Ins. Co.,
205 S.W.3d 365, 372 (Tenn. 2006). It is not sufficient
that refusal to grant the requested instruction may
have affected the result, “it must affirmatively appear
that it did in fact do so.” Otis v. Cambridge Mut. Fire
Ins. Co., 850 S.W.2d 439, 446 (Tenn. 1992). “Tennessee
courts view the jury charge in its entirety and consider
the charge as a whole in order to determine whether
the trial judge committed prejudicial error.” Id. “It is
not error to deny a requested instruction if its
substance is covered in the general charge.” Id. at 445.
Here, this Court’s jury instructions, when read as a
whole, were proper.
A. This Court did not improperly suggest to
the jury that Janssen needed to provide
A.Y. or his parents with a warning
adequate to put them on notice of the
risks associated with Risperdal
First, Defendants argue that this Court failed to
instruct the jury as to the supplier’s duty to warn. N.T.
6/30/16 p.m. at 184. Defendants argue that they had a

App-185
duty to make only A.Y.’s physician aware of the risk of
gynecomastia when taking Risperdal, and did not
have a duty to warn A.Y. or his parents. According to
Defendants, this Court’s jury charge failed to
adequately convey this standard. Defendants’ claim is
baseless.
At trial, Defendants submitted proposed jury
instructions. Defendants requested, in relevant part,
that this Court instruct the jury as follows:
In this action, because the product involved is
a prescription medication that can only be
taken with the doctor’s prescription, the
expected users of Risperdal, for purposes of
any warnings, are the physicians who
prescribed Risperdal for [A.Y.], not [A.Y.] or
his family. This is because a prescribing
physician is in the best position to
understand the patient’s needs and assess the
risks and benefits of a particular course of
treatment. In order to prevail, Plaintiffs must
prove that Janssen failed to warn [A.Y.]’s
healthcare providers of the risk of
gynecomastia and that his healthcare
providers were not already aware of the risks.
If the risk of gynecomastia was apparent to
[A.Y.]’s physicians, Janssen was not
negligent even if Janssen gave no warning
about it.
This Court did not read Defendants’ proposed jury
charge verbatim. Rather, in instructing the jury
regarding the supplier’s duty to warn, this Court
relied on Tennessee Pattern Instruction Civil 10.12.
This Court specifically instructed the jury as follows:

App-186
Supplier’s duty to warn. A supplier who
knows or reasonably should know that a
product is likely to be dangerous for its
intended use or foreseeable misuse has a duty
to use reasonable care to warn of the
product’s danger or to reveal its unsafe
condition.
Warnings should be given to those persons
whom the supplier should reasonably expect
to use or to handle the product or be
endangered by its use or handling if the
supplier reasonably should believe those
persons would not realize the danger without
the warnings. The failure to fulfill this duty is
negligence.”
N.T. 6/30/16 a.m. at 171.
The questions presented to the jury on the verdict
sheet, and read to the jury before deliberation,
specified that the warning must have been directed to
A.Y.’s healthcare providers:
Now, as you deliberate, you will receive the
verdict sheet. I’ll read it to you. There are four
questions you must answer. The first
question: Was Janssen negligent by failing to
provide an adequate warning to [A.Y.]’s
healthcare providers about the risk of
gynecomastia from taking Risperdal? There’s
a line to check yes, a line to check no. If you
answer yes to Question 1, please proceed to
Question 2. If you answer no to Question 1,
plaintiff cannot recover. Do not answer any
further questions and return to this
Courtroom.

App-187
N.T. 6/30/16 p.m. at 182. This explanation of the
verdict sheet, coupled with the above-referenced
instruction regarding Defendants’ duty to warn,
accurately reflected the law applicable to this case.
Thus, this claim should be dismissed.
B. This Court did not err in instructing the
jury that it should determine whether
Janssen
intentionally
falsified,
destroyed, or concealed evidence in this
case
Defendants argue that this Court improperly
instructed the jury that it should determine whether
Janssen intentionally falsified, destroyed, or
concealed evidence. According to Defendants, there
was no evidence whatsoever that Janssen falsified,
destroyed, or concealed any evidence to avoid liability
in the instant action. Just as this Court found no merit
in Defendants’ argument at trial, it finds no merit in
their argument on appeal.
At the conclusion of all the evidence presented at
trial, Plaintiffs requested, in part, that this Court
instruct the jury as follows:
You must determine whether the Defendants
intentionally falsified, destroyed or concealed
records pertaining to this case[.]
For you to find that Defendants intentionally
falsified, destroyed or concealed records
pertaining to the case, the Plaintiff must
prove by a preponderance of the evidence the
following elements:
1. That Defendants intentionally falsified,
destroyed or concealed Defendants’ records to

App-188
wrongfully evade liability in the case at issue;
and
2. That Defendants’ records contained
material evidence pertaining to this case.
See Plaintiffs’ Amended Proposed Points for Charge
dated June 29, 2016. Plaintiffs argued the following in
support of their request:
MR. ITKIN: Your Honor, let me give you
globally what’s going on. This case is going to
be decided under Tennessee law, and I don’t
profess to be a total expert on Tennessee law.
But the defendants are going to raise an
issue, if there’s a jury verdict and if it exceeds,
I believe, $750,000, they will try to claim that
there’s some sort of damage cap in Tennessee.
I don’t know that that claim is accurate. What
our research indicates is that, if you get a
finding of concealment of medical records,
there’s no question the cap would not apply.
So what you see here is the instruction about
what that means, and then later on in the
verdict form we propose a question on it. So
the two issues of concealment, there’s two
things they did. One is they locked up Table
21 from 2002 until 2015. That’s a big part of
our case. And then you also have the Bilker
issue. So there’s two issues of concealment
because, even though they gave Table 21 to
the FDA in October 2015, our claim goes to
2003. So we think this comes in, and we think
you need this instruction so that we can get a
jury finding on this issue in case, you know,
we’re fortunate enough.

App-189
N.T. 6/30/16 a.m. at 9-10. Defendants objected,
arguing that the instruction was not applicable to this
case:
MR. ABERNETHY: No, but it has to do—
falsified, destroyed, or concealed to
wrongfully evade liability in the case at issue.
Your Honor, obviously we haven’t had
briefing on this, but I think it’s clear from the
statute and from the instruction itself that
this is about concealing evidence in litigation.
It’s not about whether you should or shouldn’t
have given facts to other people outside
litigation. This is just extremely prejudicial,
and it’s not appropriate to this case. And to be
suggesting to this jury that we destroyed
evidence and kept it out of litigation just is
irretrievably prejudicial to the defendants.
N.T. 6/30/16 a.m. at 12-13. This Court found
Defendants’ argument unconvincing and ultimately
read Plaintiffs proposed charge to the jury. 13 N.T.
6/30/16 a.m. at 173. This Court’s decision was proper.
It should be noted Defendants were permitted to rebut
Plaintiffs’ claims of concealment in their closing argument.
Defense counsel specifically stated the following in support of
their position: “I need to talk about one other question, which is
Question 4, this question about Janssen falsifying, destroying, or
concealing records. This is about Table 21, according to Mr. Itkin.
It’s about the slide from Dr. Bilker, according to Mr. Itkin. Ladies
and gentlemen, those documents, even though the plaintiffs
never proved what they mean or why they’re important, those
documents were not falsified, destroyed, or concealed. They were
produced in the litigation. You saw them in this lawsuit. They
are in evidence for whatever you may think of them. We didn’t
destroy these documents. We provided these documents. The
13

App-190
As discussed at length above and contrary to
Defendants’ claim, there was ample evidence
presented at trial that Defendants intentionally
falsified and concealed records in this case. To
reiterate, Plaintiffs presented evidence that
Defendants concealed Table 21, an internal Janssen
document, that demonstrated a statistically
significant link between Risperdal and gynecomastia.
Instead of submitting this information to the FDA
during the approval process, Defendants withheld and
concealed the results for more than a decade. In
addition, Plaintiffs presented evidence that
Defendants hired Dr. Warren Bilker, a biostatistician,
to perform a reanalysis of Table 21. The only specifics
given to Dr. Bilker, who was under the control and
direction of Dr. Findling and Dr. Daneman, were to
refute the results in Table 21. N.T. 6/27/16 p.m. at 179.
According to Plaintiffs, Dr. Bilker intentionally
manipulated and retested the data multiple ways to
get the results Defendants wanted. Once Dr. Bilker
was able to refute the results in Table 21, the
reanalysis was submitted as a letter by Dr. Daneman
and Dr. Findling to The Journal of Clinical Psychiatry
and published. These results, according to Plaintiffs,
were inaccurate, inadequate, and misleading.
Since there was disputed evidence as to whether
Defendants intentionally falsified and concealed
records, it was not error for this Court to give the
above-referenced instruction to the jury.

answer to that question is no. And I’ve talked about that a little
earlier, so I won’t repeat myself on it.” N.T. 6/30/16 a.m. at 12627.

App-191
C. Defendants were not entitled to an
instruction on the rebuttable statutory
presumption
Next, Defendants claim that this Court failed to
instruct the jury on the statutory presumption of
adequacy. Defendant’s claim must fail.
Under Tennessee law, there exists “a rebuttable
presumption in favor of a manufacturer who complies
with ‘any federal or state statute or administrative
regulation’ in existence at the time the product was
manufactured.” Tuggle v. Raymond Corp., 868 S.W.2d
621, 624 (Tenn. Ct. App. 1992). “The rebuttable
presumption created is that the manufacturer’s
product is not in an ‘unreasonably dangerous
condition in regard to matters covered by those
standards.’” Id. Tennessee Code Annotated Section
29-28-104 specifically provides the following:
Compliance by a manufacturer or seller with
any federal or state statute or administrative
regulation existing at the time a product was
manufactured and prescribing standards for
design, inspection, testing, manufacture,
labeling, warning or instructions for use of a
product, shall raise a rebuttable presumption
that the product is not in an unreasonably
dangerous condition in regard to matters
covered by these standards.
Tenn. Code Ann. § 29-28-104 (West). The purpose of
this statute is to “give refuge to the manufacturer who
is operating in good faith and [in] compliance of what
the law requires him to do.” Tuggle v. Raymond Corp.,
868 S.W.2d at 625.

App-192
According to Defendants, there was evidence
presented in this case that Defendants complied with
federal regulations; thus, this Court should have
instructed the jury on the statutory presumption of
adequacy.
Defendants
cited
to
ClarksvilleMontgomery Cnty. School Sys. v. United States
Gypsum Co., 925 F.2d 993, 1004-05 (6th Cir. 1991) in
support of their argument. Such reliance is misplaced.
In that case, the Plaintiff, ClarksvilleMontgomery County School System, filed suit against
the Defendant, United States Gypsum Co., for
manufacturing Audicote, a product containing
asbestos which was used in the construction of
Plaintiff’s school buildings from 1966-1970. Years
later, “[i]n 1982, the Environmental Protection Agency
(“EPA”) issued a regulation requiring every school
district in the country to inspect for the existence of
friable asbestos by June 1983.” Id. at 995. To comply
with this requirement, Plaintiff hired “consultants to
conduct a survey of its schools and scheduled the
removal of Audicote from its buildings to take place
from 1983 to 1987.” Id. Per the regulation, all
asbestos-containing materials were to be “separately
removed with stringent precautions.” Id. Plaintiff
incurred significant expense as a result of Audicote’s
disposal. “The total cost [Plaintiff] incurred, including
survey and inspection, architectural services, and
removal and replacement of asbestos ceiling plaster
and other contaminated material, was $1,618,135.12.”
Id.
In the suit against Defendant, Plaintiff alleged
that Audicote was defective and unreasonably
dangerous and that Defendant was negligent in

App-193
manufacturing Audicote due to its health hazards.
Defendant denied that Audicote created any risk of
harm and argued that Audicote adhered to industry
standards at the time of installation. The case
proceeded to trial and, after all the evidence
presented, the District Court instructed the jury
regarding the rebuttable presumption that arises from
a manufacturer’s compliance with governmental
standards; the Court specifically stated the following:
You have heard testimony in this case
concerning
standards
governing
the
manufacture of acoustical plasters. If you find
that the defendant complied with these
regulations or standards at the time its
products were manufactured concerning
design, inspection or testing, this shall raise
the rebuttable presumption that the product
is not in an unreasonably dangerous
condition in regard to the matters covered by
these standards.
Such a presumption is controlling only in the
complete absence of contradicting facts and
circumstances. Thus, if there is evidence in
the case contradicting the presumption, the
presumption disappears and it’s for you the
jury to weigh the evidence and to reach what
appears to be the most probable conclusion.
Clarksville-Montgomery Cty. Sch. Sys. v. U.S. Gypsum
Co., 925 F.2d 993, 1004 (6th Cir. 1991). The jury
ultimately returned a verdict in favor of the
Defendant. Plaintiff filed an appeal, challenging the
District Court’s instruction regarding the rebuttable
presumption. According to Plaintiff, there was no

App-194
evidence or testimony in the record addressing
Audicote’s compliance with any federal or state
statute or administrative regulation. The Sixth
Circuit upheld the District Court’s instruction against
Plaintiff’s assertion of reversible error, holding that
although the record did not contain an overabundance
of evidence on Audicote’s compliance with governing
standards, there was enough evidence and testimony
to support the District Court’s decision to instruct the
jury regarding the rebuttable presumption. The Sixth
Circuit specifically pointed to testimony from the
building’s architects who testified that they referred
to federal and state codes, regulations and ordinances
in preparing the building’s specifications. The
testimony revealed that, at the time of construction,
there was no indication that asbestos was hazardous;
rather, “building code inspectors considered asbestos
a valuable asset.” Id. at 1004. Only later did the
regulations concerning asbestos change. This
testimony “created the inference that Audicote’s
compliance with governing standards was one of many
factors considered in preparing the specification” and
provided the basis for charging the jury on the
rebuttable presumption. Id.
The facts of the instant action are distinguishable
from Clarksville-Montgomery Cty. Sch. Sys. Unlike
the Defendant in that case, there was ample evidence
in the instant action that the Janssen Defendants did
not act in good faith and in compliance with
government regulations. As discussed at length above,
under FDA regulations, Defendants were responsible
for the content of their label at all times. Defendants
had a duty to create a label that adequately warned of
the risks associated with Risperdal and to ensure that

App-195
the warnings remained adequate as long as Risperdal
was on the market. As demonstrated by Plaintiffs at
trial, Defendants failed to comply with this
requirement. Defendants’ label did not accurately
reflect the frequency and severity of the risk of
gynecomastia despite Defendants’ knowledge of the
true rate of gynecomastia. In addition to withholding
information, Plaintiffs presented evidence that
Defendants actively concealed data about Risperdal’s
gynecomastia risk. Since Plaintiffs presented
sufficient evidence that Risperdal was not adequately
labeled in compliance with FDA standards,
Defendants were not entitled to an instruction on the
rebuttable statutory presumption. Compare Goins v.
Clorox Co., 926 F.2d 559 (6th Cir. 1991) (Plaintiff
introduced no evidence to challenge defendants’
compliance with federal regulations; therefore,
defendants were entitled to a rebuttable presumption
that their products were not unreasonably dangerous).
D. This Court did not err in denying
Defendants’ request for an instruction
on punitive damages
Finally, Defendants argue this Court failed to
instruct the jury that punitive damages were not at
issue and could not be awarded in this case. 14
Defendants’ claim must fail. As mentioned above, the
trial court is under a duty to impart substantially
14 Defendants also claim that this Court failed to instruct the
jury that Defendants could not be liable for failing to provide
information to the FDA, and that Defendants could not be liable
for truthful off-label promotion. Contrary to their claim,
Defendants were not entitled to any such instructions. See e.g.,
Sections I, II, IX of this opinion.

App-196
accurate instructions concerning the law applicable to
the matters at issue. Here, punitive damages were not
at issue; thus, an instruction regarding punitive
damages was not warranted.
On October 22, 2015, the Honorable Arnold L.
New filed an Opinion wherein he ruled that Risperdal
plaintiffs were barred from seeking punitive damages
in Risperdal litigation pursuant to New Jersey
product liability law. See In Re: Risperdal Litigation
Applicable to All Cases (Court of Common Pleas of
Philadelphia County, March Term 2010, No. 296). As
such, only compensatory damages were recoverable.
Since punitive damages were not available in this
case, all parties were precluded from presenting
evidence on punitive damages at trial. At the
conclusion of all the evidence presented, Defendants
requested that this Court instruct the jury that it may
not award punitive damages. This Court denied
Defendants’ request and instructed the jury, in
relevant part, as follows:
Damages. The fact that I’m instructing you
about damages does not imply any opinion on
my part as to whether damages should be
awarded. If you find that the defendant is
liable to the plaintiff, you must then find an
amount of money damages you believe will
fairly and adequately compensate the
plaintiff for all the physical injury he has
sustained as a result of this occurrence. The
amount you award today must compensate
the plaintiff completely for damages
sustained in the past as well as damages the
plaintiff will sustain in the future.

App-197
Compensatory damages. If, under the Court’s
instructions, you find that the plaintiff is
entitled to damages, then you must award
plaintiff damages that will reasonably
compensate the plaintiff for claimed loss or
harm which has been proven by a
preponderance of the evidence, provided you
also find it was or will be suffered by the
plaintiff and was legally caused by the act or
omission upon which you base your finding of
liability.
Each of these elements of damages is
separate. You may not duplicate damages for
any element by also including that same loss
or harm in another element of damage.
In determining the amount of damages, you
should consider the following elements:
Physical pain and mental suffering. Physical
pain
and
suffering
is
reasonable
compensation for any physical pain and
suffering, physical and mental discomfort
suffered by the plaintiff, and the present cash
value for pain and suffering likely to be
experienced in the future. Mental suffering
includes anguish, grief, shame, or worry.
N.T. 6/30/16 a.m. at 173-74. As the instruction clearly
indicates, the jury was required to determine whether
Plaintiffs were entitled to compensatory damages for
physical pain and mental suffering. This instruction
was clear and adequately conveyed the law applicable
to the matters at issue.
This Court’s decision not to instruct the jury on
punitive damages was proper. Such an instruction

App-198
was neither relevant nor applicable to this case
because punitive damages were not at issue.
Introducing punitive damages for the first time during
the jury charge would have confused the jury by
diverting its attention to an issue that was not
germane to the trial. Since the issue of damages was
adequately covered in this Court’s compensatory
damages charge, Defendant’s claim should be
dismissed.
XII. THE VERDICT WAS NOT EXCESSIVE
On appeal, Defendants claim that this Court
should have ordered remittitur because the amount of
damages awarded by the jury was unsupported by the
evidence at trial. This Court disagrees.
Appellate courts operate under the presumption
that “juries are honest and conscientious and they
have followed the instructions given to them.” Duran
v. Hyundai Motor Am., Inc., 271 S.W.3d 178, 212
(Tenn. Ct. App. 2008). Whenever possible, the
reviewing court must “give effect to the jury’s verdict.”
Id. at 210. A judgment based on a jury’s verdict may
be invalidated “only when there is no material
evidence to support the verdict or when the amount of
the verdict is so excessive or unconscionable that it
shocks the judicial conscience and amounts to a
palpable injustice.” Id. (internal citations omitted).
Material evidence is “evidence material to the
question in controversy, which must necessarily enter
into the consideration of the controversy and by itself,
or in connection with the other evidence, be
determinative of the case.” Meals ex rel. Meals v. Ford
Motor Co., 417 S.W.3d 414, 422 (Tenn. 2013).

App-199
Here, the record contained material evidence to
support the jury’s verdict of seventy million dollars. At
trial, the jury heard testimony from Dr. Kessler, M.D.,
Dr. Solomon, M.D., Dr. Eker, M.D., Dr. Hughes, M.D.,
and A.Y.’s father, among others. As discussed at
length above, these witnesses testified about the
knowledge Defendants had regarding the risks
associated with Risperdal, the information that
Defendants concealed and withheld from the FDA and
prescribers, and the ultimate effect that Defendants’
actions had on A.Y. and will continue to have on him
in the future.
As discussed above, at the conclusion of all the
evidence presented at trial, this Court instructed the
jury regarding damages. In addition to the
instructions discussed in Section XI(C) above, this
Court also instructed the jury as follows:
Permanent injury. A permanent injury is an
injury that the plaintiff must live with for the
rest of the plaintiff’s life that may result in
inconvenience or the loss of physical vigor.
Damages for permanent injury may be
awarded whether or not it causes any pain or
inconvenience.
Disfigurement. Disfigurement is a specific
type of permanent injury that impairs a
person’s beauty, symmetry, or appearance.
Loss of enjoyment of life. Loss of enjoyment of
life takes into account the loss of the normal
enjoyments and pleasures in life in the future
as well as limitations on the person’s life still
resulting from the injury.

App-200
Pain and suffering, permanent injury,
disfigurement, and loss of enjoyment of life
are separate types of losses. A plaintiff is
entitled to recover for these losses if the
plaintiff proves by a preponderance of the
evidence that each was caused by the
defendant’s fault.
No definite standard or method of calculation
is prescribed by law by which to fix
reasonable compensation for pain and
suffering, permanent injury, disfigurement,
and the loss of enjoyment of life, nor is the
opinion of any witness required as to the
amount of such reasonable compensation.
In making an award for pain and suffering,
loss of enjoyment of life and/or permanent
injury, you should exercise your authority
with calm and reasonable judgment, and the
damages you fix shall be just and reasonable
in light of the evidence.
N.T. 6.30/16 a.m. at 173-76. After charging the jury on
the law in the case, the jury deliberated. As mentioned
above, the jury ultimately found in favor of the
Plaintiffs and determined that they were entitled to a
substantial award of damages. This Court did not
invalidate the jury’s verdict because the award was
not unreasonable. See Gillingham v. Consol Energy,
Inc., 51 A.3d 841, 857 (Pa. Super. Ct. 2010)
(recognizing that “[l]arge verdicts are not necessarily
excessive verdicts.”
Assessing damages in a case such as this is a
difficult task. Per this Court’s instructions, the jury
was to consider economic and non-economic damages.

App-201
As Courts have explained, the “jury has wide latitude
in assessing non-economic damages.” Meals ex rel.
Meals, 417 S.W.3d at 425. “We trust jurors to use their
personal experiences and sensibilities to value the
intangible harms such as pain, suffering, and the
inability to engage in normal activities.” Id.
Additionally, Courts have recognized that “[d]amages
for pain and suffering and for the loss of enjoyment of
life are not easily quantified and do not lend
themselves
to
easy
valuation.
Accordingly,
determining the amount of these damages is
appropriately left to the sound discretion of the jury or
the judicial finder-of-fact.” Duran, 271 S.W.3d at 21011. Upon consideration of the evidence presented at
trial and the damages sustained by Plaintiffs, this
Court believes that the jury’s finding should not be
disturbed.
XIII.
THE JURY RENDERED A VERDICT AS
TO ALL DEFENDANTS
On appeal, Defendants claim that this Court
should have entered judgment notwithstanding the
verdict as to Johnson & Johnson and Janssen
Research & Development, LLC because there was no
evidence of wrongdoing as to either Defendant and the
verdict form only asked the jury to render a verdict as
to Janssen. Just as this Court found no merit in
Defendants’ claim at trial, it finds no merit in their
claim on appeal.
At trial, defense counsel set forth the following
argument in support of his claim that there was no
evidence of wrongdoing by Defendants Johnson &
Johnson and Janssen Research & Development, LLC:

App-202
MR. ABERNETHY: Last issue, Your Honor,
there’s been no evidence whatsoever
presented in this case that would establish
any basis to show that two of the defendants,
Johnson & Johnson or J&J PRD, made or sold
the product, had any obligation to give
warnings, or that there would be any
obligation or any basis for liability. It’s clear
from
the
testimony
that
Janssen
Pharmaceuticals sold the medication. But the
parent company can’t be held liable or an
affiliate can’t be held liable just because it’s a
parent or affiliate, and they’ve presented no
evidence whatsoever to establish a claim
against either of those companies.
N.T. 6/24/16 a.m. at 70-71. Plaintiffs’ counsel
disagreed with this argument:
MR. ITKIN: Your Honor, we could go dig
through the records and find some Johnson &
Johnson stuff that has been presented
through Dr. Kessler’s testimony, but the way
we have traditionally dealt with it is, you
know, on the jury charge, calling it Janssen.
We’ve been calling them Janssen throughout
the case.
Id. This Court ultimately agreed with Plaintiffs. It
was made clear throughout trial that Janssen
Pharmaceuticals, Inc. and Janssen Research &
Development, LLC, are wholly owned companies of
Johnson & Johnson. While there was evidence that all
Defendants were negligent in failing to warn of the
risks associated with Risperdal, for ease of discussion
and to avoid confusion at trial, Defendants were

App-203
collectively referred to as “Janssen.” In keeping with
that purpose, Janssen was listed on the verdict sheet.
This did not mean that Johnson & Johnson and
Janssen Research & Development, LLC were shielded
from liability. Rather, it was understood that the
jury’s verdict would either impose liability on all the
Defendants or none of the Defendants. As discussed
above, the jury ultimately determined that the
Defendants failed to adequately warn of the risk of
gynecomastia associated with Risperdal use and that
the Defendants’ negligence was a cause of A.Y.’s
gynecomastia.
Since liability was imposed on all Defendants, this
claim should be dismissed. Defendants Johnson &
Johnson and Janssen Research & Development, LLC
were not entitled to judgment notwithstanding the
verdict.
PLAINTIFFS’ STATEMENT OF MATTERS
COMPLAINED OF ON APPEAL:
The sole issue raised by Plaintiffs on appeal was
previously addressed by the Honorable Arnold New in
an Opinion dated October 22, 2015. See In re:
Risperdal Litigation, March Term 2010, No. 296
attached hereto and marked as Exhibit “A”). This
Court relies on that Opinion and incorporates by
reference the arguments advanced therein.

App-204
CONCLUSION
For all the foregoing reasons, this Court
respectfully requests that its judgment be affirmed in
its entirety.
BY THE COURT:
[handwritten: signature]
PAULA PATRICK, J.

App-205
Appendix D
PENNSYLVANIA COURT OF COMMON PLEAS
________________
No. 2094
________________
A.Y., et al.,
v.

Plaintiffs,

JANSSEN PHARMACEUTICALS INC., et al.,
Defendants.
________________
Filed: July, 5, 2016
________________
Case Type: MASS TORT RISPERDAL
________________
Program: MASS TORT
________________
TRIAL WORK SHEET
________________

App-206
Trial Total Amount: Number Disposit- Date
Date:
of Days ion Date: Sheet
Prepared
16 Jury
11
JUN-  Non-Jury
2016
Total Amount:

01-JUL2016

05-JUL2016

$70,000,000.00
Full Description of Disposition (to be entered
Verbatim on the Docket)
Jury verdict in favor of Plaintiff in the amount of $70
million
 Default Judgment/
Court Ordered


Directed Verdict

 Jury Verdict for
Plaintiff
 Jury Verdict for
Defendant

 Transferred to
binding arbitration



Mistrial

 Finding for
Defendant (Non-Jury)



Hung Jury

 Finding for Plaintiff
(Non-Jury)



Non-Pros entered



Non-Suit entered



Damages Assessed

 Judgment entered by  Settled prior to
assignment for trial
agreement
(Team Leaders, only)

App-207


Judgment entered



Judgment satisfied

 Settled after
assignment for trial


prior to jury
selection



after jury
sworn in

App-208
Appendix E
RELEVANT FEDERAL REGULATIONS
21 C.F.R. § 201.57 (2003). Specific requirements
on content and format of labeling for human
prescription drugs.
Each section heading listed in §201.56(d), if not
omitted under § 201.56(d)(3), shall contain the
following information in the following order:
(a) Description. (1) Under this section heading, the
labeling shall contain:
(i) The proprietary name and the established
name, if any, as defined in section 502(e)(2) of the
act, of the drug;
(ii) The type of dosage form and the route of
administration to which the labeling applies;
(iii) The same qualitative and/or quantitative
ingredient information as required under
§ 201.100(b) for labels;
(iv) If the product is sterile, a statement of that
fact;
(v) The pharmacological or therapeutic class of
the drug;
(vi) The chemical name and structural formula of
the drug;
(vii) If the product is radioactive, a statement of
the important nuclear physical characteristics,
such as the principal radiation emission data,
external
radiation,
and
physical
decay
characteristics.

App-209
(2) If appropriate, other important chemical or
physical information, such as physical constants, or
pH, shall be stated.
(b) Clinical Pharmacology. (1) Under this section
heading, the labeling shall contain a concise factual
summary of the clinical pharmacology and actions of
the drug in humans. The summary may include
information based on in vitro and/or animal data if the
information is essential to a description of the
biochemical and/or physiological mode of action of the
drug or is otherwise pertinent to human therapeutics.
Pharmacokinetic information that is important to safe
and effective use of the drug is required, if known, e.g.,
degree and rate of absorption, pathways of
biotransformation, percentage of dose as unchanged
drug and metabolites, rate or half-time of elimination,
concentration in body fluids associated with
therapeutic and/or toxic effects, degree of binding to
plasma proteins, degree of uptake by a particular
organ or in the fetus, and passage across the blood
brain barrier. Inclusion of pharmacokinetic
information is restricted to that which relates to
clinical use of the drug. If the pharmacological mode
of action of the drug is unknown or if important
metabolic or pharmacokinetic data in humans are
unavailable, the labeling shall contain a statement
about the lack of information.
(2) Data that demonstrate activity or effectiveness in
in vitro or animal tests and that have not been shown
by adequate and well-controlled clinical studies to be
pertinent to clinical use may be included under this
section of the labeling only under the following
circumstances:

App-210
(i) In vitro data for anti-infective drugs may be
included if the data are immediately preceded by
the statement ‘‘The following in vitro data are
available but their clinical significance is
unknown.’’
(ii) For other classes of drugs, in vitro and animal
data that have not been shown by adequate and
well-controlled clinical studies, as defined in
§ 314.126(b) of this chapter, to be pertinent to
clinical use may be used only if a waiver is granted
under § 201.58 or § 314.126(b) of this chapter.
(c) Indications and Usage. (1) Under this section
heading, the labeling shall state that:
(i) The drug is indicated in the treatment,
prevention, or diagnosis of a recognized disease or
condition, e.g., penicillin is indicated for the
treatment of pneumonia due to susceptible
pneumococci; and/or
(ii) The drug is indicated for the treatment,
prevention, or diagnosis of an important
manifestation of a disease or condition, e.g.,
chlorothiazide is indicated for the treatment of
edema in patients with congestive heart failure;
and/or
(iii) The drug is indicated for the relief of
symptoms associated with a disease or syndrome,
e.g., chlorpheniramine is indicated for the
symptomatic relief of nasal congestion in patients
with vasomotor rhinitis; and/or
(iv) The drug, if used for a particular indication
only in conjuction with a primary mode of

App-211
therapy, e.g., diet, surgery, or some other drug, is
an adjunct to the mode of therapy.
(2) All indications shall be supported by substantial
evidence of effectiveness based on adequate and wellcontrolled studies as defined in § 314.126(b) of this
chapter unless the requirement is waived under
§ 201.58 or § 314.126(b) of this chapter.
(3) This section of the labeling shall also contain the
following additional information:
(i) If evidence is available to support the safety
and effectiveness of the drug only in selected
subgroups of the larger population with a disease,
syndrome, or symptom under consideration, e.g.,
patients with mild disease or patients in a special
age group, the labeling shall describe the
available evidence and state the limitations of
usefulness of the drug. The labeling shall also
identify specific tests needed for selection or
monitoring of the patients who need the drug, e.g.,
microbe susceptibility tests. Information on the
approximate kind, degree, and duration of
improvement to be anticipated shall be stated if
available and shall be based on substantial
evidence derived from adequate and wellcontrolled studies as defined in § 314.126(b) of
this chapter unless the requirement is waived
under § 201.58 or § 314.126(b) of this chapter. If
the information is relevant to the recommended
intervals between doses, the usual duration of
treatment, or any modification of dosage, it shall
be stated in the ‘‘Dosage and Administration’’
section of the labeling and referenced in this
section.

App-212
(ii) If safety considerations are such that the
drug should be reserved for certain situations,
e.g., cases refractory to other drugs, this
information shall be stated in this section.
(iii) If there are specific conditions that should be
met before the drug is used on a long-term basis,
e.g., demonstration of responsiveness to the drug
in a short-term trial, the labeling shall identify
the conditions; or, if the indications for long-term
use are different from those for short-term use,
the labeling shall identify the specific indications
for each use.
(iv) If there is a common belief that the drug may
be effective for a certain use or if there is a
common use of the drug for a condition, but the
preponderance of evidence related to the use or
condition shows that the drug is ineffective, the
Food and Drug Administration may require that
the labeling state that there is a lack of evidence
that the drug is effective for that use or condition.
(v) Any statements comparing the safety or
effectiveness, either greater or less, of the drug
with other agents for the same indication shall be
supported by adequate and well-controlled
studies as defined in § 314.126(b) of this chapter
unless this requirement is waived under § 201.58
or § 314.126(b) of this chapter.
(d) Contraindications. Under this section heading,
the labeling shall describe those situations in which
the drug should not be used because the risk of use
clearly outweighs any possible benefit. These
situations include administration of the drug to
patients known to have a hypersensitivity to it; use of

App-213
the drug in patients who, because of their particular
age, sex, concomitant therapy, disease state, or other
condition, have a substantial risk of being harmed by
it; or continued use of the drug in the face of an
unacceptably hazardous adverse reaction. Known
hazards and not theoretical possibilities shall be
listed, e.g., if hypersensitivity to the drug has not been
demonstrated, it should not be listed as a
contraindication. If no contraindications are known,
this section of the labeling shall state ‘‘None known.’’
(e) Warnings. Under this section heading, the
labeling shall describe serious adverse reactions and
potential safety hazards, limitations in use imposed by
them, and steps that should be taken if they occur. The
labeling shall be revised to include a warning as soon
as there is reasonable evidence of an association of a
serious hazard with a drug; a causal relationship need
not have been proved. A specific warning relating to a
use not provided for under the ‘‘Indications and
Usage’’ section of the labeling may be required by the
Food and Drug Administration if the drug is
commonly prescribed for a disease or condition, and
there is lack of substantial evidence of effectivenes for
that disease or condition, and such usage is associated
with serious risk or hazard. Special problems,
particularly those that may lead to death or serious
injury, may be required by the Food and Drug
Administration to be placed in a prominently
displayed box. The boxed warning ordinarily shall be
based on clinical data, but serious animal toxicity may
also be the basis of a boxed warning in the absence of
clinical data. If a boxed warning is required, its
location will be specified by the Food and Drug
Administration. The frequency of these serious

App-214
adverse reactions and, if known, the approximate
mortality and morbidity rates for patients sustaining
the reaction, which are important to safe and effective
use of the drug, shall be expressed as provided under
the ‘‘Adverse Reactions’’ section of the labeling.
(f) Precautions. Under this section heading, the
labeling shall contain the following subsections as
appropriate for the drug:
(1) General. This subsection of the labeling shall
contain information regarding any special care to be
exercised by the practitioner for safe and effective use
of the drug, e.g., precautions not required under any
other specific section or subsection of the labeling.
(2) Information for patients. This subsection of the
labeling shall contain information to be given to
patients for safe and effective use of the drug, e.g.,
precautions concerning driving or the concomitant use
of other substances that may have harmful additive
effects. Any printed patient information or Medication
Guide required under this chapter to be distributed to
the patient shall be referred to under the
‘‘Precautions’’ section of the labeling and the full text
of such patient information or Medication Guide shall
be reprinted at the end of the labeling. The print size
requirements for the Medication Guide set forth in
§ 208.20 of this chapter, however, do not apply to the
Medication Guide that is reprinted in the professional
labeling.
(3) Laboratory tests. This subsection of the labeling
shall identify any laboratory tests that may be helpful
in following the patient’s response or in identifying
possible adverse reactions. If appropriate, information
shall be provided on such factors as the range of

App-215
normal and abnormal values expected in the
particular situation and the recommended frequency
with which tests should be done before, during, and
after therapy.
(4)(i) Drug interactions. This subsection of the
labeling shall contain specific practical guidance
for the physician on preventing clinically
significant drug/drug and drug/food interactions
that may occur in vivo in patients taking the drug.
Specific drugs or classes of drugs with which the
drug to which the labeling applies may interact in
vivo shall be identified, and the mechanism(s) of
the interaction shall be briefly described.
Information in this subsection of the labeling
shall be limited to that pertaining to clinical use
of the drug in patients. Drug interactions
supported only by animal or in vitro experiments
may not ordinarily be included, but animal or in
vitro data may be used if shown to be clinically
relevant. Drug incompatibilities, i.e., drug
interactions that may occur when drugs are mixed
in vitro, as in a solution for intravenous
administration, shall be discussed under the
‘‘Dosage and Administration’’ section of the
labeling rather than under this subsection of the
labeling.
(ii) Drug/laboratory test interactions. This
subsection of the labeling shall contain practical
guidance on known interference of the drug with
laboratory tests.
(5) Carcinogenesis, mutagenesis, impairment of
fertility. This subsection of the labeling shall state
whether long-term studies in animals have been

App-216
performed to evaluate carcinogenic potential and, if
so, the species and results. If reproduction studies or
other data in animals reveal a problem or potential
problem concerning mutagenesis or impairment of
fertility in either males or females, the information
shall be described. Any precautionary statement on
these topics shall include practical, relevant advice to
the physician on the significance of these animal
findings. If there is evidence from human data that the
drug may be carcinogenic or mutagenic or that it
impairs fertility, this information shall be included
under the ‘‘Warnings’’ section of the labeling. Also,
under ‘‘Precautions,’’ the labeling shall state: ‘‘See
‘Warnings’ section for information on carcinogenesis,
mutagenesis, and impairment of fertility.’’
(6) Pregnancy. This subsection of the labeling may be
omitted only if the drug is not absorbed systemically
and the drug is not known to have a potential for
indirect harm to the fetus. For all other drugs, this
subsection of the labeling shall contain the following
information:
(i) Teratogenic effects. Under this heading the
labeling shall identify one of the following
categories that applies to the drug, and the
labeling shall bear the statement required under
the category:
(a) Pregnancy category A. If adequate and
well-controlled studies in pregnant women
have failed to demonstrate a risk to the fetus
in the first trimester of pregnancy (and there
is no evidence of a risk in later trimesters),
the labeling shall state: ‘‘Pregnancy Category
A. Studies in pregnant women have not

App-217
shown that (name of drug) increases the risk
of fetal abnormalities if administered during
the first (second, third, or all) trimester(s) of
pregnancy. If this drug is used during
pregnancy, the possibility of fetal harm
appears remote. Because studies cannot rule
out the possibility of harm, however, (name of
drug) should be used during pregnancy only
if clearly needed.’’ The labeling shall also
contain a description of the human studies. If
animal reproduction studies are available
and they fail to demonstrate a risk to the
fetus, the labeling shall also state:
‘‘Reproduction studies have been performed
in (kinds of animal(s)) at doses up to (x) times
the human dose and have revealed no
evidence of impaired fertility or harm to the
fetus due to (name of drug).’’ The labeling
shall also contain a description of available
data on the effect of the drug on the later
growth,
development,
and
functional
maturation of the child.
(b) Pregnancy category B. If animal
reproduction studies have
failed to
demonstrate a risk to the fetus and there are
no adequate and well-controlled studies in
pregnant women, the labeling shall state:
‘‘Pregnancy Category B. Reproduction studies
have been performed in (kind(s) of animal(s))
at doses up to (x) times the human dose and
have revealed no evidence of impaired
fertility or harm to the fetus due to (name of
drug). There are, however, no adequate and
well-controlled studies in pregnant women.

App-218
Because animal reproduction studies are not
always predictive of human response, this
drug should be used during pregnancy only if
clearly needed.’’ If animal reproduction
studies have shown an adverse effect (other
than decrease in fertility), but adequate and
well-controlled studies in pregnant women
have failed to demonstrate a risk to the fetus
during the first trimester of pregnancy (and
there is no evidence of a risk in later
trimesters), the labeling shall state:
‘‘Pregnancy Category B. Reproduction studies
in (kind(s) of animal(s)) have shown (describe
findings) at (x) times the human dose. Studies
in pregnant women, however, have not shown
that (name of drug) increases the risk of
abnormalities when administered during the
first (second, third, or all) trimester(s) of
pregnancy. Despite the animal findings, it
would appear that the possibility of fetal
harm is remote, if the drug is used during
pregnancy. Nevertheless, because the studies
in humans cannot rule out the possibility of
harm, (name of drug) should be used during
pregnancy only if clearly needed.’’ The
labeling shall also contain a description of the
human studies and a description of available
data on the effect of the drug on the later
growth,
development,
and
functional
maturation of the child.
(c) Pregnancy category C. If animal
reproduction studies have shown an adverse
effect on the fetus, if there are no adequate
and well-controlled studies in humans, and if

App-219
the benefits from the use of the drug in
pregnant women may be acceptable despite
its potential risks, the labeling shall state:
‘‘Pregnancy Category C. (Name of drug) has
been shown to be teratogenic (or to have an
embryocidal effect or other adverse effect) in
(name(s) of species) when given in doses (x)
times the human dose. There are no adequate
and well-controlled studies in pregnant
women. (Name of drug) should be used during
pregnancy only if the potential benefit
justifies the potential risk to the fetus.’’ The
labeling shall contain a description of the
animal studies. If there are no animal
reproduction studies and no adequate and
well-controlled studies in humans, the
labeling shall state: ‘‘Pregnancy Category C.
Animal reproduction studies have not been
conducted with (name of drug). It is also not
known whether (name of drug) can cause fetal
harm when administered to a pregnant
woman or can affect reproduction capacity.
(Name of drug) should be given to a pregnant
woman only if clearly needed.’’ The labeling
shall contain a description of any available
data on the effect of the drug on the later
growth,
development,
and
functional
maturation of the child.
(d) Pregnancy category D. If there is positive
evidence of human fetal risk based on adverse
reaction data from investigational or
marketing experience or studies in humans,
but the potential benefits from the use of the
drug in pregnant women may be acceptable

App-220
despite its potential risks (for example, if the
drug is needed in a life-threatening situation
or serious disease for which safer drugs
cannot be used or are ineffective), the labeling
shall state: ‘‘Pregnancy Category D. See
‘Warnings’ section.’’ Under the ‘‘Warnings’’
section, the labeling states: ‘‘(Name of drug)
can cause fetal harm when administered to a
pregnant woman. (Describe the human data
and any pertinent animal data.) If this drug
is used during pregnancy, or if the patient
becomes pregnant while taking this drug, the
patient should be apprised of the potential
hazard to the fetus.’’
(e) Pregnancy category X. If studies in
animals or humans have demonstrated fetal
abnormalities or if there is positive evidence
of fetal risk based on adverse reaction reports
from
investigational
or
marketing
experience, or both, and the risk of the use of
the drug in a pregnant woman clearly
outweighs any possible benefit (for example,
safer drugs or other forms of therapy are
available),
the
labeling
shall
state:
‘‘Pregnancy
Category
X.
See
‘Contraindications’
section.’’
Under
‘‘Contraindications,’’ the labeling shall state:
‘‘(Name of drug) may (can) cause fetal harm
when administered to a pregnant woman.
(Describe the human data and any pertinant
animal
data.)
(Name
of
drug)
is
contraindicated in women who are or may
become pregnant. If this drug is used during
pregnancy, or if the patient becomes pregnant

App-221
while taking this drug, the patient should be
apprised of the potential hazard to the fetus.’’
(ii) Nonteratogenic effects. Under this heading
the labeling shall contain other information on
the drug’s effects on reproduction and the drug’s
use during pregnancy that is not required
specifically by one of the pregnancy categories, if
the information is relevant to the safe and
effective use of the drug. Information required
under this heading shall include nonteratogenic
effects in the fetus or newborn infant (for
example, withdrawal symptoms or hypoglycemia)
that may occur because of a pregnant woman’s
chronic use of the drug for a preexisting condition
or disease.
(7) Labor and delivery. If the drug has a recognized
use during labor or delivery (vaginal or abdominal
delivery), whether or not the use is stated in the
indications section of the labeling, this subsection of
the labeling shall describe the available information
about the effect of the drug on the mother and the
fetus, on the duration of labor or delivery, on the
possibility that forceps delivery or other intervention
or resuscitation of the newborn will be necessary, and
the effect of the drug on the later growth,
development, and functional maturation of the child.
If any information required under this subsection is
unknown, this subsection of the labeling shall state
that the information is unknown.
(8) Nursing mothers. (i) If a drug is absorbed
systemically, this subsection of the labeling shall
contain, if known, information about excretion of
the drug in human milk and effects on the nursing

App-222
infant. Pertinent adverse effects observed in
animal offspring shall be described.
(ii) If a drug is absorbed systemically and is
known to be excreted in human milk, this
subsection of the labeling shall contain one of the
following statements, as appropriate. If the drug
is associated with serious adverse reactions or if
the drug has a known tumorigenic potential, the
labeling shall state: ‘‘Because of the potential for
serious adverse reactions in nursing infants from
(name of drug) (or, ‘‘Because of the potential for
tumorigenicity shown for (name of drug) in
(animal or human) studies), a decision should be
made whether to discontinue nursing or to
discontinue the drug, taking into account the
importance of the drug to the mother.’’ If the drug
is not associated with serious adverse reactions
and does not have a known tumorigenic potential,
the labeling shall state: ‘‘Caution should be
exercised when (name of drug) is administered to
a nursing woman.’’
(iii) If a drug is absorbed systemically and
information on excretion in human milk is
unknown, this subsection of the labeling shall
contain one of the following statements, as
appropriate. If the drug is associated with serious
adverse reactions or has a known tumorigenic
potential, the labeling shall state: ‘‘It is not known
whether this drug is excreted in human milk.
Because many drugs are excreted in human milk
and because of the potential for serious adverse
reactions in nursing infants from (name of drug)
(or, ‘‘Because of the potential for tumorigenicity

App-223
shown for (name of drug) in (animal or human)
studies), a decision should be made whether to
discontinue nursing or to discontinue the drug,
taking into account the importance of the drug to
the mother.’’ If the drug is not associated with
serious adverse reactions and does not have a
known tumorigenic potential, the labeling shall
state: ‘‘It is not known whether this drug is
excreted in human milk. Because many drugs are
excreted in human milk, caution should be
exercised when (name of drug) is administered to
a nursing woman.’’
(9) Pediatric use. (i) Pediatric population(s)/pediatric
patient(s): For the purposes of paragraphs
(f)(9)(ii) through (f)(9)(viii) of this setion, the
terms pediatric population(s) and pediatric
patient(s) are defined as the pediatric age group,
from birth to 16 years, including age groups often
called
neonates,
infants,
children,
and
adolescents.
(ii) If there is a specific pediatric indication (i.e.,
an indication different from those approved for
adults) that is supported by adequate and wellcontrolled studies in the pediatric population, it
shall be described under the ‘‘Indications and
Usage’’ section of the labeling, and appropriate
pediatric dosage information shall be given under
the ‘‘Dosage and Administration’’ section of the
labeling. The ‘‘Pediatric use’’ subsection shall cite
any limitations on the pediatric indication, need
for specific monitoring, specific hazards
associated with use of the drug in any subsets of
the pediatric population (e.g., neonates),

App-224
differences between pediatric and adult responses
to the drug, and other information related to the
safe and effective pediatric use of the drug. Data
summarized in this subsection of the labeling
should be discussed in more detail, if appropriate,
under the ‘‘Clinical Pharmacology’’ or ‘‘Clinical
Studies’’ section. As appropriate, this information
shall also be contained in the ‘‘Contraindications,’’
‘‘Warnings,’’ and elsewhere in the ‘‘Precautions’’
sections.
(iii) If there are specific statements on pediatric
use of the drug for an indication also approved for
adults that are based on adequate and wellcontrolled studies in the pediatric population,
they shall be summarized in the ‘‘Pediatric use’’
subsection of the labeling and discussed in more
detail, if appropriate, under the ‘‘Clinical
Pharmacology’’ and ‘‘Clinical Studies’’ sections.
Appropriate pediatric dosage shall be given under
the ‘‘Dosage and Administration’’ section of the
labeling. The ‘‘Pediatric use’’ subsection of the
labeling shall also cite any limitations on the
pediatric use statement, need for specific
monitoring, specific hazards associated with use
of the drug in any subsets of the pediatric
population (e.g., neonates), differences between
pediatric and adult responses to the drug, and
other information related to the safe and effective
pediatric use of the drug. As appropriate, this
information shall also be contained in the
‘‘Contraindications,’’ ‘‘Warnings,’’ and elsewhere
in the ‘‘Precautions’’ sections.

App-225
(iv) FDA may approve a drug for pediatric use
based on adequate and well-controlled studies in
adults, with other information supporting
pediatric use. In such cases, the agency will have
concluded that the course of the disease and the
effects of the drug, both beneficial and adverse,
are sufficiently similar in the pediatric and adult
populations to permit extrapolation from the
adult efficacy data to pediatric patients. The
additional information supporting pediatric use
must
ordinarily
include
data
on
the
pharmacokinetics of the drug in the pediatric
population for determination of appropriate
dosage. Other information, such as data from
pharmacodynamic studies of the drug in the
pediatric population, data from other studies
supporting the safety or effectiveness of the drug
in pediatric patients, pertinent premarketing or
postmarketing studies or experience, may be
necessary to show that the drug can be used safely
and effectively in pediatric patients. When a drug
is approved for pediatric use based on adequate
and well-controlled studies in adults with other
information supporting pediatric use, the
‘‘Pediatric use’’ subsection of the labeling shall
contain either the following statement, or a
reasonable alternative: ‘‘The safety and
effectiveness of (drug name) have been
established in the age groups __ to __ (note any
limitations, e.g., no data for pediatric patients
under 2, or only applicable to certain indications
approved in adults). Use of (drug name) in these
age groups is supported by evidence from
adequate and well-controlled studies of (drug

App-226
name) in adults with additional data (insert
wording that accurately describes the data
submitted to support a finding of substantial
evidence of effectiveness in the pediatric
population).’’ Data summarized in the preceding
prescribed statement in this subsection of the
labeling shall be discussed in more detail, if
appropriate, under the ‘‘Clinical Pharmacology’’
or the ‘‘Clinical Studies’’ section. For example,
pediatric pharmacokinetic or pharmacodynamic
studies and dose-response information should be
described in the ‘‘Clinical Pharmacology’’ section.
Pediatric dosing instructions shall be included in
the ‘‘Dosage and Administration’’ section of the
labeling. Any differences between pediatric and
adult responses, need for specific monitoring,
dosing adjustments, and any other information
related to safe and effective use of the drug in
pediatric patients shall be cited briefly in the
‘‘Pediatric use’’ subsection and, as appropriate, in
the
‘‘Contraindications,’’
‘‘Warnings,’’
‘‘Precautions,’’ and ‘‘Dosage and Administration’’
sections.
(v) If the requirements for a finding of
substantial evidence to support a pediatric
indication or a pediatric use statement have not
been met for a particular pediatric population, the
‘‘Pediatric use’’ subsection of the labeling shall
contain an appropriate statement such as ‘‘Safety
and effectiveness in pediatric patients below the
age of (__) have not been established.’’ If use of the
drug in this pediatric population is associated
with a specific hazard, the hazard shall be
described in this subsection of the labeling, or, if

App-227
appropriate, the hazard shall be stated in the
‘‘Contraindications’’ or ‘‘Warnings’’ section of the
labeling and this subsection shall refer to it.
(vi) If the requirements for a finding of
substantial evidence to support a pediatric
indication or a pediatric use statement have not
been met for any pediatric population, this
subsection of the labeling shall contain the
following statement: ‘‘Safety and effectiveness in
pediatric patients have not been established.’’ If
use of the drug in premature or neonatal infants,
or other pediatric subgroups, is associated with a
specific hazard, the hazard shall be described in
this subsection of the labeling, or, if appropriate,
the
hazard
shall
be
stated
in
the
‘‘Contraindications’’ or ‘‘Warnings’’ section of the
labeling and this subsection shall refer to it.
(vii) If the sponsor believes that none of the
statements described in paragraphs (f)(9)(ii)
through (f)(9)(vi) of this section is appropriate or
relevant to the labeling of a particular drug, the
sponsor shall provide reasons for omission of the
statements and may propose alternative
statement(s). FDA may permit use of an
alternative statement if FDA determines that no
statement described in those paragraphs is
appropriate or relevant to the drug’s labeling and
that the alternative statement is accurate and
appropriate.
(viii) If the drug product contains one or more
inactive ingredients that present an increased risk
of toxic effects to neonates or other pediatric
subgroups, a special note of this risk shall be

App-228
made, generally in the ‘‘Contraindications,’’
‘‘Warnings,’’ or ‘‘Precautions’’ section.
(10) Geriatric use. (i) A specific geriatric indication, if
any, that is supported by adequate and wellcontrolled studies in the geriatric population shall
be described under the ‘‘Indications and Usage’’
section of the labeling, and appropriate geriatric
dosage shall be stated under the ‘‘Dosage and
Administration’’ section of the labeling. The
‘‘Geriatric use’’ subsection shall cite any
limitations on the geriatric indication, need for
specific monitoring, specific hazards associated
with the geriatric indication, and other
information related to the safe and effective use of
the drug in the geriatric population. Unless
otherwise noted, information contained in the
‘‘Geriatric use’’ subsection of the labeling shall
pertain to use of the drug in persons 65 years of
age and older. Data summarized in this
subsection of the labeling shall be discussed in
more detail, if appropriate, under ‘‘Clinical
Pharmacology’’ or the ‘‘Clinical Studies’’ section.
As appropriate, this information shall also be
contained in ‘‘Contraindications,’’ ‘‘Warnings,’’
and elsewhere in ‘‘Precautions.’’
(ii) Specific statements on geriatric use of the
drug for an indication approved for adults
generally, as distinguished from a specific
geriatric indication, shall be contained in the
‘‘Geriatric use’’ subsection and shall reflect all
information available to the sponsor that is
relevant to the appropriate use of the drug in
elderly patients. This information includes

App-229
detailed results from controlled studies that are
available to the sponsor and pertinent
information from well-documented studies
obtained from a literature search. Controlled
studies include those that are part of the
marketing application and other relevant studies
available to the sponsor that have not been
previously submitted in the investigational new
drug application, new drug application, biological
license application, or a supplement or
amendment to one of these applications (e.g.,
postmarketing studies or adverse drug reaction
reports). The ‘‘Geriatric use’’ subsection shall
contain the following statement(s) or reasonable
alternative, as applicable, taking into account
available information:
(A) If clinical studies did not include
sufficient numbers of subjects aged 65 and
over to determine whether elderly subjects
respond differently from younger subjects,
and other reported clinical experience has not
identified such differences, the ‘‘Geriatric
use’’ subsection shall include the following
statement:
‘‘Clinical studies of (name of drug)
did not include sufficient numbers of
subjects aged 65 and over to
determine whether they respond
differently from younger subjects.
Other reported clinical experience
has not identified differences in
responses between the elderly and
younger patients. In general, dose

App-230
selection for an elderly patient
should be cautious, usually starting
at the low end of the dosing range,
reflecting the greater frequency of
decreased hepatic, renal, or cardiac
function, and of concomitant disease
or other drug therapy.’’
(B) If clinical studies (including studies that
are part of marketing applications and other
relevant studies available to the sponsor that
have not been submitted in the sponsor’s
applications) included enough elderly
subjects to make it likely that differences in
safety or effectiveness between elderly and
younger subjects would have been detected,
but no such differences (in safety or
effectiveness) were observed, and other
reported clinical experience has not identified
such differences, the ‘‘Geriatric use’’
subsection shall contain the following
statement:
Of the total number of subjects in
clinical studies of (name of drug), __
percent were 65 and over, while __
percent
were
75
and
over.
(Alternatively, the labeling may
state the total number of subjects
included in the studies who were 65
and over and 75 and over.) No overall
differences in safety or effectiveness
were observed between these
subjects and younger subjects, and
other reported clinical experience

App-231
has not identified differences in
responses between the elderly and
younger patients, but greater
sensitivity of some older individuals
cannot be ruled out.
(C) If evidence from clinical studies and
other reported clinical experience available to
the sponsor indicates that use of the drug in
elderly patients is associated with differences
in safety or effectiveness, or requires specific
monitoring or dosage adjustment, the
‘‘Geriatric use’’ subsection of the labeling
shall contain a brief description of observed
differences or specific monitoring or dosage
requirements and, as appropriate, shall refer
to more detailed discussions in the
‘‘Contraindications,’’ ‘‘Warnings,’’ ‘‘Dosage
and Administration,’’ or other sections of the
labeling.
(iii)(A) If
specific
pharmacokinetic
or
pharmacodynamic studies have been carried
out in the elderly, they shall be described
briefly in the ‘‘Geriatric use’’ subsection of the
labeling and in detail under the ‘‘Clinical
Pharmacology’’
section.
The
‘‘Clinical
Pharmacology’’
section
and
‘‘Drug
interactions’’ subsection of the ‘‘Precautions’’
section ordinarily contain information on
drug-disease and drug-drug interactions that
is particularly relevant to the elderly, who are
more likely to have concomitant illness and to
utilize concomitant drugs.

App-232
(B) If a drug is known to be substantially
excreted by the kidney, the ‘‘Geriatric use’’
subsection shall include the statement:
‘‘This drug is known to be
substantially excreted by the kidney,
and the risk of toxic reactions to this
drug may be greater in patients with
impaired renal function. Because
elderly patients are more likely to
have decreased renal function, care
should be taken in dose selection,
and it may be useful to monitor renal
function.’’
(iv) If use of the drug in the elderly appears to
cause a specific hazard, the hazard shall be
described in the ‘‘Geriatric use’’ subsection of the
labeling, or, if appropriate, the hazard shall be
stated in the ‘‘Contraindications,’’ ‘‘Warnings,’’ or
‘‘Precautions’’ section of the labeling, and the
‘‘Geriatric use’’ subsection shall refer to those
sections.
(v) Labeling under paragraphs (f)(10)(i) through
(f)(10)(iii) of this section may include statements,
if they would be useful in enhancing safe use of
the drug, that reflect good clinical practice or past
experience in a particular situation, e.g., for a
sedating drug, it could be stated that:
‘‘Sedating drugs may cause confusion and
over-sedation in the elderly; elderly
patients generally should be started on
low doses of (name of drug) and observed
closely.’’

App-233
(vi) If the sponsor believes that none of the
requirements described in paragraphs (f)(10)(i)
through (f)(10)(v) of this section is appropriate or
relevant to the labeling of a particular drug, the
sponsor shall provide reasons for omission of the
statements and may propose an alternative
statement. FDA may permit omission of the
statements if FDA determines that no statement
described in those paragraphs is appropriate or
relevant to the drug’s labeling. FDA may permit
use of an alternative statement if the agency
determines that such statement is accurate and
appropriate.
(g) Adverse Reactions. An adverse reaction is an
undesirable effect, reasonably associated with the use
of the drug, that may occur as part of the
pharmacological action of the drug or may be
unpredictable in its occurrence.
(1) This section of the labeling shall list the adverse
reactions that occur with the drug and with drugs in
the same pharmacologically active and chemically
related class, if applicable.
(2) In this listing, adverse reactions may be
categorized by organ system, by severity of the
reaction, by frequency, or by toxicological mechanism,
or by a combination of these, as appropriate. If
frequency information from adequate clinical studies
is available, the categories and the adverse reactions
within each category shall be listed in decreasing
order of frequency. An adverse reaction that is
significantly more severe than the other reactions
listed in a category, however, shall be listed before
those reactions, regardless of its frequency. If

App-234
frequency information from adequate clinical studies
is not available, the categories and adverse reactions
within each category shall be listed in decreasing
order of severity. The approximate frequency of each
adverse reaction shall be expressed in rough estimates
or orders of magnitude essentially as follows: ‘‘The
most frequent adverse reaction(s) to (name of drug) is
(are) (list reactions). This (these) occur(s) in about
(e.g., one-third of patients; one in 30 patients; less
than one-tenth of patients). Less frequent adverse
reactions are (list reactions), which occur in
approximately (e.g., one in 100 patients). Other
adverse
reactions,
which
occur
rarely,
in
approximately (e.g., one in 1,000 patients), are (list
reactions).’’ Percent figures may not ordinarily be used
unless they are documented by adequate and wellcontrolled studies as defined in § 314.126(b) of this
chapter, they are shown to reflect general experience,
and they do not falsely imply a greater degree of
accuracy than actually exists.
(3) The ‘‘Warnings’’ section of the labeling or, if
appropriate, the ‘‘Contraindications’’ section of the
labeling shall identify any potentially fatal adverse
reaction.
(4) Any claim comparing the drug to which the
labeling applies with other drugs in terms of
frequency, severity, or character of adverse reactions
shall be based on adequate and well-controlled studies
as defined in § 314.126(b) of this chapter unless this
requirement is waived under § 201.58 or § 314.126(b)
of this chapter.

App-235
(h) Drug Abuse and Dependence. Under this section
heading, the labeling shall contain the following
subsections, as appropriate for the drug:
(1) Controlled Substance. If the drug is controlled by
the Drug Enforcement Administration, the schedule
in which it is controlled shall be stated.
(2) Abuse. This subsection of the labeling shall be
based primarily on human data and human
experience, but pertinent animal data may also be
used. This subsection shall state the types of abuse
that can occur with the drug and the adverse reactions
pertinent to them. Particularly susceptible patient
populations shall be identified.
(3) Dependence. This subsection of the labeling shall
describe characteristic effects resulting from both
psychological and physical dependence that occur with
the drug and shall identify the quantity of the drug
over a period of time that may lead to tolerance or
dependence, or both. Details shall be provided on the
adverse effects of chronic abuse and the effects of
abrupt withdrawal. Procedures necessary to diagnose
the dependent state shall be provided, and the
principles of treating the effects of abrupt withdrawal
shall be described.
(i) Overdosage. Under this section heading, the
labeling shall describe the signs, symptoms, and
laboratory findings of acute overdosage and the
general principles of treatment. This section shall
be based on human data, when available. If
human data are unavailable, appropriate animal
and in vitro data may be used. Specific
information shall be provided about the following:

App-236
(1) Signs,
symptoms, and laboratory
findings associated with an overdosage of the
drug.
(2) Complications that can occur with the
drug (for example, organ toxicity or delayed
acidosis).
(3) Oral LD50 of the drug in animals;
concentrations of the drug in biologic fluids
associated with toxicity and/or death;
physiologic variables influencing excretion of
the drug, such as urine pH; and factors that
influence the dose response relationship of
the
drug,
such as tolerance. The
pharmacokinetic data given in the ‘‘Clinical
Pharmacology’’ section also may be
referenced here, if applicable to overdoses.
(4) The amount of the drug in a single dose
that is ordinarily associated with symptoms
of overdosage and the amount of the drug in
a single dose that is likely to be lifethreatening.
(5) Whether the drug is dialyzable.
(6) Recommended
general
treatment
procedures and specific measures for support
of vital functions, such as proven antidotes,
induced emesis, gastric lavage, and forced
diuresis. Unqualified recommendations for
which data are lacking with the specific drug
or class of drugs, especially treatment using
another drug (for example, central nervous
system stimulants, respiratory stimulants)
may not be stated unless specific data or

App-237
scientific rationale exists to support safe and
effective use.
(j) Dosage and Administration. This section of the
labeling shall state the recommended usual dose, the
usual dosage range, and, if appropriate, an upper limit
beyond which safety and effectiveness have not been
established; dosages shall be stated for each indication
when appropriate. This section shall also state the
intervals recommended between doses, the optimal
method of titrating dosage, the usual duration of
treatment, and any modification of dosage needed in
special patient populations, e.g., in children, in
geriatric age groups, or in patients with renal or
hepatic disease. Specific tables or monographs may be
included to clarify dosage schedules. Radiation
dosimetry information shall be stated for both the
patient receiving a radioactive drug and the person
administering it. This section shall also contain
specific direction on dilution, preparation (including
the strength of the final dosage solution, when
prepared according to instructions, in terms of
milligrams active ingredient per milliliter of
reconstituted solution, unless another measure of the
strength is more appropriate), and administration of
the dosage form, if needed, e.g., the rate of
administration of parenteral drug in milligrams per
minute; storage conditions for stability of the drug or
reconstituted drug, when important; essential
information on drug incompatibilities if the drug is
mixed in vitro with other drugs; and the following
statement for parenterals: ‘‘Parenteral drug products
should be inspected visually for particulate matter
and discoloration prior to administration, whenever
solution and container permit.’’

App-238
(k) How Supplied. This section of the labeling shall
contain information on the available dosage forms to
which the labeling applies and for which the
manufacturer or distributor is responsible. The
information shall ordinarily include:
(1) The strength of the dosage form, e.g., 10milligram tablets, in metric system and, if the
apothecary system is used, a statement of the strength
is placed in parentheses after the metric designation;
(2) The units in which the dosage form is ordinarily
available for prescribing by practitioners, e.g., bottles
of 100;
(3) Appropriate
information
to
facilitate
identification of the dosage forms, such as shape, color,
coating, scoring, and National Drug Code; and
(4) Special handling and storage conditions.
(l) Animal Pharmacology and/or Animal Toxicology.
In most cases, the labeling need not include this
section. Significant animal data necessary for safe and
effective use of the drug in humans shall ordinarily be
included in one or more of the other sections of the
labeling, as appropriate. Commonly for a drug that
has been marketed for a long time, and in rare cases
for a new drug, chronic animal toxicity studies have
not been performed or completed for a drug that is
administered over prolonged periods or is implanted
in the body. The unavailability of such data shall be
stated in the appropriate section of the labeling for the
drug. If the pertinent animal data cannot be
appropriately incorporated into other sections of the
labeling, this section may be used.

App-239
(m) ‘‘Clinical Studies’’ and ‘‘References’’. These
sections may appear in labeling in the place of a
detailed discussion of a subject that is of limited
interest but nonetheless important. A reference to a
specific important clinical study may be made in any
section of the format required under §§ 201.56 and
201.57 if the study is essential to an understandable
presentation of the available information. References
may appear in sections of the labeling format, other
than the ‘‘Clinical Studies’’ or ‘‘References’’ section, in
rare circumstances only. A clinical study or reference
may be cited in prescription drug labeling only under
the following conditions:
(1) If the clinical study or reference is cited in the
labeling in the place of a detailed discussion of data
and information concerning an indication for use of
the drug, the reference shall be based upon, or the
clinical study shall constitute, an adequate and wellcontrolled clinical investigation under § 314.126(b) of
this chapter.
(2) If the clinical study or reference is cited in the
labeling in the place of a detailed discussion of data
and information concerning a risk or risks from the
use of the drug, the risk or risks shall also be identified
or discussed in the appropriate section of the labeling
for the drug.
21 C.F.R. § 314.70 (2003). Supplements and
other changes to an approved application.
(a) Changes to an approved application. The
applicant shall notify FDA about each change in each
condition established in an approved application
beyond the variations already provided for in the
application. The notice is required to describe the

App-240
change fully. Depending on the type of change, the
applicant shall notify FDA about it in a supplemental
application under paragraph (b) or (c) of this section
or by inclusion of the information in the annual report
to the application under paragraph (d) of this section.
Notwithstanding the requirements of paragraphs (b)
and (c) of this section, an applicant shall make a
change provided for in those paragraphs (for example,
the deletion of an ingredient common to many drug
products) in accordance with a notice, or regulation
published in the FEDERAL REGISTER that provides for
a less burdensome notification of the change (for
example, by notification at the time a supplement is
submitted or in the next annual report). Except for a
supplemental application providing for a change in the
labeling, the applicant, other than a foreign applicant,
shall include in each supplemental application
providing for a change under paragraph (b) or (c) of
this section a statement certifying that a field copy of
the supplement has been provided to the applicant’s
home FDA district office.
(b) Supplements requiring FDA approval before the
change is made. An applicant shall submit a
supplement, and obtain FDA approval of it, before
making the changes listed below in the conditions in
an approved application, unless the change is made to
comply with an official compendium. An applicant
may ask FDA to expedite its review of a supplement if
a delay in making the change described in it would
impose an extraordinary hardship on the applicant.
Such a supplement and its mailing cover should be
plainly marked: ‘‘Supplement—Expedited Review
Requested.’’

App-241
(1) Drug substance. A change affecting the drug
substance to accomplish any of the following:
(i) To relax the limits for a specification;
(ii) To establish a new regulatory analytical
method;
(iii) To delete a specification or regulatory
analytical method;
(iv) To change the synthesis of the drug
substance, including a change in solvents and a
change in the route of synthesis.
(v) To use a different facility or establishment to
manufacture the drug substance, where: (a) the
manufacturing process in the new facility or
establishment differs materially from that in the
former facility or establishment, or (b) the new
facility or establishment has not received a
satisfactory current good manufacturing practice
(CGMP) inspection within the previous 2 years
covering that manufacturing process.
(2) Drug product. A change affecting the drug product
to accomplish any of the following:
(i) To add or delete an ingredient, or otherwise
to change the composition of the drug product,
other than deletion of an ingredient intended only
to affect the color of the drug product;
(ii) To relax the limits for a specification;
(iii) To establish a new regulatory analytical
method;
(iv) To delete a specification or regulatory
analytical method;

App-242
(v) To change the method of manufacture of the
drug product, including changing or relaxing an
in-process control;
(vi) To use a different facility or establishment,
including a different contract laboratory or
labeler, to manufacture, process, or pack the drug
product;
(vii) To change the container and closure system
for the drug product (for example, glass to high
density polyethylene (HDPE), or HDPE to
polyvinyl chloride) or change a specification or
regulatory analytical method for the container
and closure system;
(viii) To change the size of the container, except
for solid dosage forms, without a change in the
container and closure system.
(ix) To extend the expiration date of the drug
product based on data obtained under a new or
revised stability testing protocol that has not been
approved in the application.
(x) To establish a new procedure for reprocessing
a batch of the drug product that fails to meet
specifications.
(xi) To add a code imprint by printing with ink on
a solid oral dosage form drug product.
(xii) To add a code imprint by embossing,
debossing, or engraving on a modified release
solid oral dosage form drug product.
(3) Labeling. (i) Any change in labeling, except one
described in paragraphs (c)(2) or (d) of this
section.

App-243
(ii) If applicable, any change to a Medication
Guide required under part 208 of this chapter,
except for changes in the information specified in
§ 208.20(b)(8)(iii) and (b)(8)(iv).
(c) Supplements for changes that may be made before
FDA approval. An applicant shall submit a
supplement at the time the applicant makes any kind
of change listed below in the conditions in an approved
application, unless the change is made to comply with
an official compendium. A supplement under this
paragraph is required to give a full explanation of the
basis for the change, identify the date on which the
change is made, and, if the change concerns labeling,
include 12 copies of final printed labeling. The
applicant shall promptly revise all promotional
labeling and drug advertising to make it consistent
with any change in the labeling. The supplement and
its mailing cover should be plainly marked: ‘‘Special
Supplement—Changes Being Effected.’’
(1) Adds a new specification or test method or
changes in the methods, facilities (except a change to
a new facility), or controls to provide increased
assurance that the drug will have the characteristics
of identity, strength, quality, and purity which it
purports or is represented to possess;
(2) Changes labeling to accomplish any of the
following:
(i) To add or strengthen a contraindication,
warning, precaution, or adverse reaction;
(ii) To add or strengthen a statement about drug
abuse, dependence, or over-dosage; or

App-244
(iii) To add or strengthen an instruction about
dosage and administration that is intended to
increase the safe use of the product.
(iv) To delete false, misleading, or unsupported
indications for use or claims for effectiveness.
(3) To use a different facility or establishment to
manufacture the drug substance, where: (i) The
manufacturing process in the new facility or
establishment does not differ materially from that in
the former facility or establishment, and (ii) the new
facility or establishment has received a satisfactory
current good manufacturing practice (CGMP)
inspection within the previous 2 years covering that
manufacturing process.
(d) Changes described in the annual report. An
applicant shall not submit a supplement to make any
change in the conditions in an approved application,
unless otherwise required under paragraph (b) or (c)
of this section, but shall describe the change in the
next annual report required under § 314.81. Some
examples of changes that can be described in the
annual report are the following:
(1) Any change made to comply with an official
compendium.
(2) A change in the labeling concerning the
description of the drug product or in the information
about how the drug product is supplied, that does not
involve a change in the dosage strength or dosage
form.
(3) An editorial or similar minor change in labeling.
(4) The deletion of an ingredient intended only to
affect the color of the drug product.

App-245
(5) An extension of the expiration date based upon
full shelf-life data obtained from a protocol approved
in the application.
(6) A change within the container and closure system
for the drug product (for example, a change from one
high density polyethylene (HDPE) to another HDPE),
except a change in container size for nonsolid dosage
forms, based upon a showing of equivalency to the
approved system under a protocol approved in the
application or published in an official compendium.
(7) The addition or deletion of an alternate analytical
method.
(8) A change in the size of a container for a solid
dosage form, without a change from one container and
closure system to another.
(9) The addition by embossing, debossing, or
engraving of a code imprint to a solid oral dosage form
drug product other than a modified release dosage
form, or a minor change in an existing code imprint.
(e) Patent information. The applicant shall comply
with the patent information requirements under
section 505(c)(2) of the act.
(f) Claimed exclusivity. If an applicant claims
exclusivity under § 314.108 upon approval of a
supplemental application for a change to its
previously approved drug product, the applicant shall
include with its supplemental application the
information required under § 314.50(j).
(g) Exception. An applicant proposing to make a
change of a type described in paragraphs (a), (b)(1),
(b)(2), (c)(1), (c)(3), (d)(1), and (d)(4) through (d)(9) of
this section affecting a recombinant DNA-derived

App-246
protein/polypeptide product or a complex or conjugate
of a drug with a monoclonal antibody regulated under
the Federal Food, Drug, and Cosmetic Act shall
comply with the following:
(1) Changes requiring supplement submission and
approval prior to distribution of the product made
using the change (major changes). (i) A supplement
shall be submitted for any change in the product,
production process, quality controls, equipment, or
facilities that has a substantial potential to have an
adverse effect on the identity, strength, quality,
purity, or potency of the product as they may relate to
the safety or effectiveness of the product.
(ii) These changes include, but are not limited to:
(A) Changes
in
the
qualitative
or
quantitative
formulation
or
other
specifications as provided in the approved
application or in the regulations;
(B) Changes requiring completion of an
appropriate human study to demonstrate the
equivalence of the identity, strength, quality,
purity, or potency of the product as they may
relate to the safety or effectiveness of the
product;
(C) Changes in the virus or adventitious
agent removal or inactivation method(s);
(D) Changes in the source material or cell
line;
(E) Establishment of a new master cell bank
or seed; and
(F) Changes which may affect product
sterility assurance, such as changes in

App-247
product or component sterilization method(s)
or an addition, deletion, or substitution of
steps in an aseptic processing operation.
(iii) The applicant must obtain approval of the
supplement from FDA prior to distribution of the
product made using the change. Except for
submissions under paragraph (g)(4) of this
section, the following shall be contained in the
supplement:
(A) A detailed description of the proposed
change;
(B) The product(s) involved;
(C) The manufacturing site(s) or area(s)
affected;
(D) A description of the methods used and
studies performed to evaluate the effect of the
change on the identity, strength, quality,
purity, or potency of the product as they may
relate to the safety or effectiveness of the
product;
(E) The data derived from such studies;
(F) Relevant validation protocols and data;
and
(G) A reference list of relevant standard
operating procedures (SOP’s).
(2) Changes requiring supplement submission at least
30 days prior to distribution of the product made using
the change. (i) A supplement shall be submitted for
any change in the product, production process, quality
controls, equipment, or facilities that has a moderate
potential to have an adverse effect on the identity,

App-248
strength, quality, purity, or potency of the product as
they may relate to the safety or effectiveness of the
product. The supplement shall be labeled
‘‘Supplement—Changes Being Effected in 30 Days’’ or,
if applicable under paragraph (g)(2)(v) of this section,
‘‘Supplement—Changes Being Effected.’’
(ii) These changes include, but are not limited to:
(A) Change in the site of testing from one
facility to another;
(B) An increase or decrease in production
scale during finishing steps that involves new
or different equipment; and
(C) Replacement of equipment with that of
similar, but not identical, design and
operating principle that does not affect the
process methodology or process operating
parameters.
(iii) Pending approval of the supplement by FDA,
and except as provided in paragraph (g)(2)(v) of
this section, distribution of the product made
using the change may begin not less than 30 days
after receipt of the supplement by FDA. The
information listed in paragraph (g)(1)(iii)(A)
through (g)(1)(iii)(G) of this section shall be
contained in the supplement.
(iv) If within 30 days following FDA’s receipt of
the supplement, FDA informs the applicant that
either:
(A) The change requires approval prior to
distribution of the product in accordance with
paragraph (g)(1) of this section; or

App-249
(B) Any of the information required under
paragraph (g)(2)(iii) of this section is missing;
the applicant shall not distribute the product
made using the change until FDA determines
that compliance with this section is achieved.
(v) In certain circumstances, FDA may
determine that, based on experience with a
particular type of change, the supplement for such
change is usually complete and provides the
proper information, and on particular assurances
that the proposed change has been appropriately
submitted, the product made using the change
may be distributed immediately upon receipt of
the supplement by FDA. These circumstances
may include substantial similarity with a type of
change regularly involving a ‘‘Supplement—
Changes Being Effected’’ supplement, or a
situation in which the applicant presents evidence
that the proposed change has been validated in
accordance with an approved protocol for such
change under paragraph (g)(4) of this section.
(3) Changes to be described in an annual report
(minor changes). (i) Changes in the product,
production process, quality controls, equipment, or
facilities that have a minimal potential to have an
adverse effect on the identity, strength, quality,
purity, or potency of the product as they may relate to
the safety or effectiveness of the product shall be
documented by the applicant in the next annual report
in accordance with § 314.81(b)(2)(iv).
(ii) These changes include, but are not limited to:

App-250
(A) Any change made to comply with an
official compendium that is consistent with
FDA requirements;
(B) The deletion of an ingredient intended
only to affect the color of the product;
(C) An extension of an expiration date based
upon full shelf life data obtained from a
protocol approved in the application;
(D) A change within the container and
closure system for solid dosage forms, based
upon a showing of equivalency to the
approved system under a protocol approved
in the application or published in an official
compendium;
(E) A change in the size of a container for a
solid dosage form, without a change from one
container and closure system to another;
(F) The addition by embossing, debossing, or
engraving of a code imprint to a solid dosage
form drug product other than a modified
release dosage form, or a minor change in an
existing code imprint; and
(G) The addition or deletion of an alternate
analytical method.
(4) An applicant may submit one or more protocols
describing the specific tests and validation studies and
acceptable limits to be achieved to demonstrate the
lack of adverse effect for specified types of
manufacturing changes on the identity, strength,
quality, purity, or potency of the product as they may
relate to the safety or effectiveness of the product. Any
such protocols, or change to a protocol, shall be

App-251
submitted as a supplement requiring approval from
FDA prior to distribution of the product which, if
approved, may justify a reduced reporting category for
the particular change because the use of the protocol
for that type of change reduces the potential risk of an
adverse effect.

